<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]




 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              


                         THURSDAY, MAY 10, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 9:37 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Lisa Murkowski (Chairman) 
presiding.
    Present: Senators Murkowski, Alexander, Capito, Daines, 
Rubio, Hyde-Smith, Udall, Leahy, Tester, Merkley, Manchin, and 
Van Hollen.

                       DEPARTMENT OF THE INTERIOR

STATEMENT OF HON. RYAN ZINKE, SECRETARY
ACCOMPANIED BY:
        OLIVIA BARTON FERRITER, DEPUTY ASSISTANT SECRETARY, BUDGET, 
            FINANCE, PERFORMANCE, AND ACQUISITION
        DENISE A. FLANAGAN, DIRECTOR, OFFICE OF BUDGET


              opening statement of senator lisa murkowski


    Senator Murkowski. Good morning. The hearing will come to 
order.
    Today, we will review the fiscal year 2019 budget request 
for the Department of the Interior.
    I would like to welcome back to the subcommittee our 
witnesses this morning, Secretary Zinke, accompanied by Deputy 
Assistant Secretary for Budget, Finance, Performance, and 
Acquisition, Olivia Ferriter; and the Director of the Office of 
Budget, Denise Flanagan. So welcome to you all. And, Mr. 
Secretary, welcome back to the subcommittee.
    The Energy and Natural Resources Committee held its budget 
hearing back in March, and I appreciate the opportunity to 
further discuss the details of your budget with you today.
    Over the past year, we have been able to work very closely 
on a host of issues that are crucial to Alaska, and I thank you 
for your commitment and your attention to these very important 
matters and all that you have done to promote the responsible 
development of our State's abundant natural resources.
    Just as a reminder to colleagues, we are going to adhere to 
the early bird rule this morning. I will call on Members in the 
order they arrived, going back and forth. We will do 6-minute 
rounds of questions. It is my hope that we will be able to do a 
couple rounds in an effort to give everyone an opportunity to 
address the issues that they wish to raise.
    The fiscal year 2019 budget request for the Department of 
the Interior is $10.5 billion for programs within the 
jurisdiction of the Interior subcommittee. This is roughly $2.5 
billion below the enacted level, a reduction of 19 percent. As 
with every President's budget request, there are portions of 
the budget that I support and others that I will note my 
concerns.
    I do appreciate the budget's emphasis on greater energy 
security and increasing responsible development of our natural 
resources. An important effort is the Department's work on a 
new 5-year plan for offshore leasing. I am pleased that the 
draft proposed plan includes the Arctic OCS, which holds 
enormous potential on both the Beaufort and the Chukchi Seas.
    I know Members from other States have differing views on 
including some new areas in the plan and that stakeholders and 
the public have offered extensive comments. I support a plan 
that balances greater access while maintaining protections in 
areas where development may not be appropriate at this time. 
And I, along with the rest of the Alaska delegation, have made 
clear where those protections offshore of Alaska should 
continue.
    I am also pleased with the budget's emphasis on our 
Nation's mineral security. This is an issue that I have been 
working on for many years, and I appreciate both you and 
President Trump recognizing the importance of reducing our 
Nation's dependence on foreign sources for critical minerals 
that are essential to our economic security.
    There are some reductions in the budget that I cannot 
support. One example is with the State of Alaska and our Alaska 
Natives, who are still waiting for the Department to convey 
title to millions of acres of their lands more than 50 years 
since statehood. So it is hard for me to accept a 38 percent 
reduction to the Department's program that issues conveyances 
to those who have already waited far too long to receive title 
to their lands.
    Alaska also has one half of all federally recognized 
Tribes. The Bureau of Indian Affairs (BIA) provides essential 
programs for Alaska Natives and American Indians that are 
fundamental to the Federal Government's legal obligations to 
our First Peoples, and I am concerned by many of the proposed 
reductions to the BIA.
    Some of the programs that I will note with concern are the 
proposed elimination of the Tribal Courts program and the Small 
and Needy Tribes program. These provide critical resources to 
some of the poorest and most remote villages in Alaska.
    We had an opportunity yesterday in Indian Affairs to have 
the President's nominee for Assistant Secretary to the BIA, 
Tara Sweeney, come before us, and it was made very clear by 
Members, both Senator Tester and Senator Udall here, that we 
have high expectations for the Assistant Secretary. It is a 
difficult job, but her department needs to be resourced 
appropriately.
    Mr. Secretary, in your testimony, you highlight the 
importance of addressing the deferred maintenance problem 
across the Department. The budget request proposes to establish 
a new public lands infrastructure fund to address the 
multibillion-dollar maintenance backlog at our Nation's parks, 
refuges, and the Bureau of Indian Education schools.
    Similar proposals have been introduced by Members of the 
Senate, including Senator Alexander. I look forward to working 
with you and my colleagues on this issue in both my role as 
Chairman of this subcommittee and as Chair of the Energy and 
Natural Resources Committee.
    We have made significant investments in deferred 
maintenance across the Department. With the 2018 omnibus 
appropriations bill, the National Park Service construction 
account received a $150 million increase. This is the largest 
annual percentage increase ever for this appropriation, and 
funds were provided to other land management agencies as well.
    The BIA was provided an additional $162 million, including 
$105 million for education construction, $24 million to restart 
the facilities replacement and construction program to improve 
public safety in Indian Country, and $31 million to replace 
badly outdated dams and irrigation systems.
    I know that the omnibus was passed just over a month ago, 
and the Department is still working on the spending plans for 
the individual bureaus to submit to the subcommittee, but we do 
hope to get those details soon. We recognize that the fiscal 
year is passing quickly, and it is important to get those 
resources out on the ground.
    With a budget agreement in place from the outset of the 
appropriations process, I am optimistic that we can move bills 
quickly and in regular order. And I thank the Chairman of the 
full Committee on Appropriations and his Ranking Member, Mr. 
Leahy, for their commitment to moving these appropriations 
bills forward and doing so quickly and in an orderly manner.
    So know my commitment, and I know my Ranking Member here, 
we have pledged to work aggressively with you to do just 
exactly that.
    We cannot expect the Department of the Interior or any of 
the other agencies funded by this bill to function efficiently 
when we do not pass final appropriations bills until roughly 
half the fiscal year has passed. And I think we saw that play 
out in 2017, 2018, and we need to do a better job. So I look 
forward to working with my colleagues to address their 
priorities for this year's Interior bill.
    Mr. Secretary, I look forward to working with you and your 
staff to identify the highest priorities, so that we can ensure 
that you have the resources that you need to fulfill your goals 
for the Department. So again, I thank you for being here.
    I turn to my colleague, the Ranking Member from New Mexico, 
for his comments, but I know we also wanted to provide the Vice 
Chairman of the full committee an opportunity to make comments.
    Senator Udall. Senator Leahy, please go ahead. I know you 
have many other things going today.


                 statement of senator patrick j. leahy


    Senator Leahy. I thank you, Madam Chair and Senator Udall. 
I also appreciate what you said about, basically, regular 
order. You and I have served on this committee for a long time. 
We have seen it work very well. I think of the leadership one 
of my dearest friends, the late Ted Stevens from your State, 
when he was Chair, and another dear friend, the late Dan 
Inouye, when he was Chair, and we made it work.
    It is no secret that Senator Shelby and I have spent a lot 
of time talking about this. We want to bring it back. He as 
Chair, myself as Vice Chair, we have every intention of 
bringing it back. The Senate would be better, and the country 
would be better.
    And I know, Mr. Secretary, we had expressed our concerns to 
you last year when the President proposed to eliminate or 
reduce critical programs in the fiscal year 2018 budget. You 
reportedly said to your own staff you weren't happy about the 
budget proposed by the White House, which had a 12 percent 
overall cut to the Interior Department. But now you are in 
charge, and if you weren't happy with the 12 percent cut, you 
have requested a 19 percent cut.
    You have cut many of the same core environmental 
protection, conservation, land management, and Tribal programs 
the administration tried and failed to cut or eliminate last 
year. Your budget would starve the Department of its ability to 
enforce environmental safeguards, protect wildlife, and manage 
our cherished public lands.
    The commitment to our public lands has always been a 
bipartisan one. It goes back to the days of Teddy Roosevelt. 
But not only would you starve the Department of those needed 
amounts, you would do that while at the same time opening more 
public lands and waters to mineral and fossil fuel extraction.
    Now, the administration has proposed billions of dollars 
for a border wall to be built without complying with our 
Nation's bedrock environmental laws. It is going to be quite a 
shock to a lot of landowners, ranchers and all, in Texas and 
elsewhere when they see what it would mean.
    Our unique system of public lands was created so that all 
Americans from all walks of life, rich and poor, young and old, 
from Alaska to Vermont and everywhere in between, may enjoy the 
outdoors and the benefits of our public lands. And these lands 
provide public health benefits, recreation opportunities, 
ecosystem preservation, and jobs. But your budget would abandon 
the Land and Water Conservation Fund and Congress' bipartisan 
promise to the American people.
    For more than 50 years, the Land and Water Conservation 
Fund (LWCF) has been an important funding source for State and 
local outdoor recreation facilities; city parks that might be 
part of critical green infrastructure; and acquisition of 
public forests, wildlife refuges, parklands.
    Vermont, like every single State represented here, has 
benefited from LWCF investments. But we have more to do. We 
want to protect the scenic vistas along the Appalachian 
National Scenic Trail and Vermont's Long Trail. We need to 
create and expand community parks, develop recreation 
facilities, and implement locally-supported recreation plans.
    I have concerns your Department may be delaying the 
obligation of LWCF funding, given the administration's lack of 
support, even though Congress, in a bipartisan effort, 
appropriated the funds. Your first quarterly report shows more 
than $133 million in prior years' unobligated balances in LWCF 
line-item projects. It troubles me that such delays could harm 
our ability to safeguard natural areas threatened by 
development or see them auctioned off to the highest bidder or 
special interest.
    In this committee, we define who we are as a country. We 
set our priorities. And I will work with the Chair of this 
subcommittee, and I will work with the Chair of the full 
committee, if we have set priorities and we have written it 
into law, we expect everybody to follow the law, including you.
    Thank you.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Udall.


                     statement of senator tom udall


    Senator Udall. Thank you, Madam Chairman.
    And, Senator Leahy, good to have you here today and help us 
lead off.
    Mr. Secretary, thank you for appearing before the 
subcommittee as we begin our examination of the fiscal year 
2019 budget for the Department of the Interior. We appreciate 
being able to hear from you and to ask questions about your 
budget request.
    I also want to welcome Ms. Olivia Ferriter, Deputy 
Assistant Secretary for Budget, Finance, Performance, and 
Acquisition, and Ms. Denise Flanagan, Director of the 
Department's Office of Budget. This subcommittee couldn't do 
our job without the support of the Department's Budget Office, 
so I want to recognize the terrific work that Ms. Ferriter and 
Ms. Flanagan and their staffs do every day, especially in the 
face of a challenging budget request.
    Thank you very much, both of you.
    As we begin to talk about the Department's budget, I want 
to emphasize just how important the Department is to my home 
State of New Mexico. The decisions made by the Department 
determine whether our natural and cultural resources are 
protected and managed responsibly, and whether we uphold our 
trust and treaty responsibilities for the Tribes and pueblos 
who live there.
    So that is why I want to begin by thanking you, Mr. 
Secretary, for taking three important actions within the last 
year to help New Mexico.
    First, I appreciate that you personally helped work through 
a number of issues to allow land to be donated at no cost to 
taxpayers to finally provide public access to the Sabinoso 
Wilderness. Sabinoso is a stunning landscape that is now open 
for hunting, fishing, and recreation. Public lands boost our 
local economies and add jobs, and special places like Las 
Vegas, New Mexico, benefit greatly. I will never forget our 
horseback ride down into the Sabinoso.
    Second, I want to recognize the Department's efforts to 
finalize the contract to build the new Laguna Elementary 
School, which was just signed in the last week. I had been 
working with the pueblo and the Bureau of Indian Education 
(BIE) for several years to replace this school, and this 
funding is great news for the entire Laguna Pueblo community.
    And finally, I want to say thank you for continuing the 
landmark Bureau of Land Management (BLM) and Bureau of Indian 
Affairs (BIA) planning efforts started under the previous 
administration to ensure that energy development does not 
encroach on culturally significant areas around Chaco Canyon. I 
am also pleased that BLM recently walked back the decision to 
offer lease sales in the area, which is particularly important 
since this planning process is still underway.
    But I remain concerned that there is still a directive in 
place for BLM to offer quarterly lease sales that have the 
potential to impact Chaco. And I am also concerned how recent 
changes in the BLM planning process will impact the ability to 
protect the significant cultural resources at Chaco and in 
other places across the country.
    I also want to say that I appreciate your focus on 
improving outdoor recreation and public access, and that you 
are committed to working with Congress to address the deferred 
maintenance challenges at the National Park Service and other 
Interior bureaus, something that this subcommittee has also 
made a priority.
    But frankly, Mr. Secretary, your goals do not match the 
reality of your budget request. For starters, your budget 
request walks away from the decades-long Federal commitment to 
the Land and Water Conservation Fund by ending Federal land 
management acquisition and cutting most discretionary grant 
programs.
    Given your previous support, you have to know how critical 
the Land and Water Conservation Fund is for recreation, whether 
it be funding projects to acquire inholdings, so we can manage 
Federal lands more efficiently, providing access to landlocked 
pieces of public land, or even funding parks and other projects 
at the State and local level.
    You have said repeatedly that you want to provide more 
resources to the field, but the budget request slashes funding 
for most land management and science bureaus by double digits, 
and proposes to cut thousands of jobs, including positions that 
are on the frontline of caring for our public lands.
    It also proposes cuts for many of the Department's partners 
and doesn't include the full funding our counties depend on 
from the payments in lieu of taxes program.
    You have said you want to uphold our Nation's trust and 
treaty responsibilities and support Tribal self-determination, 
but Tribal programs are decimated by this budget. Funding for 
BIA is cut by 21 percent, including significant cuts to 
education, public safety, and natural resource programs.
    My concerns are not limited to the budget, and it is my job 
to speak up when I see policies and actions that I believe are 
flat-out wrong. The monuments review that the Department 
conducted, and the decisions to eviscerate Bears Ears and Grand 
Staircase-Escalante, are a travesty. I have serious doubt 
whether these actions will survive scrutiny by the courts. 
Until that question is answered, I believe that moving forward 
with land management plans that will open these iconic areas to 
development is reckless.
    I couldn't agree more with the decision to roll back the 
previous administration's rule to reduce methane waste, or with 
a lack of meaningful public involvement as BLM crafts the new 
rule.
    I do not support the administration's efforts to move full-
steam ahead on the plan to drill in the Arctic National 
Wildlife Refuge, and I still believe the plan to develop this 
pristine landscape will not stand up to environmental review.
    I am concerned about the recent decision to hike fees at 
national parks, which will put a bigger financial burden on the 
American families we want to visit our parks.
    I remain concerned that, today, on the 146th anniversary of 
the 1872 Mining Law, we are still not having the necessary 
conversations about reforming this antiquated law. We are 
allowing nearly 161,000 abandoned mines through the West to go 
unaddressed, while at least 33,000 of these mines are 
documented to be contaminating our environment. The next Gold 
King Mine disaster is around the corner like a ticking time 
bomb. And the budget reduces already inadequate resources for 
abandoned mine land cleanup at the same time that you are 
boosting mineral development.
    I have serious questions about a number of management 
issues at the Department, starting with the reassignments of 
career members of the Senior Executive Service, and the lack of 
documentation and transparency regarding these moves.
    Mr. Secretary, you want our permission to reorganize the 
entire Department, but it is not even clear whether you have 
the right policies in place to manage your most senior career 
staff members. The Department has not provided sufficient 
detail on its actual plan for reorganization, including how 
much it would cost to Congress or the public. And I am 
particularly troubled by the lack of Tribal consultation so 
far.
    Finally, I am concerned by reports that the Department has 
been slow to spend the funding Congress provided in fiscal year 
2018. We enacted an omnibus bill that included more than $860 
million worth of program increases for the Interior Department 
this year, including major investments in national parks and 
Tribal infrastructure. We also provided $425 million in total 
for Land and Water Conservation Fund priorities at the Interior 
Department and the Forest Service.
    The Members of this subcommittee want to make sure that 
these funds get spent as Congress intended and ensure that the 
Department doesn't walk away from the bipartisan budget that 
Congress passed and the President signed. The administration is 
not proposing to rescind any funds from the Interior Department 
at this point, so there is no excuse not to get funds into the 
field as quickly as possible.
    As you can see, Mr. Secretary, we have a lot to talk about 
this morning. I look forward to hearing your testimony and to 
delving into the issues I raised when it is time for questions. 
Thank you very much for being here.
    Senator Murkowski. Thank you, Senator Udall.
    Secretary Zinke, the floor is yours. Take the appropriate 
time that you wish to outline your priorities here, and know 
that we will have plenty of questions to elicit even more 
discussion. And I do not know whether Ms. Ferriter and Ms. 
Flanagan also will be speaking, but you, too, are welcome.
    Thank you, Mr. Secretary. Please proceed.


                  summary statement of hon. ryan zinke


    Secretary Zinke. Thank you, Chairman Murkowski. Ranking 
Member Udall, good see you as always, and, Senator Tester, 
Members. Thank you for giving me the opportunity to testify in 
support of President Trump's fiscal year 2019 budget for the 
Department of the Interior. With your permission, I would like 
to submit my entire statement for the record.
    Upfront, public lands are not a Republican or a Democrat or 
red or blue issue, they are a red, white, and blue issue. The 
public lands should bring us all together for the benefit of 
our great public lands. I am a Teddy Roosevelt Republican. I 
think he set our Nation on a journey, which we benefit from. It 
is time to look at the next 100 years, to look at how we can 
best manage our treasures.
    The President has been very clear about his priorities and 
is keeping his promises to the American people. The budget 
supports one of those promises in a big way, rebuilding our 
national parks infrastructure. It calls for the largest 
investment in the history of this country to public lands, in 
specific, our Park Service, our Indian schools, and our 
Wildlife Refuge System.
    As we all agree, our public lands are our greatest 
treasures, but they have suffered serious neglect over the 
years. Interior's deferred maintenance backlog is $16 billion; 
$11.7 billion of that is from our National Park Service, 
approximately $1.2 billion from our Wildlife Refuge System, and 
just under a billion needed for our Indian schools.
    The President's budget proposes legislation for a new 
Public Lands Infrastructure Fund to address the deferred 
maintenance problem. This legislation is our top priority. The 
Fund would provide up to $18 billion over 10 years for 
maintenance and improvement of our national parks, our national 
wildlife refuges, and the Bureau of Indian Education funded 
schools. It would be funded from all energy revenues on public 
lands, similar to the Land and Water Conservation Fund, except 
it includes all energy sources.
    I think, as a Secretary, it is a fair proposition that if 
you are going to gain wealth through energy development, 
whether it is oil and gas, or wind, or solar on public lands, 
then you, too, should have an obligation to maintain and 
support those public lands in perpetuity.
    In 2016, 330 million visitors entered our park system and 
spent an approximate $18.4 billion in nearby communities and 
supported about 318,000 jobs.
    Overall, recreation is an $887 billion industry in this 
country and growing. Our park system is being loved to death.
    Recreation trends are up, and Americans should have the 
opportunity to enjoy our national parks and our public lands, 
but we need to invest in our infrastructure to go along with a 
record-setting number of visitors. Otherwise, quite frankly, 
the park experience we have grown to love will no longer be in 
existence.
    The Public Lands Infrastructure Fund will also fund 150 
Bureau of Indian Education schools in 23 States, primarily in 
the West, where the school maintenance backlog is at least $634 
million. Interior has the responsibility and the honor of 
educating about 48,000 American Indian students, and their 
families rely on Interior to deliver a quality education in a 
safe environment, but our schools are notoriously in poor 
condition and underfunded. I think American Indian kids deserve 
a world-class education, too.
    The budget also presents the opportunity to reorganize the 
Department for the next 100 years, which I look forward to 
talking to you in as much detail as we have about the 
reorganization.
    The budget includes about $18 million to begin shifting 
resources to the front line. I have been to the front line a 
lot, and the front line is undermanned. From a former Navy 
commander's perspective, if the front line is healthy, so is 
the force, and our front line is not healthy.
    In planning this reorganization, we continue to take into 
account feedback from Congress, Governors, Interior employees, 
conservation groups, and all stakeholders. I will walk through 
each and every group we have talked to and where we are in that 
process. Last week, we held employee listening sessions and 
stakeholder meetings again in Colorado, New Mexico, and 
Wyoming, and more are planned in early June.
    We are basing our new unified boundaries on science, to 
include watersheds, wildlife corridors, and ecosystems, so we 
can better manage our public lands and waters in a more 
coordinated way based on the American conservation ethic of 
best science, best practices, greatest good, longest term.
    The budget also recognizes that American strength relies on 
American energy. Under President Trump, we are pursuing an 
American energy dominance position. And today, I am happy to 
report that this has been successful. Across our public and 
private lands, America is producing about 10.6 million barrels 
a day. For the first time in 60 years, we are a net exporter of 
liquid natural gas, and we are on track to become the largest 
oil and gas producer in the world.
    We are also preparing the largest offshore lease of wind 
and continue to highlight an all-of-the-above energy portfolio, 
which is prudent for the years to come. President Trump's tax 
cuts and smart regulation are helping grow the economy and 
increase our energy portfolios to achieve American prosperity.
    Our total budget request for this year is $11.7 billion. 
The budget clearly lays out the Administration's top priorities 
of strongly supporting the American people and rebuilding our 
infrastructure, fixing our schools, achieving energy dominance, 
and being fiscally responsible.
    With that, again, I continue to appreciate the bipartisan 
support of this committee. I appreciate all of your hard work.
    And again, our public lands are our greatest experience and 
greatest treasures in this country, and I look forward to 
working with you together to make sure we achieve that goal.
    [The statement follows:]
                 Prepared Statement of Hon. Ryan Zinke
    Chairman Murkowski, Ranking Member Udall, and Members of the 
subcommittee, I am pleased to appear before you today to discuss the 
2019 President's budget for the Department of the Interior. The 2019 
budget request for Interior is $11.7 billion.
                         2019 budget priorities
    Interior's 2019 budget prioritizes American interests with targeted 
investments to advance American energy dominance, enhance public access 
to public lands, and strengthen the economy through infrastructure 
investment, regulatory relief, and fiscal responsibility. The 
Department's 2019 budget reflects the administration's commitment to 
strike the right balance of development and conservation of America's 
resources to advance important national objectives.
    A major component of the 2019 budget is the Public Lands 
Infrastructure legislative proposal, which will provide up to $18 
billion to address Interior's deferred maintenance backlog in the 
national parks, national wildlife refuges, and Bureau of Indian 
Education-funded schools. The investment in the Interior's 
infrastructure will be funded by Federal revenues derived from rents, 
rights of ways for energy purposes, and royalties collected by the 
Department of the Interior. The proposal complements the President's 
national infrastructure investment initiative and recognizes the 
strategic importance of long-term investment in America's treasures.
           generating revenue and utilizing natural resources
Growing America's Economy
    Across Interior's diverse mission, the 2019 budget emphasizes the 
Department's crucial role in promoting economic growth for America. 
America's lands hold tremendous job-creating assets. Interior supports 
$254 billion in estimated economic benefit, while direct grants and 
payments to States, Tribes, and local communities provide an estimated 
$10 billion in economic benefit. In 2017, the Department collected $9.6 
billion from energy, mineral, grazing, and forestry activities on 
behalf of the American people. Interior also supports the economy by 
eliminating unnecessary and burdensome Federal regulatory requirements. 
For example, in 2017, Interior initiated 21 deregulatory actions all 
with significant associated savings for the taxpayer, once enacted.
    The 2019 budget maintains support for Interior programs that play a 
critical role in encouraging national infrastructure development. The 
2019 budget includes $98.8 million for the Fish and Wildlife Service's 
planning and consultation activities to support development while 
avoiding species conflicts. This request enables FWS to meet legal 
consultation requirements and avoid logjams that could delay 
infrastructure projects and associated economic benefits to 
communities, States, Tribes, and companies. The request includes $118.7 
million for the Bureau of Reclamation's construction of water delivery 
systems for Tribes and local communities. In addition, Reclamation 
continues to explore future water storage opportunities. The budget 
also includes $48.3 million for the Bureau of Land Management's 
cadastral program, which maps and surveys the lands and resources 
needed to permit rights-of-way and other infrastructure project 
requirements in a timely fashion.
Advancing Energy Dominance
    Interior plays a significant role in the administration's objective 
to achieve America's energy dominance. The budget proposes $792.0 
million in current and permanent funding for energy related programs 
across the Department. Interior's 2019 budget continues to support an 
``all-of-the-above'' energy development strategy, increasing funding 
for onshore and offshore oil and gas, expanding coal activities, and 
sustaining the current pace of renewable energy development.
    A large portion of Interior's energy development activities occur 
on the Outer Continental Shelf. The 2019 request includes support from 
offsetting collections for a total offshore energy development and 
safety program of $379.2 million. The budget includes a total of $179.3 
million for offshore oil, gas, and renewable energy development 
activities managed by the Bureau of Ocean Energy Management. It 
includes $9.4 million for BOEM to prepare the 2019-2024 National OCS 
Oil and Gas Leasing Program. The request for BOEM also includes $28.1 
million for Renewable Energy activities across the Bureau. The 2019 
budget includes $199.9 million for the Bureau of Safety and 
Environmental Enforcement's programs to streamline the permitting 
process, conduct inspections, evaluate emerging offshore technologies, 
improve safety, conduct training, and maintain up-to-date policies, 
standards, and guidelines.
    Onshore, the budget includes $176.3 million in current and 
permanent funding for the BLM oil and gas management program which 
generated $348.9 million from bonus bids derived from onshore oil and 
gas lease sales in 2017. The 2019 budget includes $137.2 million in 
appropriated funds for BLM oil and gas management and oversight, 
including leasing, permitting, and inspections. This funding will be 
used to expand areas available for leasing, expedite permitting, and 
improve various aspects of program management. The budget includes 
$19.5 million for the BLM coal management program to help reduce 
processing times, simplify the lease application process, and improve 
the timeliness to complete lease sale fair market value determinations. 
The budget includes $16.0 million for BLM to support onshore Renewable 
Energy development.
    An important component of Interior's natural resource programs is 
the collection and disbursement of receipts from development. The 2019 
budget includes $137.5 million for the Office of Natural Resources 
Revenue. In 2017, Interior held the first meeting of the re-established 
Royalty Policy Committee, which includes 20 members representing local, 
Tribal, and State governments and other stakeholders. The RPC advises 
the Secretary on the fair market value and revenue collection from 
Federal and Indian mineral and energy leases, including from renewable 
energy sources.
Increasing Natural Resource Development
    Interior manages a wealth of additional natural resource assets 
that require balanced stewardship and management. Maintaining healthy 
and productive forests requires active management. The 2019 budget 
includes $9.5 million for BLM's Public Domain Forestry program and 
$90.0 million for the Oregon and California grant lands. Both programs 
support jobs and local economies through timber and timber product 
sales. The programs also maintain and improve the productivity and 
resilience of forest and woodland ecosystems through sales and forest 
development projects such as density management and reforestation.
    The BLM actively manages rangeland and grazing activities on public 
lands in the West which remain a vital part of local western economies. 
The 2019 budget includes $82.1 million for the Rangeland Management 
program. The BLM manages nearly 18,000 livestock grazing permits and 
leases on the public lands.
    Another example is the U.S. Geological Survey Mineral Resources 
program which conducts assessments to identify critical minerals and 
estimate potential supplies. A recent Secretarial Order directs all 
Interior bureaus to identify a list of critical minerals, identify 
domestic sources, and streamline permitting to encourage domestic 
production of these critical minerals. The 2019 budget for USGS 
includes $19.1 million to support this administration priority. With 
this funding, USGS will accelerate nationwide geological, geophysical, 
and topographical surveys of the United States to locate domestic 
critical mineral sources.
       conserving our land and water and expanding outdoor access
    Interior is the steward of America's public lands and cultural 
resources for the benefit of current and future generations. Taking 
care of the resources we have rather than acquiring new Federal lands 
continues to be a top priority in the 2019 budget. To administer 
ongoing projects, the budget for land acquisition programs across the 
Department is $8.1 million.
    The 2019 budget includes $4.6 billion for operating programs in the 
three primary land management bureaus--BLM, FWS, and the National Park 
Service. This funding supports the day-to-day management of the natural 
resources and public amenities of America's national parks, national 
wildlife refuges, and BLM-managed public areas, including its national 
conservation lands. Within this request is funding to support visitor 
services and safety, law enforcement, and maintenance of facilities. 
Early eradication and control of invasive species is an example of a 
core stewardship activity shared Department-wide, which is funded 
through land management operations. Across Interior, the 2019 budget 
includes a total of $103.1 million for invasive species activities to 
address significant issues such as the spread of invasive mussels and 
Asian Carp.
    The Land and Water Conservation Fund matching grants provided to 
States, and through States to local governments, support the 
acquisition and development of public outdoor recreation areas and 
facilities all across the Nation. The 2019 budget continues a funding 
shift that began in 2018 for NPS State Assistance grants from 
discretionary to mandatory funding. Starting in 2009, discretionary 
LWCF appropriations for the State Assistance program were supplemented 
by revenues from certain oil and gas leases in the Gulf of Mexico, as 
authorized by Section 105 of the Gulf of Mexico Energy Security Act. 
Under existing law, this permanent funding for NPS State Assistance 
grants is expected to reach $89.3 million in 2019.
    Ensuring the availability of water is central to the Department's 
resource stewardship mission and is vitally important to communities 
across the West. The 2019 budget includes $1.0 billion for 
Reclamation's water resource programs to ensure millions of customers 
continue to receive the water and power essential for daily life, 
healthy local economies, and land management. The 2019 budget includes 
funding to continue the WaterSMART water conservation grants and funds 
Title XVI water recycling reuse research grants to support local 
innovation efforts to stretch water supplies.
    The 2019 budget maintains an important commitment to Interior's 
neighboring communities, by including $465.0 million in the 
discretionary request for the Payments in Lieu of Taxes program. The 
PILT payments offset the loss in property tax revenue for communities 
with significant Federal lands in their jurisdictions.
           fulfilling our trust and insular responsibilities
    The Department of the Interior upholds the Federal Government's 
unique trust responsibilities by fostering government-to-government 
relationships between the Federal Government and federally recognized 
Tribes, American Indians, and Alaska Natives. The U.S. also has 
important relationships with the affiliated insular areas including the 
territories of American Samoa, Guam, the U.S. Virgin Islands, and the 
Commonwealth of the Northern Mariana Islands. Interior administers and 
oversees Federal assistance to the three Freely Associated States: the 
Federated States of Micronesia, the Republic of the Marshall Islands, 
and the Republic of Palau.
    The 2019 budget addresses Federal responsibilities and Tribal needs 
related to education, social services, infrastructure, and stewardship 
of land, water, and other natural resources. The budget prioritizes 
support for programs that serve the broadest service population rather 
than initiatives that are more narrowly focused. The President's budget 
maintains the administration's strong support for the principle of 
Tribal self-determination and efforts to strengthen Tribal communities 
across Indian Country. The budget calls for full funding for Contract 
Support Costs and Tribal Grant Support Costs that Tribes incur from 
managing Federal Indian programs.
    The Bureau of Indian Affairs also undertakes initiatives to promote 
resilient Tribal communities. The 2019 budget includes $2.5 million to 
address the opioid crisis, which has been particularly devastating in 
Indian Country. The funding will support BIA participation in intra- 
and interagency initiatives that support opioid and substance abuse 
prevention efforts. The BIA liaisons will align, leverage, and 
coordinate Federal efforts and resources to assist American Indian and 
Alaska Native communities in achieving their goals to reduce the supply 
of drugs, provide opioid addiction prevention assistance, and otherwise 
combat the opioid crisis, which is an administration priority.
    The 2019 budget includes $173.0 million across the Department to 
honor Indian land and water Settlement commitments. This includes 
$127.3 million in Reclamation and $45.6 million in BIA. The budget 
continues to meet Federal responsibilities outlined in enacted land and 
water rights claim settlements with Indian Tribes to ensure they have 
access to land and water to meet domestic, economic, and cultural 
needs.
    In 2019, the Office of Insular Affairs will continue to execute 
activities which bolster healthcare capacity, strengthen island 
economies, and fulfill U.S. compact obligations. The proposed 2019 OIA 
budget is $608.0 million, with $84.1 million in current appropriations.
                  protecting our people and the border
    A key component of Interior's land stewardship and public safety 
goals is management of wildland fire. The 2019 budget provides $388.1 
million for wildfire suppression. The budget responsibly funds 100 
percent of the rolling 10-year average cost for wildfire suppression in 
the Departments of Agriculture and the Interior within discretionary 
budget caps, and proposes a separate annual cap adjustment for wildfire 
suppression operations to ensure adequate resource availability during 
severe fire seasons.
    Over 12.5 million acres under Interior's jurisdiction are within 50 
miles of the United States-Mexico border. More than 40 percent of the 
border, or 820 linear miles, is managed by Interior's land management 
agencies and the U.S. Forest Service. Interior is engaged with the 
Department of Homeland Security to increase security on the Southwest 
border, including 74 border miles on Tribal lands primarily made up of 
lands located on and managed by the Tohono O'odham Nation in Arizona. 
The budget includes $1.8 million to continue implementation of the 
Department's Southwest Border Radio Demonstration Project, which is an 
example of the coordination which occurs to help protect our border. 
The project was developed in cooperation with BLM, FWS, NPS, and the 
U.S. Forest Service in the Southwest border region to support the land 
mobile radio program and infrastructure, and ensure continuity of 
communications essential for safety, law enforcement, and resource 
management in the area.
    Interior also plays an important role in preparation for and 
addressing the aftermath of natural hazard events. The 2019 budget 
includes $117.3 million for the USGS Natural Hazards programs to 
maintain important nationwide monitoring networks, including volcano 
and earthquake networks, which provide vital scientific information to 
emergency managers.
 modernizing our organization and infrastructure for the next 100 years
Infrastructure Management
    Interior manages an infrastructure asset portfolio with a 
replacement value exceeding $300 billion, ranging from elementary and 
secondary schools serving Indian children in the West, to highways and 
bridges serving the daily commuting needs of the Washington, D.C., 
metropolitan area. Many of these assets are deteriorating, with older 
assets becoming more expensive to repair and maintain in good 
condition. Taking care of this significant asset portfolio is a 
persistent challenge.
    Interior's deferred maintenance backlog has grown to over $16 
billion in 2017 of which over $11 billion belongs to NPS. In addition 
to funding proposed in the administration's Public Lands Infrastructure 
Fund, the 2019 budget for NPS includes $281.5 million in current 
funding for construction and deferred maintenance projects. 
Construction and maintenance funding across the Department totals over 
$1.4 billion in 2019, excluding Reclamation.
Management and Reforms
    During the peak summer seasons, the Department of the Interior has 
nearly 70,000 employees in 2,400 locations across the United States, 
Puerto Rico, U.S. Territories, and Freely Associated States. Interior 
is also taking bold steps to better position itself for the next 100 
years. In response to the President's Executive Order on a 
Comprehensive Plan for Reorganizing the Executive Branch, Interior is 
working to reorganize its operating structure to establish unified 
regional boundaries to provide better coordination across the 
Department to improve mission delivery and focus resources in the 
field. The 2019 budget includes a total of $17.5 million for this 
effort. The budget also proposes additional shifts to better align 
functions within the Department and respond to Congressional direction 
related to the Office of the Special Trustee for American Indians. The 
Department is continuing to evaluate the advantages and disadvantages 
of BOEM and BSEE being separate organizations with the understanding 
that revenue collection activities need to be separate from safety.
    The Department annually spends nearly $3 billion to procure goods 
and services, over $1 billion on information technology, and over $300 
million to administer acquisition and human resources services. In 
2019, Interior will work to achieve cost savings of $52.7 million 
across the Department, through more aggressive use of shared services 
and use of multiagency ``Best in Class'' procurement vehicles, such as 
shared contracting with other bureaus and Federal agencies.
                           bureau highlights
    Bureau of Land Management.--The 2019 budget request for BLM is $1.0 
billion. The budget proposes $930.6 million for the Management of Lands 
and Resources appropriation and $90.0 million for the Oregon and 
California Grant Lands appropriation--BLM's two operating accounts. The 
BLM budget proposes to restructure several budget lines to provide 
greater management flexibility and improve coordination of program 
activities.
    Through BLM's multiple-use mandate, the 2019 budget advances energy 
resource development which generates revenues for Federal and State 
treasuries and local economies. The budget includes $137.2 million in 
Oil and Gas appropriated programs to strengthen overall program 
capacity, improve management, and expedite permitting to facilitate 
increased environmentally responsible energy development. Within the 
total, $9.5 million will establish a competitive leasing program in the 
1002 Area of the Alaska North Slope, as required by the recently 
enacted Tax Cuts and Jobs Act, and bolster BLM's capacity for 
permitting activities in the National Petroleum Reserve-Alaska. The 
budget also includes $19.5 million to strengthen BLM's Coal Management 
program and $16.0 million to meet anticipated market demand in the 
Renewable Energy program.
    To maintain the BLM's land stewardship responsibilities, the budget 
includes $82.1 million for Rangeland Management and $66.7 million for 
the Wild Horse and Burro Management program. The budget also proposes 
$53.2 million for Recreation Resources Management and $26.3 million to 
continue support for the National Conservation Land areas.
    The budget includes $90.0 million for the Oregon and California 
Grant Lands programs. At this level, the BLM will focus resources on 
timber harvests as it pursues the timber sale targets specified in the 
2016 resource management plans.

    Bureau of Ocean Energy Management.--The 2019 budget request for 
BOEM is $179.3 million, including $129.5 million in current 
appropriations and $49.8 million in offsetting collections from rental 
receipts and cost recoveries. The budget proposes to offset a decline 
in offsetting collections with an increase in direct appropriations. 
The 2019 budget includes $9.4 million to facilitate the development of 
a new National Outer Continental Shelf Oil and Gas Leasing Program.

    Bureau of Safety and Environmental Enforcement.--The 2019 budget 
request for BSEE is $199.9 million, including $132.1 million in current 
appropriations and $67.9 million in offsetting collections from rental 
receipts, cost recoveries, and inspection fees. The budget proposes to 
offset the decline in offsetting collections with an increase in direct 
appropriations. The budget proposes $12.7 million for Oil Spill 
Research.

    Office of Surface Mining Reclamation and Enforcement.--The 2019 
budget request for OSMRE is $121.7 million in current appropriations. 
The budget includes $52.4 million for State and Tribal regulatory 
grants, a level consistent with anticipated State and Tribal program 
obligations.

    Bureau of Reclamation.--The 2019 budget includes $1.0 billion for 
Reclamation's water resource programs to ensure millions of customers 
continue to receive water and power essential for daily life, healthy 
local economies, and land management.
    The 2019 budget includes a total of $447.0 million for 
construction, planning, and management of water and energy projects and 
programs. Funding for these activities supports water supply, drought 
preparedness and response, land management including recreation areas, 
and promotes water reliability by addressing the impacts of Reclamation 
projects on fish and wildlife. The budget also provides a total of 
$444.0 million for water and power facility operations, maintenance, 
and rehabilitation activities. Reclamation emphasizes safe, efficient, 
economic, and reliable operation of facilities, ensuring systems and 
safety measures are in place to protect the facilities, Reclamation's 
employees, and the public.
    The 2019 budget continues support to address America's water 
reliability and availability by investing to modernize existing water 
infrastructure. The 2019 budget includes $10.0 million to continue the 
WaterSMART water conservation grants and $3.0 million for Title XVI 
water recycling reuse research grants that support local innovation 
efforts to stretch water supplies.
    The 2019 budget continues to support water technology innovation by 
incentivizing research through Reclamation's Water and Power Technology 
Prize Competitions. Reclamation's prize competitions target difficult 
scientific and technological problems related to infrastructure, water 
availability, and environmental compliance that affects water delivery 
and hydropower generation. The budget also includes $7.6 million for 
Reclamation to proactively stop the spread of invasive mussels in the 
West, including preventing the spread of zebra and quagga mussels into 
the Columbia River Basin.

    U.S. Geological Survey.--The 2019 budget request for the USGS is 
$859.7 million. The budget includes $72.9 million for satellite 
operations, which includes $31.9 million to continue development of the 
Landsat 9 ground system component for launch in 2021.
    The request emphasizes science to inform energy and mineral 
development with $84.1 million for the Energy and Minerals Mission 
Area, including $19.1 million to locate domestic critical mineral 
sources. These commodities are those minerals with important uses 
particularly in technology, and no viable substitutes, yet face 
potential disruption in supply. This funding will support the 
administration's initiative to spur critical mineral resource 
development in the United States.
    The budget for Natural Hazards is $117.3 million to support 
essential hazards monitoring, and provide scientific information needed 
by resource managers and policy makers. The budget maintains support 
for nationwide networks of more than 8,200 streamgages and nearly 3,000 
earthquake sensors. The 2019 budget includes $96.1 million for 
Ecosystems programs, focusing on nationally significant priorities, 
including detecting and responding to invasive species and wildlife 
disease, research supporting the conservation and recovery of species 
at-risk or protected by law, and science supporting biological resource 
management. The budget provides for continued collection of high-
resolution elevation and hydrography data for the Nation, including 
modernizing maps for Alaska and complete national lidar coverage by 
2033.

    Fish and Wildlife Service.--The 2019 President's budget requests 
$1.2 billion for FWS programs of which $1.1 billion supports FWS 
operations. The budget prioritizes funding to maintain operations and 
maintenance for the National Wildlife Refuge System at $473.1 million 
and includes $50.0 million for the National Fish Hatchery System.
    Ecological Services programs are funded at $211.8 million and the 
budget prioritizes funding for Planning and Consultation and species 
Recovery activities. The budget is $74.8 million for FWS conservation 
grants including $31.3 million for State and Tribal Wildlife Grants, 
$33.6 million for the North American Wetlands Conservation Fund, $6.0 
million for the Multinational Species Conservation Fund, and $3.9 
million for Neotropical Migratory Bird Conservation. The budget 
proposes $7.0 million for FWS land acquisition activities, which 
includes $12.0 million in new budget authority and a $5.0 million 
proposed cancellation of prior year balances.

    National Park Service.--The 2019 budget request for NPS is $2.7 
billion which includes $299.0 million provided in the Budget Policy 
Addendum for 2019.
    The budget proposes $2.4 billion for NPS operations. Within this 
account funding is prioritized for the care and maintenance of existing 
resources, including repair and rehabilitation projects, which 
addresses the deferred maintenance backlog, and cyclic maintenance 
projects, which ensure maintenance is conducted in a timely fashion to 
avoid increasing the deferred maintenance backlog. The budget proposes 
$241.3 million for the Construction account, which includes $157.0 
million for line-item construction activities.
    The request provides $32.2 million for National Recreation and 
Preservation programs to support local community efforts to preserve 
natural and cultural resources. The 2019 budget includes $32.7 million 
for the Historic Preservation Fund core grants-in-aid programs. The 
budget assumes funding for Land and Water Conservation Fund State 
Assistance Grants shift from discretionary to mandatory funding from 
offshore oil and gas receipts, estimated to support an $89.3 million 
program. The budget requests $8.8 million to administer both ongoing 
Federal land acquisition projects and American Battlefield Protection 
grants, and includes a $10.0 million cancellation in available prior 
year balances, for a net total of -$1.2 million for Land Acquisition 
and State Assistance.

    Indian Affairs.--The 2019 budget request for Indian Affairs is $2.4 
billion. Funding for Operation of Indian Programs totals $2.0 billion. 
In 2019, priority is given to programs serving the broadest audience 
rather than initiatives or pilots. Within this total is $741.9 million 
for Bureau of Indian Education programs where funding focuses on direct 
school operations and full funding for Tribal Grant Support Costs. The 
main operating account also includes $350.1 million for Public Safety 
and Justice programs including $2.5 million to address the opioid 
crisis which has been particularly devastating in Indian Country. The 
budget includes $258.9 million for Trust Services programs to fulfill 
key fiduciary trust responsibilities.
    The budget fully funds Contract Support Costs at $231.0 million, 
which will cover all anticipated Tribal program administration 
requirements at the requested program funding level. The budget 
requests $133.3 million for Construction programs and prioritizes dams, 
irrigation projects, and irrigation systems which deliver water to aid 
economic development as well as protect lives, resources, and property. 
The budget prioritizes funding within education construction for 
improvement and repair of existing facilities. The budget also includes 
$45.6 million to provide payments to ongoing Indian Land and Water 
settlements and $6.7 million for the Indian Guaranteed Loan Program.
                          departmental offices
    Office of the Secretary.--The 2019 budget request for Departmental 
Operations is $134.7 million. The budget reflects the proposed transfer 
of $140.5 million associated with the Office of Natural Resources 
Revenue to a new appropriation within Department-wide Programs.

    Office of Insular Affairs.--The 2019 budget request for OIA is 
$84.1 million of which $81.0 million is for Assistance to Territories 
and $3.1 million is for Compact of Free Association programs.

    Office of the Solicitor.--The 2019 budget proposes $65.7 million 
for the Office of the Solicitor to provide legal counsel, administer 
the Department's ethics program, and help resolve legal issues among 
bureaus and offices as they fulfill their duties.

    Office of Inspector General.--The 2019 budget proposes $52.5 
million for the Office of Inspector General to continue support for 
audit and investigations across the Department. The budget supports the 
need for case management system maintenance, OPM security clearances, 
continuous data monitoring, and information technology systems 
assistance.

    Office of the Special Trustee for American Indians.--The 2018 
budget requests $107.1 million for OST. The budget proposes several 
organizational changes including to realign OST under the Assistant 
Secretary--Indian Affairs; to shift the Land Buy Back Program for 
Tribal Nations to OST; and proposes OST assume coordination of certain 
functions of the Office of Navajo and Hopi Indian Relocation.
                        department-wide programs
    Payments in Lieu of Taxes.--The 2019 budget proposes $465.0 million 
in discretionary funding for PILT. This amount includes $68.1 million 
provided in the Budget Policy Addendum for 2019.

    Office of Natural Resources Revenue.--The 2019 budget request 
includes $137.5 million for ONRR's receipts management programs as a 
separate appropriation to increase transparency of the program. The 
request includes $3.7 million for anticipated contract cost increases 
to maintain the Minerals Revenue Management Support System.

    Central Hazardous Materials Fund.--The 2019 budget requests $2.0 
million for the Central Hazardous Materials Fund to support program 
management and legal staff. The program will fund highest priority 
remediation projects based on the availability of recoveries and focus 
resources on remediation projects with potentially responsible parties.

    Wildland Fire Management.--The 2019 budget request for the Wildland 
Fire Management Program is $870.4 million. The request provides $388.1 
million for Suppression Operations to fully fund the 10-year average. 
Separately the administration proposes an annual cap adjustment for 
wildfire suppression operations during severe fire seasons. The budget 
includes $322.2 million for wildland fire Preparedness activities to 
support Interior's firefighting capabilities. To maintain proper 
stewardship of public lands and address wildfire risk, the budget 
includes $150.6 million for Fuels Management activities. The budget 
includes $9.5 million to support high priority restoration of public 
lands damaged by wildfire.

    Natural Resource Damage Assessment and Restoration.--The 2019 
request for NRDAR is $4.6 million. The budget includes funding needed 
for ongoing damage assessments and restoration activities.

    Working Capital Fund.--The 2019 budget proposes $56.7 million for 
the appropriated portion of the Department's Working Capital Fund. The 
request includes $46.8 million for the Financial and Business 
Management System and $9.9 million for Department-wide Cybersecurity 
needs.
                         legislative proposals
    Public Lands Infrastructure Fund.--The 2019 budget launches the 
Administration's Public Lands Infrastructure Fund (PLIF) to address 
repairs and improvements in national parks, national wildlife refuges, 
and BIE-funded schools. The PLIF would dedicate 50 percent of the 
Department's incoming, unallocated energy leasing revenues that exceed 
the 2018 budget baseline estimates, for the NPS, FWS and BIE 
infrastructure needs. These revenues will be deposited into the Fund 
and will be capped at a total of $18.0 billion.

    Bureau of Reclamation Title Transfer.--The administration has a 
proposal to better facilitate title transfer of Reclamation facilities 
to non-Federal entities when such transfers are beneficial. This 
proposal will allow local water managers to make their own decisions to 
improve water management at the local level, while allowing Reclamation 
to focus management efforts on projects with a greater Federal nexus.

    Cancel Southern Nevada Public Land Management Act Account 
Balances.--The budget proposes legislation to cancel $230.0 million in 
unobligated balances from the Southern Nevada Public Land Management 
Act program over 3 years. This would redirect a portion of program 
balances to the Treasury for broader taxpayer use. The SNPLMA program 
is not proposed for elimination and viable conservation efforts will 
continue to be supported.

    Land and Water Conservation Fund.--The LWCF receipts authorization 
expires at the end of fiscal year 2018 and the administration will 
review options for reauthorization.

    Recreation Fee Program.--The budget proposes to permanently 
reauthorize the Federal Lands Recreation Enhancement Act, set to expire 
in September 2019. As a precaution, appropriations language is also 
submitted proposing a 2-year extension through September 2021. The 
revenues collected by Interior from these recreation fees--nearly 
$318.8 million in 2017--are an important source of funding for land 
management operations, maintenance, and improvements to recreation 
facilities on public lands.

    Termination of EPAct Geothermal Payments to Counties.--The budget 
proposes to restore Federal geothermal leasing revenue allocations to 
the historical formula of 50 percent to the States and 50 percent to 
the U.S. Treasury by repealing Section 224(b) of the Energy Policy Act 
of 2005.

    Wildland Fire Suppression Disaster Cap Adjustment.--The budget 
responsibly funds 100 percent of the rolling 10-year average cost of 
wildfire suppression in the Departments of Agriculture and the Interior 
within discretionary budget caps, and proposes a separate annual cap 
adjustment for wildfire suppression operations in severe fire seasons, 
similar to how unanticipated funding needs for other natural disasters 
are addressed.
                               conclusion
    Thank you for the opportunity to testify on the President's 2019 
budget request for the Department of the Interior. This budget 
maintains core functions important to the American people and supports 
transformation the Department needs to accomplish more effective 
management over the next 100 years. It reflects tough choices to 
prioritize and focus limited resources where investments have the most 
impact while continuing to deliver access and services that are 
critical to Americans. Achieving success in all of Interior's important 
responsibilities for the American people is the Department's primary 
focus and Interior is committed to take action to better accomplish our 
mission. Thank you again for your continued support of the Department's 
mission. This concludes my written statement and I look forward to your 
questions on this budget.

    Senator Murkowski. Very good. Thank you, Mr. Secretary. I 
take it neither Denise nor Olivia are going to make a comment? 
Thank you.

                             REORGANIZATION

    Mr. Secretary, let me begin with reorganization. What does 
it mean? How is it coming? Who is involved?
    And you and I have had several conversations about your 
desire to really prepare the Department for the next 100 years 
and gain efficiency, so that these bureaus function in a more 
harmonious fashion. I think we recognize that we have been 
dealing with this over the years. You just have these silos 
within your agencies, within your bureaus, and it makes it 
difficult internally and externally.
    You laid down the original concept. I know that you have 
been refining that as you gain input from within the agency, 
from Governors, from Congress, and from other stakeholders.
    Senator Udall noted a concern about not engaging as much 
with Tribes. I would like you to address that piece of it 
because it is important that we have that consultation as well.
    Can you discuss where we are with the reorganization, how 
you have incorporated what you have gained from this outreach, 
and how you envision this reorganization being implemented?
    Secretary Zinke. Well, thank you for the opportunity. Let 
me address, first, the problem.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    The chart here is how we are currently organized. Imagine 
an organization or business that hasn't been really reorganized 
in 150 years. Welcome to the Department of the Interior.
    Let's say you have a trout and a salmon in the same stream. 
Upstream, you have a dam. Downstream, you have irrigation. And 
that stream passes by or through a U.S. Forest Service holding.
    This is currently how we manage our resources. The trout is 
managed by me, though Fish and Wildlife. The salmon is by NOAA, 
Department of Commerce. Upstream water temperature and flows 
are generally managed by the Army Corps of Engineers, but not 
always. Sometimes the same basin is Department of the Interior 
exercised through the Bureau of Reclamation. Downstream 
irrigation is oftentimes Bureau of Reclamation.
    Forest Service holdings are interesting. The surface is 
Department of Agriculture exercised by U.S. Forest Service. 
Subsurface is BLM.
    When we have an Indian compact about water, which we 
normally do, it is the State, BIA, and the Tribe itself.
    Same stream, same issue, whether it is replacing a bridge 
or repairing a riparian bank, we are likely to have multiple 
biological opinions independently produced by different bureaus 
with different missions in different regions.
    It is an impossibility, structurally, to manage, and so 
this is our proposal. Let me give you an example of how we are 
currently organized in Interior.
    This is currently just Interior, how we are organized. It 
reflects a very old Department of the Interior, and every time 
a bureau came into existence--for instance, for Bureau of 
Reclamation, most of those projects were out West, the regions 
were put in place to reflect that period and activity.
    So I challenge you to figure out on this map how we can 
manage. Next slide.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    So this is what we did, similar to unified regions, similar 
to how the military has combatant commands overseas, we asked 
the United States Geological Survey (USGS) to strip current 
boundaries and look at science. How would we be the best 
stewards, and what would be the divisions based on watersheds, 
ecosystems, wildlife corridors, about 13 variables?
    They came back with a map dividing our country into about 
13 different regions, based on pure science. Then I took those 
regions, and I brought in my SES, my Senior Executive Service, 
not political appointees, but careers. They looked at it, and 
they offered a number of recommendations. I did not agree with 
every recommendation, but I took every recommendation.
    What you have before you is a recommended reunification of 
regions so the Park Service has the same region as the Bureau 
of Reclamation and the same region as the BLM.
    Then what I did is I brought in the Governors. The 
Governors' principal concern was making sure the BLM State 
Director remains in place. I did that.
    Then we looked at making three functional areas and doing 
them jointly. By ``joint,'' I mean that within these new 
regions, that recreation--because trail systems should connect; 
wildlife corridors and flyways, that nexus should be protected; 
bike paths should connect; and there is no reason why a 
trailhead cannot start in a Forest Service holding and 
transcend into a park.
    Secondly, the National Environmental Policy Act (NEPA). All 
stakeholders should be at the table in the very beginning of 
NEPA rather than independently produce the biological opinions 
or the Environmental Impact Statements (EISs) and the 
Environmental Assessments (EAs), and finally permitting. Each 
of those different regions will have those two or three areas 
done jointly, but the makeup is different.
    If you are in Alaska, you have different recreation than in 
Florida, and so the different divisions will be made up of 
Interior staff drawn from different bureaus, but they will 
reflect what is in that region.
    We are also pushing the authority and power out to make 
more decisions on the region level rather than DC, because if 
you do not know the difference between the Yukon and the 
Potomac, maybe you are not the best position to make the 
decision on the Yukon.
    Lastly, Interior itself. Today, 16 percent of Interior is 
retirement age. In 5 years, 40 percent of Interior is 
retirement age. So we are a very senior Department. We do not 
have to reduction in force (RIF) anybody. But if someone 
retires as a GS-15, perhaps, in Washington, or one of our large 
centers, we can recode that billet to a GS-7 and send them 
closer to the field.
    Lastly are Native Americans. I am a sovereignty supporter, 
in that sovereignty should mean something. The decision on 
whether to incorporate Bureau of Indian Affairs and to what 
extent is a one-on-one relationship with the Tribes themselves. 
We have made no decision to do that because consultation should 
be among equals, and I think it is to their advantage to be at 
the table on these critical decisions about permitting or NEPA 
or recreation. But the decision on whether to change from our 
current structure to fully incorporate into this structure is a 
decision that the Tribes themselves, I think, should make as 
equals. I think it is to their advantage of being at the table 
at the very beginning, but the consultation is beginning. What 
that structure would look like, we are not exactly sure.
    I can tell you the different groups. I brought Simon 
Roosevelt and Gifford Pinchot III in the office, the two 
greatest icon families in the history of conservation. I had 
roundtables with National Geographic and Audubon Society, and 
we had a conservation roundtable, because before I bring it to 
Congress and this body, I want to make sure we have it right, 
and we walk through unintended consequences. Because this will 
be the largest reorganization in the history of this 
Department, and we just want to make sure we have it right.
    Senator Murkowski. I appreciate you providing background. I 
know that colleagues will want to drill down more into the 
specifics, whether it is at this hearing or at other occasions.
    Senator Udall.

                             REORGANIZATION

    Senator Udall. Thank you very much, Madam Chair.
    And just a comment initially on the reorganization. Bureaus 
have management issues because, by law, they have conflicting 
missions. So I do not see how changing regional boundaries 
resolves the fact that the BLM has a different legal 
responsibility and legal responsibilities than the Park Service 
or the Bureau of Reclamation.
    So it is your job as the Secretary to take all of those 
responsibilities and work it through. My initial thought is, I 
do not see how changing boundary lines deals with the 
conflicting missions.
    As you know, on the public lands, on most of it, you are 
doing a lot of multiple use, and you are trying to balance 
endangered species versus oil and gas, for example. I do not 
know how drawing the lines really makes a difference there.

                                 ETHICS

    But, Mr. Secretary, before we start, there has been a lot 
of focus recently on ethics issues across Government, and I 
want to make sure that this subcommittee does our due diligence 
while recognizing we have limited time this morning and a lot 
of ground to cover. So I want to ask just one quick question, 
which I hope will be an easy yes or no for you.
    Secretary Zinke, in keeping with the public trust, you are 
currently in compliance with the standards of Government 
conduct and your Trump ethics pledge, is that correct?
    Secretary Zinke. That is correct, and may I quote the 
Office of Inspector General's most recent reported 
investigation, ``We found that Zinke's use of charter flights 
followed relevant law, policy, rules, and all regulations.''
    Senator Udall. Thank you, Mr. Secretary.

                              2018 BUDGET

    I also want to ask you about the agency's plans to execute 
the fiscal year 2018 budget. As far as I know, the Department 
has not yet released its budget to the field, even though no 
funds are being proposed for rescission and even though you 
have made prioritizing resources for the Department's 
frontlines a personal priority.
    I have also heard some concerning reports that the 
Department may choose not to follow congressional direction, 
including in the omnibus on a bipartisan basis, including fully 
restoring funds for bureau programs or implementing Federal 
land acquisitions and partnership programs, such as the USGS 
Climate Science Centers and water research grants.
    It is critical that this subcommittee has the confidence 
that, when we pass a budget, the Department will execute it, so 
I want to clear all of this up.
    By what date can we expect the budget to be released to the 
field? And will you commit to us that the Department will 
follow congressional intent, including direction provided in 
both the omnibus bill and the explanatory statement, and spend 
the funds Congress provided without further delay?
    Secretary Zinke. We are not holding up funding. As you 
know, the omnibus, the way it was structured----
    Senator Udall. What date are we releasing the budget to the 
field?
    Secretary Zinke. We should have the control numbers out 
soon.
    Senator Udall. ``Soon'' is a couple of weeks?
    Secretary Zinke. A couple of weeks.
    Senator Udall. Okay.
    Secretary Zinke. As you know, the budget is supposed to be 
done--and I do not fault anybody, but the system. It is 
supposed be done in October. The omnibus was recently passed. 
We had to review what was in the omnibus, put the control 
numbers out.
    As a former Congressman, I follow the law and the 
congressional intent. The way our Government works and should 
work is, you make the laws, you put in the budget and the 
budget lines. My job is to execute it. I get called by Members 
saying, ``Where's the money?'' and I say the same thing.
    Some of the processes that were in place, particularly on 
grants, which I know you are obviously aware of, is the way we 
were doing it is that money had to be put in the account before 
the field would actually put in the request for review. What we 
are doing now is, we are making sure all the paperwork is in 
before the grant is done. The tracking to make sure that when 
money is allocated and Congress determines that that is a 
reasonable expenditure of taxpayer dollars, is preapproved, so 
when the money comes in, we can automatically deliver the 
grants.
    I apologize that, last year, I inherited a process. We are 
making a better process. We did not have a database between 
bureaus to track different grants. Grants were going out the 
door, and there was no way to track whether or not those grants 
were being spent per congressional intent. We are fixing that.
    Senator Udall. Okay. And to end, what I gather from what 
you said is that you intend to follow the direction provided in 
the omnibus and the explanatory statement, and follow 
congressional intent. And you have said that here today.
    Secretary Zinke. Absolutely.
    Senator Udall. Is that correct? Yes, okay.
    Madam Chair, I am going to let other Members here go on to 
their questions. I know we are going to have a second round or 
maybe more. Thank you.
    Senator Murkowski. Senator Daines.
    Thank you.
    Senator Daines. Secretary Zinke, thanks for being here. You 
are a great advocate for Montana and for the West as a whole.

                     NATIONAL PARK RESTORATION ACT

    I am especially happy to work with you on the National Park 
Restoration Act to ensure dedicated revenues flow to our 
National Parks maintenance backlog. We have talked about the 
$11-plus billion backlog. We have great bipartisan support. 
Every time I see Senator Angus King, he asks me, when are we 
going to have a hearing on that? So I am excited about moving 
that forward, working with you on that. We have, I think, an 
opportunity to fix this problem.

                 YELLOWSTONE GATEWAY MINERAL WITHDRAWAL

    I want to thank you also for your commitment to the 
Yellowstone Gateway mineral withdrawal. You are working on that 
with the Forest Service while we work for permanent withdrawal 
here in Congress.
    I also want to commend you for prioritizing oil, gas, and 
coal leasing in other parts of our great State.

                          COTTONWOOD DECISION

    Secretary Zinke, as you know, Congress recently partially 
reversed the Ninth Circuit's disastrous Cottonwood decision. I 
first want to thank you for championing my legislation to 
repeal this decision first as a Member of the House and now as 
Secretary of the Interior. Unfortunately, the recent action in 
Congress does not apply to all BLM lands, only the Oregon and 
California Railroad Revested Lands (O&C) lands.
    The question: Do you support my efforts to apply the 
Cottonwood fix to all BLM lands?
    Secretary Zinke. It is prudent policy to remove the 
Cottonwood decision to provide Interior better management 
decisions. Yes, we do support being more aggressive.
    I think the omnibus had a good beginning, but it did not go 
far enough to give us the tools we need to manage our whole----
    Senator Daines. Right. In that light, Mr. Secretary, and I 
agree with you, the omnibus language only protects two of 
Montana's seven national forest plans from litigation related 
to reconsultation for new listings of new habitat. Further, the 
omnibus did not protect plans or projects from legal challenges 
regarding reinitiating consultation when ``new information'' 
has not been previously considered.
    The Forest Service has already received notice of intent to 
sue that reference the new-information requirements, and it is 
only a matter of time before formal legal challenges are 
brought forward that further delay implementation of important 
projects.
    My question is, do you support my efforts to likewise 
reduce this consultation red tape when Federal agencies receive 
``new information'' about a species?
    Secretary Zinke. Yes, I support any legislation that 
provides a better management tool, because we are mismanaging 
by misaction.
    We sat this morning on a Forest Service roundtable between 
Secretary Perdue and myself, and many Members here. We are just 
stuck in the mud on regulation that perhaps a lot of it was 
good-intentioned, but it is not allowing us to actively manage 
our holdings.
    In this case with Cottonwood, it does not allow the 
Department and the field to actively manage. When we do not 
manage, we mismanage. We are destroying, in my opinion, the 
habitat, in many cases, that we want to protect.

                                  FIRE

    Senator Daines. And, Mr. Secretary, as we heard this 
morning at that briefing, the outlook for the fire season for 
the northern Rockies looks to be above average. In other words, 
we are going to have a tough fire season, according to the 
Forest Service.
    It is time to get the fringe litigators out of the forest 
and put the loggers back into the forest. Thank you for your 
help in that regard.

                    LAND AND WATER CONSERVATION FUND

    I want to shift gears and talk about the Land and Water 
Conservation Fund. I am disappointed to see the significant 
reduction in proposed funding for LWCF. I am encouraged by your 
budget mentioning the need for reauthorizing the program. I am 
optimistic this committee and Congress as a whole will maintain 
our commitment to that program, as it is one that has robust 
bipartisan support.
    My question is, do you agree that LWCF is a good program 
that benefits Montana?
    Secretary Zinke. I have long been a supporter of the LWCF 
program. As a former Congressman, I have seen the benefits of 
the LWCF program. I have been a supporter of a permanent 
authorization.
    It is hard to justify taking in more land when we have not 
addressed the maintenance problem of our current holdings, and 
I am hoping that a bipartisan bill you are sponsoring on 
maintaining and getting a system in place where we can maintain 
our current property, would be a big step. If we are 
maintaining what we have, then I do agree with expansion of the 
LWCF program.
    But also, there is a difference between appropriated and 
authorized. Now, over the course of time, authorized, the gap 
is about $18 billion. So that means $18 billion had been 
authorized that has not been appropriated from that account. 
And so our current system, I think this is why we need a 
permanent authorization.
    Senator Daines. I agree with you, Mr. Secretary. We will 
work with you to that end.

                       BLACKFEET WATER SETTLEMENT

    I want to thank you for visiting the Blackfeet Reservation 
earlier this year to authorize the first transfer of funds for 
the Blackfeet water settlement, which we worked together to 
enact while you were in Congress. I know you understand as well 
as anyone how crucial the settlement is to the State of Montana 
and the Blackfeet Nation.
    In order for the settlement to become effective by 2025, 
all appropriations must be appropriated. I do not think we will 
get there with the current levels of funding proposed in the 
administration's budget. In order for us to meet that 
condition, over $50 million a year must be appropriated to the 
settlement.
    I want to do everything I can to ensure that this 
settlement gets realized. That is why I have secured language 
with your support in this year's Water Resource Development Act 
authorization bill to allow earlier access to appropriated 
dollars for the settlement. I want to explore the fiscal year 
2019 appropriations bill as another vehicle.
    My last question is this. Will you work with me in securing 
as much funding as possible to implement the settlement, so it 
can become enforceable prior to 2025, including the proposed 
legislative language and proposing more funding in both the 
Bureau of Reclamation (BOR) and the Bureau of Indian Affairs 
(BIA) accounts in future budgets?
    Secretary Zinke. Yes, I am committed to work with you on 
this because, at the end of the day, waiting until an account 
is full--it is present value of money. Some of those projects 
that could have been addressed earlier at a lower cost could 
have been made. But to ask an Indian nation to wait until an 
account is fully funded in order for them to begin the process 
I think creates hardship.
    I would love to work with you on it. I think it is a 
bipartisan effort. To get the resources to the frontline 
sooner, I think that is an admirable goal.
    Senator Daines. Thanks, Mr. Secretary.
    Senator Murkowski. Thank you, Senator Daines.
    Senator Tester.
    Senator Tester. Thank you, Madam Chair and Ranking Member.

                    LAND AND WATER CONSERVATION FUND

    Thank you for being here, Secretary Zinke. I appreciate 
having you here with your crew to talk about the budget. You 
talked in your opening statement about the national treasure 
that our public lands are, and you said that you were a Teddy 
Roosevelt Republican. You said that before. I have heard you 
say it before. I appreciate it. Teddy Roosevelt is one of the 
people that I really look up to.
    What has made Teddy Roosevelt an icon was his ability to 
come into an area that was almost all wild and realize that it 
wouldn't always be that way unless he did things like set up 
parks. So that vision is what really, I think, sets Teddy 
Roosevelt apart from just about any other President that has 
served, when it comes to our public lands, which brings me to 
the Land and Water Conservation Fund, a fund that has been 
fully funded twice since 1978 when it was first set up at $900 
million off of offshore oil.
    Your budget puts in $8.1 million. From the questions 
Senator Daines had just asked, your statement to him was that 
you did not want to bring more land in to the public lands 
domain, because there is a maintenance problem.
    Did I mis-hear you on that, or is that correct? Is that why 
we are at $8.1 million?
    Secretary Zinke. The Land and Water Conservation Act 
removes--the proposed budget removes new acquisition funding. 
It prioritizes the resources we have.
    Upfront, as you know, the budget is a proposal. And this is 
where the two branches come together----
    Senator Tester. I got you.
    Secretary Zinke [continuing]. And discuss priorities. I 
have always worked with you on Land and Water Conservation.
    Senator Tester. Yes, and I appreciate that, Mr. Secretary. 
The chairwoman talked about Tara Sweeney yesterday.
    Here's the problem. The problem is that we all come from 
different parts of the world. Public lands is a western thing. 
It truly is. And for people to really understand here how 
important this is, we have to have an advocate in the 
administration--that is you--to be able to say, you know what? 
$8.1 million when it should be funded at $900 million, because 
I know in your heart, that is where you think it should be 
funded--and do not let me put that in your heart, unless it 
really is in your heart. But we have to have a person who 
stands up, and says, whoa, come on.
    So $8.1 million, let's just be honest, I mean, what was the 
justification for that? Are there no projects nationwide? 
Because the truth is, these ecosystems aren't going to be 
around in 10 or 20 years. Teddy Roosevelt, they were going to 
be around in 10 or 20 years, when he toured the country. But 
now, they are not. We are seeing lands being sold and 
checkerboards being taken away.
    So I just want to get your opinion, because it is really 
important that the Secretary of the Interior understands it. It 
is not all on us. Some of it is. A good portion is on you.
    Secretary Zinke. I agree. It takes working together on it. 
I have been an advocate of the Land and Water Conservation 
Fund.
    We need to address our $11.7 billion backlog in our parks. 
And then our $1.2 billion in our wildlife refuges. And, oh, by 
the way, parks, even though in the West we think that all the 
public land is out West, it is really not. We have great public 
land battlefields----
    Senator Tester. Sure do.
    Secretary Zinke [continuing]. On the East Coast that also 
need to be maintained.
    The priority of this budget is the infrastructure repair 
backlog and bringing a discussion between the two groups.

                          INFRASTRUCTURE FUND

    Senator Tester. That brings me to my next question, and 
that is that the revenue for rebuilding the national parks is 
not going to be taxpayer dollars. It is going to come off of 
all energy projects similar to LWCF.
    LWCF is funded at a pittance, $8 million when it should be 
$900 million. Why should we think that this proposal is going 
to be any different, if it is going to be similar to LWCF?
    Secretary Zinke. Well, the proposal, which is bipartisan, 
was also a recommendation from numerous commission studies.
    Senator Tester. I got you.
    Secretary Zinke. But it also expands it. The idea is this, 
it is a sound and prudent policy.
    Senator Tester. It is fine if it is done. And LWCF is a 
sound and prudent policy, too, to take offshore drilling 
revenues and put $900 million toward this project in 1978 
dollars, and they are not near as much now as they were in 
1978. And we are funding it, I do not know, at 1 percent of 
what it should be?
    Secretary Zinke. This is why there are two branches of 
Government, and why I am committed to work with you on it.
    Senator Tester. Good. I appreciate that.

                          RURAL WATER PROJECTS

    Now I want to talk about rural water projects. This is an 
issue that Senator Daines also brought up, and he said $50 
million for a Blackfeet water settlement to take into the 
compact, to use his numbers.
    We have a project in north central Montana. We have a 
project in northeastern Montana. When I was first elected to 
the State legislature in 1998, these were $100 million projects 
total. Now they are north of $300 million projects total.
    Fiscal year 2017, there was $84.6 million, which wasn't 
near enough. In fiscal year 2018, there is $120 million, which 
isn't near enough.
    Your proposal is $33.9 million. Blackfeet is going to 
require $50 million in and of itself each year moving forward. 
We have the North Central water project that is 75 percent 
unfinished that is going to get just under $4 million.
    We are talking water infrastructure. We are talking about 
living up to our trust responsibilities. We are talking about 
making sure that these projects get built in my grandkids' 
lifetime, because at this rate, they are not.
    How do we justify this kind of a budget figure?
    Secretary Zinke. So what happened, and why are we here? 
This was the great promise of Bureau of Reclamation.
    Senator Tester. Yes.
    Secretary Zinke. It is that the Government would come in, 
make significant investment, because the local ranchers and 
farmers did not have the ability. Then over time, the water 
districts would pay those projects off, and the title then 
would be transferred.
    The problem is Bureau of Reclamation rarely transferred 
those titles. We are in the process of transferring, I think, 
well over 300 of these titles to free up maintenance money, so 
we can maintain our obligations.
    This did not happen overnight, and it just wasn't the last 
Administration. This has been decades.
    Senator Tester. You are right. But this is the lowest 
number that we have seen, that I have seen in 11.5 years that I 
have been here. It is the lowest number.
    And these are Indian water settlements. They are not 
irrigation projects. This is trust responsibility.
    Do the other communities get an opportunity to take 
advantage of this? You bet they do. And it is good, because it 
is good for rural America.
    These projects will never be built. There isn't enough 
money in this budget to take care of operations and 
maintenance, much less putting pipe in the ground.
    Secretary Zinke. The budget does include about $173 million 
for Indian compacts. I understand that the obligations far 
exceed that, but we also have to remove our overhead and our 
legacy projects and transfer those titles, that will be 
significant, to put more money into places where it is needed 
rather than to continue to march on and not transfer these 
titles.
    Senator Tester. Thank you for being here. These projects 
will not get done unless there is real money in them. It is 
just not. Transferring, all that stuff, not going to happen 
unless there is money in the accounts, whether it is LWCF, 
whether it is Native American water settlements. I did not even 
get into manpower. Those are big issues.
    Thank you for your service.
    Secretary Zinke. Thank you, sir.
    Senator Murkowski. Thank you, Senator Tester.
    Senator Capito.
    Senator Capito. Thank you, Madam Chair.

                        OFFICE OF SURFACE MINING

    And thank you, Mr. Secretary, for being here with us today. 
I want to begin, first of all, by thanking you for some of the 
common-sense regulatory reforms that you have made, 
specifically the Office of Surface Mining Reclamation and 
Enforcement (OSM) guidance memo from the previous director, 
which ordered the agency staff to conduct a backdoor 
implementation of the stream buffer zone that had been 
nullified by the Congressional Review Act. That was the right 
thing to do from both pragmatic and legal perspectives, and I 
want to personally thank you for providing much-needed 
regulatory certainty in our country's mining communities. We 
certainly see that having good results in the State of West 
Virginia.

                     NATIONAL PARK RESTORATION ACT

    I would also like to thank you for your Department's 
support and would like to hear your comments on S. 2509, the 
National Park Restoration Act, which would use excess Federal 
energy and mineral revenues to address our national parks 
maintenance backlogs. This legislation, I think, would go a 
good way in assisting with the renewal of our parks.
    We have one that is very special to me in Harper's Ferry, 
which in and of itself has $15 million in maintenance backlogs.
    So I do not know if you would like to comment on S. 2509.
    Secretary Zinke. I do. I support the legislation. In the 
budget, it has the largest investment in the history of this 
country for Park Service and wildlife refuges.
    And you are correct. The idea is this. All energy on public 
lands, whether it is offshore or onshore--and it is different 
than LWCF. LWCF is only offshore, but it also doesn't affect 
any current programs. It is net dollars going to Treasury after 
the Gulf of Mexico Energy Security Act (GOMESA), after LWCF. 
There is a number of revenue streams that get carved off.
    What is different is it includes all energy on Federal 
lands, and it is net dollars going into Treasury. Half of that 
would fold back and go into a parks, wildlife refuges, and 
Indian education infrastructure account.
    Senator Capito. I am hopeful we can move that, because when 
it was first brought to my attention--Senator Alexander, I 
think, was leading the charge on that--it seemed like a good 
way to solve a very difficult and expensive issue. So thank you 
for your support on that.

                      CANAAN VALLEY VISITOR CENTER

    I am just going to move along to an issue that is of 
concern to me in West Virginia, but I have repeatedly received 
assurance from the Fish and Wildlife Service that the 
replacement of our Canaan Valley National Wildlife Refuge 
visitor center, which is falling down, has been the agency's 
highest priority in the northeast region. During these 
conversations, I was informed that it would move to the top of 
the list once the one in front of it was completed.
    That happened, but in your budget proposal, Canaan Valley 
was again leapfrogged and is again still number two in the 
region but is also separated by that new northeast project by a 
full 14 spots on your whole national review. I have put in 
language in the fiscal year 2018 Interior appropriations how 
important this is.
    Senator Manchin, who is my counterpart, obviously, from 
West Virginia, we are both onboard on this. We visited there.
    I would just like some comment on that, and I want to have 
the assurance that this is still a top priority. I know it is 
for the Northeast. I have talked to the Fish and Wildlife folks 
there just recently. Any comments you might make on that would 
be appreciated.
    Secretary Zinke. It was brought to my attention, the 
project, and when we release our budget controls, you are going 
to be very happy.
    Senator Capito. Well, enough said. I will take that. Other 
than that, since I have gotten that answer, I know when to quit 
when I am ahead. So thank you very much.
    Senator Murkowski. Very good. Thank you, Senator Capito.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Madam Chairman.

                             GLEN ECHO PARK

    And welcome, Mr. Secretary, and thank you for your service. 
I want to start with an issue close to home in my State of 
Maryland, Glen Echo Park.
    Over 16 years ago, back in 2002, the National Park Service 
and Glen Echo Park entered into a management agreement that 
gave Montgomery County, Maryland, management authority over the 
park. That agreement is set to expire very shortly on June 7. 
We have been working for about 2 years to try to get the 
parties together to negotiate in good faith at the bargaining 
table.
    I would like to get your commitment to get your team to the 
table next week. I can assure you I will get the Montgomery 
County representatives at the table to finish this up, because 
if it expires, you are going to create a situation with a lot 
of chaos and uncertainty.
    Secretary Zinke. My understanding is you personally have 
gone to one of those meetings.
    Senator Van Hollen. I have. You are right, Mr. Secretary. 
And I hoped, after that, that we would be able to resolve this 
quickly.
    Secretary Zinke. My commitment, if I have to go personally 
with you, we are going to get it done.
    Senator Van Hollen. Great.
    Secretary Zinke. It is an important park, and my 
understanding is the ``negotiations'' are going well. But I am 
personally involved in it now.
    Senator Van Hollen. Okay. I am grateful for that, because 
the clock is ticking. As I said, June 7 is the expiration date. 
And this is an agreement that actually saves the National Park 
Service a lot of money. I mean, we have been raising some of 
the fees, as Senator Udall said, at the park.
    Secretary Zinke. As a former SEAL, I have not lost many 
battles, and I do not intend to lose this one.
    Senator Van Hollen. Hopefully, they can resolve this, but 
if not, I look forward to sitting down with you, Mr. Secretary. 
I appreciate that.
    Secretary Zinke. They will work it out.

                            5-YEAR OCS PLAN

    Senator Van Hollen. Thank you. Now a little more 
controversial issue, and this has to do with the January 4 
announcement where you have set out draft regulations to open 
the Atlantic coast to oil and gas drilling, including my State 
of Maryland. And within a very short period of time, I think it 
was 5 days later, you tweeted out, and I am quoting, ``Taking 
Florida off the table for offshore oil and gas,'' and then you 
attached a statement, ``Removing Florida from consideration for 
any new oil and gas platform.''
    I am sure you can understand why States like Maryland had 
their eyebrows go up with that. It sounded very arbitrary and 
capricious.
    So my first question is does that still stand? Is Florida 
off?
    Secretary Zinke. Yes, I remain committed that there are no 
new oil and gas platforms off the coast of Florida. They are 
still in the process legally, but I am committed to that.
    Allow me to tell you what I did, really shortly. It was 
zero-based. I put everything on, and if I would have left 
Florida off, it would have been arbitrary and capricious. So I 
put Florida on.
    Senator Van Hollen. Mr. Secretary, here is the thing. I 
think that it might have been arbitrary and capricious to leave 
them off, since you were looking at everything. In my view, it 
is just clearly arbitrary and capricious to then, by tweet, say 
that you are taking them off, and, at the same time, testifying 
that they are still in the process legally, but you have 
already made the decision politically to take them off. That 
sounds arbitrary and capricious.
    So what I would like is to get a commitment to put Maryland 
in the same category, because I saw your testimony before the 
Energy and Natural Resources Committee, chaired by the Chairman 
of this subcommittee, and Angus King asked you about this, 
Senator King from Maine.
    He asked you about this, and you said these were the 
criteria. Florida was different for three reasons. One, every 
Member on both sides of the aisle wrote you a letter saying 
they are opposed to it. So, Mr. Secretary----
    Secretary Zinke. That is true, plus the Governor.
    Senator Van Hollen. So the Maryland delegation is on record 
opposing this in a bipartisan way, number one.
    So then in Maine----
    Secretary Zinke. And I have talked to the Governor.
    Senator Van Hollen. Then in Maine you said, well, the Maine 
Governor was actually in favor of it, but the reality is, in 
Maryland, Governor Hogan, a Republican Governor, is on record 
against it.
    Secretary Zinke. And I have talked to the Governor.
    Senator Van Hollen. So my question to you is, given that we 
meet those criteria, can you tell me today that we will be 
treated the same as Florida?
    Secretary Zinke. You will be treated the same in Florida 
under the process. Florida is a little different. It is called 
a----
    Senator Van Hollen. No, I am asking you whether you will 
treat us the same as Florida in terms of tweeting out later 
today that we are off the list.
    Secretary Zinke. Florida has a moratorium in place, so it 
is a little different.
    Senator Van Hollen. Mr. Secretary, you know that that 
moratorium is not on the Atlantic coast. You know that 
moratorium is in place on the gulf coast. It was put in place--
--
    Secretary Zinke. Here is some----
    Senator Van Hollen. Let's just be real, right? This was 
about the Atlantic coast, including the Atlantic coast of 
Florida. Yes, there is a Florida moratorium on the gulf coast. 
It has nothing to do with Florida's Atlantic coast. You took 
Florida's Atlantic coast off. At least, according to your 
testimony the other day, because their delegation was 
unanimously against it, and their Governor was against it.
    Those conditions apply in Maryland.
    Secretary Zinke. And a moratorium, which is off the coast 
of Florida, which would not allow the drilling of oil and gas.
    Senator Van Hollen. Off the gulf coast.
    Secretary Zinke. Off the gulf coast.
    Senator Van Hollen. Not the Atlantic coast.
    Secretary Zinke. Right.
    Senator Van Hollen. That moratorium is not in place off the 
Atlantic coast of Florida, so----
    Secretary Zinke. I have some good news for you, though. The 
good news is this. It is that there are no known resources off 
the coast of Maryland. Number two is the President has ensured 
that we take the local community in consideration and the views 
of this body, the representatives. Three is that there is no 
infrastructure off the coast. And four is that State waters 
matter, so you would have to actually bring something offshore 
through State waters.
    If the State decides to say no--but since you have no 
resources, you have no infrastructure in the State----
    Senator Van Hollen. I appreciate that, Mr. Secretary----
    Secretary Zinke [continuing]. I think you are going to be 
very happy with our planning process as we go through. We 
should release the first draft at the end of the fall.
    Senator Van Hollen. Okay, well, I just hope we could sort 
of put this on hyper-speed, like you did in Florida. I mean, 
you have to admit, it looked very political, right? Meeting 
with the Governor, making that public announcement by tweet. I 
just hope that Maryland and other States that meet those 
criteria get the same consideration.
    I appreciate your testimony. I may ask you a little bit 
more about other aspects of this, if there is a second round. 
Thank you.
    Senator Murkowski. Thank you, Senator. And yes, we will 
have a second round.
    We are now going to turn to Senator Merkley.
    Secretary, I am going to excuse myself for about 7 minutes, 
while I go ask questions in another Appropriations 
subcommittee. Senator Udall will have the gavel here. Thank 
you.
    Senator Merkley.

                                  FIRE

    Senator Merkley. Thank you very much, Mr. Secretary, for 
coming and carrying on this dialog with us. I think it is a 
productive exchange of concerns that particularly involves the 
public opportunity to understand these issues a little better.
    And I do appreciate the cooperation in tackling the 
challenge of fire-borrowing, which has been something that has 
so damaged the Forest Service year after year previously. 
Having the 2020 date of ending that practice of viewing big 
fires as national disasters I think is very appropriate and 
helpful.
    I also am going to keep pushing in the budget for more 
funding for thinning our forests. We have 1.6 million acres in 
Oregon that has already gone through the environmental process. 
We found that in the fires last summer in Oregon where we had 
thinned and taken the fuels off the floor of the forest, that 
they were fire-resistant, and it made a big difference.

                                KLAMATH

    OMB has allocated--let me back up. There is a budget that 
Greg Walden and Senator Wyden and I pushed for, plussing-up for 
water conservation and delivery. We did plus it up, and OMB 
intends to allocate $10.3 million to the irrigators in the 
Klamath. It is just on the verge of the check being written, 
but my understanding is, as of this morning, it hasn't quite 
been written, but I think it is going to happen soon. Is that 
your understanding?
    Secretary Zinke. I did meet with Congressman Walden on the 
issue. We are going through the legal part of that language. 
The Solicitor in Sacramento said that language would not allow 
us to pump, even though, in good faith, Interior and yourself, 
Senator Wyden, Greg Walden, all worked tirelessly to get the 
language in, and I think we assumed that language had legal 
standing to do what it was intended to do, we are looking at 
it, because an objection was brought up that that language 
might not give us the latitude to do it. So we are looking at 
fixes.
    It is a priority with me, because Interior made a 
commitment to do it. You moved heaven and Earth to get the 
language in there, and we need to work together to find a fix 
if, in fact, the language--and it would be our mistake. The 
language may not allow us to do it legally, but we think there 
are fixes to it.
    Senator Merkley. I am available 24/7 to work with you, as I 
know my colleagues are. And thank you for that.
    We had understood, as of last week, that the pumping was 
okay, but the land idling might have to be repaid and that that 
was the piece. So we will be part of ongoing conversations, 
trying to figure this out and get the funds into place. But 
thank you for working with us.
    Secretary Zinke. My understanding is that is the case. We 
can do it, but we cannot pay. We have to ask the irrigators for 
faith on it, and then put the language in. But we would support 
corrective language to do that.
    Senator Merkley. Thank you. I really appreciate that.
    That region has gone through--this could be the fourth 
worst-ever drought in about a 15-year period, so it has been 
tough down there.

                    CHETCO RIVER MINERAL WITHDRAWAL

    On July 25, the mineral withdrawal expires on the Chetco 
River. This is a National Wild and Scenic River, world-class 
salmon and steelhead, during a period where many of our rivers, 
the salmon runs are virtually disappearing.
    The relevant Congressmen--Congressman DeFazio, Senator 
Wyden, and I--have written to you and asked for your help 
extending that, so Congress can have the chance to try to fit 
this in when we do some kind of collective bill, as we often 
do, in a large piece. We are just not sure what the timing of 
that is going to be, but I would appreciate your help, if we 
can extend that.
    Secretary Zinke. I have asked to pull the file on it and 
have it up to my desk. I know our staffs are working together 
on that. I have not seen the paperwork yet, but I asked for it 
to come up.
    Senator Merkley. Thank you. I appreciate that.

                            5-YEAR OCS PLAN

    Then for the last minute, I will also turn to this oil 
drilling question. As you can tell by a variety of questions, 
many States are very concerned.
    We do not have too many tracks that are prime drilling 
territory off Oregon and Washington, but there is one for sale. 
Because we have crab, we have shrimp, we have groundfish, we 
have oysters, we have salmon, and we have whiting, and I am 
probably missing three or four more, plus our tourist industry 
along the coast--it is the most beautiful coast to be found in 
the world. So we love the coast, and we have a big tourism 
industry about it, in addition to all of this fishing and 
shellfish side. So folks are very alarmed and would love to 
have, as you noted, that you were taking into account the local 
and State voices, I would ask that you take into account that--
I know our Governor has talked with you, and thank you for 
meeting with her--we are very concerned about this.
    Secretary Zinke. You have my commitment that the local 
voice will be heard.
    And Oregon and Washington, three things. One is there are 
no significant resources off the coast. Two, there is no 
infrastructure to support oil and gas. Three is that there is 
opposition. You would have to go through State waters. And 
fourthly is the President has made it very clear in his 
guidance to me that the local and State voice would be heard.
    Senator Merkley. Thank you. I appreciate that. I will tell 
you, even though we do not have much in known resources, there 
is some. But also, the type of echolocation, the explosions 
that are done to get more information on the geological 
formations, that itself can have a big impact on our whale 
migration and our fish stock, so we were concerned even if that 
type of exploration should at least be made.
    So thank you very much for listening to the local voices.
    Secretary Zinke. May I add really quickly that seismic is 
also used for wind. It is also used for extraction of sands to 
restore the coast. So, carefully done, I would say seismic is 
far less destructive than mining of sand for our coastal 
restoration. But science is prudent in the way we look at it, 
at the effects and causes and impacts.
    Senator Udall [presiding]. Thank you.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.

                          DEFERRED MAINTENANCE

    Good to see you, Mr. Secretary. Good to see you. First, Mr. 
Secretary, I would like to thank you for your visit to 
Tennessee a couple of weeks ago.
    My colleagues may not know that he turned out to be a Good 
Samaritan. On his way out of the Great Smoky Mountains, some 
woman had a dead battery and came up to him and asked for help 
without knowing he was the Secretary of the Interior. He helped 
her. And the next thing, it was all over the news, not because 
of him, but because of her. So thank you for that.
    But thank you especially for your visit, for the purpose of 
emphasizing the importance of dealing with the deferred 
maintenance, the $11.6 billion of deferred maintenance backlog 
in the 417 units of our national parks system.
    You visited the Look Rock campground on top of Chilhowee 
Mountain as an example of that. It has been closed for 5 years. 
It is a place where 5,100 families a year would camp and where 
15,000 would go for daytrips. But they have not been able to do 
that, because of no money to fix the water treatment system and 
other problems. You pledged to find $2 million to fix it, and I 
thank you for that.
    But I thank Senator Udall and Senator Murkowski for the 
increases in funding in deferred maintenance that this 
subcommittee recommended and that the committee approved, 
because I know you can use it in New Mexico, and we sure can 
use it in Tennessee and North Carolina.
    So thank you, Mr. Secretary, for that visit.
    Let me ask you, in a larger way, Look Rock campground has 
$2 million in deferred maintenance to fix it up, but the Great 
Smokies has $215 million in deferred maintenance. Its 
appropriation is only $20 million a year. The country has $11.6 
billion. Several hundred million of that is the National Mall. 
You were saying even the George Washington Parkway, Mr. 
Chairman, is part of that.
    So these are big expenses, and if we do not do something 
extraordinary to deal with that, it will never get done, which 
is why I want to salute you and the administration for 
proposing that we take a tried and true principle, which is use 
some of the money from royalties, from energy exploration on 
Federal lands, and use it for an environmental purpose.
    The Rockefeller Commission recommended that in the early 
1960s. That produced the Land and Water Conservation Fund. Over 
the years, every conservation group I know has supported the 
idea of taking money from offshore drilling and use it for 
billions of dollars of Land and Water Conservation Funds.
    When Senator Domenici was here, we worked together to take 
some more money out of gulf coast oil and gas drilling and put 
into the State side of Land and Water Conservation Fund. And 
now you have proposed that we use money from all of royalties 
to address this $11.6 billion backlog.
    I am pleased to report, we have at least two pieces of 
legislation here with bipartisan support. Several Members of 
this committee have joined with me, Daines, Capito, Gardner, 
Heinrich, King, Manchin, Tillis. That is a pretty good start in 
bipartisan support. Then Senator Portman and Senator Warner 
have another bill, all headed in the same direction.
    This looks to me like something that might become law. If 
we have conservation groups, Republicans, Democrats, President 
Trump, you all behind it.
    What can you tell us about our chances for success with 
legislation to deal with deferred maintenance of national 
parks?
    Secretary Zinke. In my opening remarks, I talked about how 
our public land experience in this country is not a Republican 
or a Democrat or independent issue. It is an American issue. 
There are certain things that should transcend partisanship, 
even in the current political atmosphere. I would think 
dedicating a fund to address what America loves--and America 
loves our parks, America loves our wildlife refuges, and we 
have a treaty obligation to make sure that our Indian kids have 
a world-class education, too.
    You talk about our maintenance backlog, even though the 
Memorial Bridge, our project was released under-budget and 
ahead of schedule, it was $239 million.
    It is not just the things you see. It is the things you 
don't see. You don't see our sewer systems. Our water----
    Senator Alexander. So the Memorial Bridge, if you will 
excuse me for interrupting, cost more to fix than the entire 
maintenance backlog for the most visited national park in the 
United States, the Great Smokies.
    Secretary Zinke. Yes, sir. And a water system in the Grand 
Canyon at $170 million would nearly cover your entire backlog. 
The $11.7 billion of backlog in our parks system, about half is 
roads.
    I do have to apologize to you, because I did say something 
that wasn't true when I was at Smoky. I said that the new road, 
the link, was competitive. I would say it is not competitive. 
It rivals any of our road systems in our parks. It is a 
beautiful road. But that link was going to increase traffic. 
There is no doubt that America is going to want to be on that 
road and see the majesty of that valley. That is going to incur 
a larger maintenance issue on the existing roads.
    Our parks are being loved to death. That road alone will 
increase visitation, because I think every American is going to 
want to go on that road. It is an epic completion of a long 
project. But it is gorgeous, magnificent, majestic scenery on 
that road.
    Senator Alexander. Mr. Chairman, he is talking about the 
Foothills Parkway around the edge of the Great Smoky Mountain 
National Park, which was authorized first in 1944. This section 
of it is being opened toward the end of this year.
    Senator Udall. That is great. That is great to hear.
    Senator Alexander, you are finished? Okay, good, thank you.
    Secretary Zinke. That project started in 1960.

                    LAND AND WATER CONSERVATION FUND

    Senator Udall. Yes. You know, when you talk, Mr. Secretary, 
about these needs, I mean, that is the reason we have the Land 
and Water Conservation Fund. Where you say we love our parks to 
death, the reason we have the Land and Water Conservation Fund 
and the reason the commission that Senator Alexander talked 
about was put in place, and the high numbers that Senator 
Tester talked about, are to have additional parks at the local 
level, at the State level, at the national level. That is why 
it is so important that you get those funds out the door.
    My understanding is that the Land and Water Conservation 
Funds are stuck right now.

                             REORGANIZATION

    But let me just turn to the reorganization first. I want to 
note that this subcommittee has a long-standing process for 
reviewing and approving departmental reorganizations before 
they are implemented, even if they have no funding impact. So 
we expect you to work closely with us before any changes are 
made on the ground.
    So what is the Department's plan for submitting its 
reorganization proposal to Congress? Do you intend to submit a 
reprogramming proposal? Or do you plan to wait until the fiscal 
year 2019 budget is approved to move forward? Will you move 
before Tribal consultations take place? Which is absolutely 
crucial, as you know.
    Secretary Zinke. Our process is, we are going through the 
stakeholders. Again, we started out with the USGS on basic 
science. Then we brought our SESs in to change the boundaries a 
little. Then we brought in stakeholders. We are continuing to 
talk on the House side. We continue to ask for meetings with 
you to go through to make sure that when we do a reprogramming 
letter, that it is not a surprise, because there are a lot of 
stakeholders.
    We are having a conservation group roundtable, I think next 
week, which is a large spectrum across-the-board, to go through 
it and get input.
    On the Tribal consulting, we have begun the process. But 
again, we have not made a determination on whether the Tribes 
themselves are a part of the reorganization or remain as they 
are. That decision, I think, when I say Tribes are sovereign, 
is a decision they should make. What we have to do is 
articulate why I think and why the Department thinks it is to 
their advantage. But, ultimately, it is a decision that they 
are going to have to make, one way the other. We are prepared 
either way with the BIA.
    I want to emphasize, it doesn't really affect a park unit 
or a wildlife refuge in the new regions. What it affects is the 
decisions on recreation, the National Environmental Policy Act 
(NEPA), and permitting that operate on a landscape level, 
because trail systems should connect. We talked about it, that 
there is no reason why a trailhead cannot start in a BLM 
property and transcend into a park.
    But at present, you talked about different missions, there 
absolutely are different missions in each of the different 
bureaus. There is goodness in having service discipline, but 
where we can harmonize and connect the resources, like wildlife 
corridors, I think it is important that the bureaus on those 
critical components that lead to a healthy environment and 
better stewardship, those areas, I think, we should go joint 
and make those decisions, along with the State, for a better 
outcome.
    Senator Udall. Mr. Secretary, will you submit, for the 
record, a schedule for Tribal consultations?
    Secretary Zinke. We should be able to have that to you.
    [The information follows:]


                               TRIBAL CONSULTATION SESSIONS ON DOI REORGANIZATION
----------------------------------------------------------------------------------------------------------------
           Date                  Time (Local)                Location                        Venue
----------------------------------------------------------------------------------------------------------------
**Listening Session**      1:00 pm-3:00 pm           Kansas City, Missouri     **Listening Session**
Sunday, June 3, 2018                                                           NCAI Mid-Year Conference
                                                                               Marriott Kansas City Downtown
                                                                               200 W. 12th Street
                                                                               Kansas City, MO 64105
----------------------------------------------------------------------------------------------------------------
Tuesday, June 19, 2018     9:00 am-1:00 pm           New Buffalo, Michigan     Four Winds-New Buffalo Casino
                                                                               11111 Wilson Road
                                                                               New Buffalo, MI 49117
----------------------------------------------------------------------------------------------------------------
Thursday, June 21, 2018    9:00 am-1:00 pm           Billings, Montana         BIA Rocky Mountain Regional
                                                                                Office
                                                                               2021 4th Avenue,
                                                                               North Billings, MT 59101
----------------------------------------------------------------------------------------------------------------
Monday, June 25, 2018      9:00 am-1:00 pm           Albuquerque, New Mexico   National Indian Programs Training
                                                                                Center
                                                                               1011 Indian School Road, NW
                                                                               Albuquerque, NM 87104
----------------------------------------------------------------------------------------------------------------
Thursday, June 28, 2018    9:00 am-1:00 pm           Jackson, California       Jackson Rancheria Casino Resort
                                                                               12222 New York Ranch Road
                                                                               Jackson, CA 95642
----------------------------------------------------------------------------------------------------------------
Tuesday, July 24, 2018     9:00 am-1:00 pm           Banning, California       Morongo Band of Mission Indians
                                                                                Tribal Chambers
                                                                               12700 Pumarra Road
                                                                               Banning, CA 92220
----------------------------------------------------------------------------------------------------------------
Thursday, August 2, 2018   9:00 am-1:00 pm           Juneau, Alaska            Elizabeth Peratrovich Hall
                                                                               320 W. Willoughby Avenue
                                                                               Juneau, AK 99801
----------------------------------------------------------------------------------------------------------------
Tuesday, August 7, 2018    9:00 am-1:00 pm           Oklahoma City, Oklahoma   Embassy Suites Oklahoma City
                                                                               1815 South Meridian
                                                                               Oklahoma City, OK 73108
----------------------------------------------------------------------------------------------------------------
Thursday, August 9, 2018   1:00 pm-4:00 pm           Philadelphia,             Pearl River Resort, Golden Moon
                                                      Mississippi              Hotel & Casino
                                                                               13541 Hwy 16 W
                                                                               Philadelphia, MS 39350
----------------------------------------------------------------------------------------------------------------


    Senator Udall. Good, because I think it is very important. 
It sounds like you are leaning to including them, and then you 
are going to make the case. And so, I would just like to know 
and be able----
    Secretary Zinke. Well, I am leaning----
    Senator Udall. Because we are being asked by Tribes.
    Secretary Zinke. Yes, I want to make it clear, you need a 
commitment, I am not going to include the Tribes unless they 
want to, because consultation should be more than an email, or 
it should be more than a phone call. True consultation is 
working together.
    We are prepared either way. But I think, personally, it is 
to the advantage of the Tribes to be at the table on water 
decisions, recreation decisions, wildlife corridors earlier. I 
think it is to their advantage. But they will have to make that 
decision themselves.
    I am prepared either way. But I do think, from a kid who 
grew up in Montana with the Great Plains Tribes, I think it is 
an advantage to look at traveling systems, NEPA, permitting, 
and recreation, because the Tribes have a stake in that. And, 
organizationally, to be at the table, I think is a good thing.
    Senator Udall. Yes. The other issue here is, we have 573 
Tribes. And so what if 100 want it, and the rest don't? Where 
do you come out there?
    Secretary Zinke. I think we are probably going to be 
flexible in our regions, and we have to have a clear 
preponderance in these different regions. The good thing is 
that----
    Senator Udall. By clear preponderance, then, you mean if a 
robust minority say no, you are going to override them, in 
terms of----
    Secretary Zinke. No, what I am saying is that we are going 
to work with everybody. You are right, out of 573 Tribes, it 
becomes challenging, and maybe we will look at a test to see 
how it would work.
    But again, the decision on the Tribes, I respect 
sovereignty. And each of the nations is unique. They differ in 
opportunities, in challenges, in culture. I enjoy representing 
the Tribes as Secretary of the Interior. We are the only 
Department that should be the champion of our Tribal nations, 
and I champion decisions and freedom of choice.
    Senator Udall. Thank you very much, Mr. Secretary.
    Senator Murkowski [presiding]. Thank you, Senator Udall.
    Senator Rubio.
    Senator Rubio. Thank you very much.

                            5-YEAR OCS PLAN

    Thank you for being here, Secretary. Thank you for coming 
down to Florida after the storm and going down to Flamingo in 
the Everglades with us. It is a place I frequently fish off of, 
and we are making progress there. So thanks for your visit and 
being a part of it.
    I do want to take exception to something that was said here 
earlier, a complete untruth. Senator Merkley claimed that 
Oregon's coast was the most beautiful in the world, and that is 
just not true, because, obviously, Florida holds that 
distinction.
    Secretary Zinke. I will stay out of that.
    [Laughter.]
    Senator Rubio. Yes, sir, I understand. But I needed to 
correct the record.

                               EVERGLADES

    I want to talk a little bit about the Everglades. Its 
restoration is, I think, the most ambitious environmental 
restoration in the history of all mankind. You can make that 
argument. And we have made real progress, and we are on the 
cusp now of making real advances on the completion of several 
important projects.
    So the integrated delivery schedule for that restoration 
assumed Federal contributions of $147 million across the Corps 
and the Department of the Interior toward that restoration in 
fiscal year 2019, and then an average of more than $185 million 
from 2020 through 2030.
    This year, the administration only budgeted $118 million 
after requesting $131 million in fiscal year 2018. 
Unfortunately, we are heading in the wrong direction, and I 
hope that the budget does not reflect the administration's 
commitment to Everglades restoration.
    So, my question for you, and obviously for the 
administration, is this the direction that we are headed with 
Everglades restoration? Because if it is, I think it portends 
poorly to the future of this project, which is a critical 
national treasure, not just to Florida but for the country.
    Secretary Zinke. When I went down there, as you know, it 
remains a priority. I think it is as much structural as it is 
funding. We talked about the way that the project is with the 
Army Corps of Engineers is, rather than have approval of one 
project, each subcomponent has to be categorized as a new 
start. That itself lengthens the amount of time on these 
projects and doesn't give the Army Corps of Engineers enough 
flexibility.
    So just throwing more money at it I don't know is the 
solution. I think it is streamlining the process, so we can 
make better decisions sooner, so it does not languish.
    There is no doubt in my mind that the health of the 
Everglades depends on the right plumbing of the water, and that 
is the priority. It will take a serious effort between all 
players and all stakeholders to prioritize the plumbing first, 
because if we do not get the plumbing right, the rest of it 
will never, ever be healthy.
    Senator Rubio. Yes. I think most would agree they would 
want to have a more efficient way of getting approval on these 
projects moving forward. But it still gets back to the question 
of the total sum. I actually agree. In fact, the longer we take 
to complete these projects, the more expensive they become.
    So just going back to the total number, why is the number 
in 2019 significantly less than it was in 2018? It was $131 
million in 2018, and now the proposals for $118 million. Is 
that a function of the projects that are ready that you think 
could be funded this year? What is behind the reduction, since 
we know that in order to continue the pace on this project, to 
be able to truly say that we are on pace to do it, we have to 
be near the $147 million. It isn't just throwing money. That is 
what this is budgeted at, if it stays on schedule. And for 
every year we fall off schedule, the price tag may actually go 
up.
    So what is the new number this year lower than last year 
reflective of?
    Secretary Zinke. Yes, I will work with you. I think some of 
it has to do with our ability to execute, again, because if we 
could work together to--and it is not just a question of money. 
We agree it is a priority, and I am committed to make it a 
priority with you.
    But we have to make it also structurally easier. When we 
have funds, they actually go to moving the ball ahead. We are 
not getting far. I would contend we could double the money, and 
we wouldn't make double the amount of movement up the field. 
Structurally, we have to work together.
    On the 14 of June, I think we are having the South Florida 
Ecosystem task force, and I would invite you or a member of 
your staff to be a part of that and prioritize your efforts 
with it. Then we come to what we need, probably tweaks in the 
law a little to allow a prioritization and making sure we 
streamline. The money itself goes to bringing the ball up the 
field, so to speak, and getting things done, rather than just 
continuing a bureaucracy. Because right now, as you know--and 
you follow this issue better than, I think, anybody--we are on 
pace never to get it done.
    I mean, quite frankly, we need to shorten the timeframe. We 
can do it, if we can allow the right people the flexibility and 
the power to get it done without having to go through line by 
line by line by line, and approval on each of those lines. If 
we do it as a system, we can get this project done.
    Senator Rubio. I would say that, clearly, I am not a 
believer in just throwing money at things. In this particular 
case, there are projects that are ready to go. If the money 
were available, we can move on it.
    But the one thing I want to make clear, because I do think 
you have touched on something that a lot of people would agree 
with, so I just want to have it clear, it is your position that 
individual Everglades projects should not each be subject to 
new starts designation, that we should be able to do things 
systemically.
    Secretary Zinke. I do. There are some projects that 
actually are ahead of schedule, so it is not all doom and 
gloom. There is a trail system. There are some gates and stuff 
that are actually ahead of schedule. So that is good.
    Senator Murkowski. Thank you, Senator Rubio.

                             INDIAN AFFAIRS

    Mr. Secretary, I mentioned earlier that we had an 
opportunity in Indian Affairs to hear from the President's 
nominee for Assistant Secretary to Bureau of Indian Affairs, a 
woman that I feel is eminently qualified who can move into 
places where perhaps she is not invited and make sure that the 
voices of our Native peoples are heard. I am very, very pleased 
that you have provided that support to her.
    But those of us on the subcommittee yesterday shared that 
we thought that she had a pretty hard job. You have noted the 
deficiencies within the Bureau of Indian Education and your 
efforts to try to address some of the backlog issues with our 
schools. Making sure that our Native children receive a quality 
education must be a priority.
    There are other areas that we all feel very strongly about 
where we do not feel that either this administration or the 
previous administration or the previous administration before 
them did enough to provide for and meet our trust 
responsibilities to our Native people. Certainly, from a public 
safety perspective, that is one where we feel that there is 
extreme vulnerability.
    Senator Tester raised it yesterday. I have raised it. But I 
will just cite my concerns that, in the proposed budget, we are 
seeing an effort to eliminate funding for certain programs that 
we have been working to advance and provide for that safety, 
whether it is the Tribal Court funding; whether it is 
additional support for the Violence Against Women Act (VAWA) 
with a set-aside for our Native people; the Small and Needy 
Tribes funding, which for us in Alaska is incredibly 
significant because these are smaller Tribes that otherwise 
would have very limited opportunity for any resourcing; the 
Tiwahe Initiative, which is a pilot program to really help 
provide for a level of safety within our communities and to put 
pathways forward that can help with not only family and social 
services but alternatives to incarceration, prevention, and 
intervention.
    I would just ask you for your support, because we are going 
to put a lot of pressure on Tara Sweeney when she is confirmed 
and is in this position. When we think about the trust 
responsibilities--and you and I have had this conversation so 
many times, and I know where your heart is on this. You have 
shared it with me directly. You have shared it publicly, saying 
that you respect the responsibility and the obligation that you 
have as Secretary for our Native peoples.
    I have heard your comments to Senator Tester here that we 
have the executive proposing and the legislative branch 
disposing, but know that I am going to be very aggressive in 
trying to ensure that we continue to make headway with so many 
of these projects that are perhaps smaller dollar amounts, but 
that, when it comes to providing for the public health, safety, 
wellbeing, and education of our Native people, we want to be 
working with you on these.
    Secretary Zinke. Well, thank you. In regard to our 
Assistant Secretary of Indian Affairs, I do pick the best, most 
qualified individual to be a secretary. In this case, it was 
the first female Native Alaskan in the history of the 
Department of the Interior.
    Senator Murkowski. We are very proud of that.
    Secretary Zinke. As well as we had the first female 
director of the Bureau of Reclamation. I can tell you, if I get 
more than 7 out of 16 through the Senate, there will be more 
firsts.
    A frustration? It took over a year for my director of the 
USGS, who also is an astronaut, he has a Ph.D. in Earth 
sciences. He has had a Top Secret and Single Scope Background 
Investigation (SSBI) and Sensitive Compartmented Information 
(SCI) security clearance. He is probably the most imminently 
qualified director of the U.S. Geological Survey in the 
service's history, and that is saying a lot, because we had 
John Wesley Powell, and it has taken a year to get him through 
the process.
    I was talking to the Ranking Member. It reminded me when 
his father was the Secretary of the Interior, he had everybody, 
his complete staff, in place in the seats in 2 weeks. It is 
unlikely as a Secretary that I will have a director of the Park 
Service, a director of BLM, and a director of the Fish and 
Wildlife Service by 2 years in.
    Senator Murkowski. That is unfortunate, because we need 
them all. And know that my commitment is to help move these 
individuals through the process as quickly as we can, 
recognizing that the job on the ground is pretty significant.

                         COOPER LANDING BYPASS

    Let me ask a couple quick more parochial questions. We have 
been trying to move the Sterling Highway near the Cooper 
Landing away from the Kenai and the Russian Rivers. This is the 
spawning ground for our big king salmon. We have a preferred 
bypass route at Cooper Landing. It is called the Juneau Creek 
alternative. Virtually everybody involved agrees that it is the 
best option.
    Last week, the Department of Transportation and the State 
of Alaska reached an agreement to finalize the Environmental 
Impact Statement (EIS). It is the longest running EIS in the 
country. We are not very proud of being the first in everything 
and certainly not that.
    This is a big moment for us, and I thank you for helping us 
get to this place. The next piece is going to be to complete a 
land exchange between the Kenai National Wildlife Refuge and 
Cook Inlet Regional Inc. (CIRI).
    So my ask of you this morning is to give me an update on 
where you believe that land exchange may be, and when we can 
anticipate that you will be able to initiate it.
    Secretary Zinke. The EIS, as you know, was signed on March 
8. The record of decision, the ROD, is nearly done. And we 
should have that shortly, within days, done. Then we start with 
the Cook Inlet, it is the regional corporation, to look at 
that.
    Senator Murkowski. Right.
    Secretary Zinke. Given the success of King Cove, I would 
say we can get this done. If it is a priority of the Secretary 
and a priority of this body, and we work together, actually, 
Interior can work quickly on things.
    Senator Murkowski. Well, know that we look at this 
particular project and say, we do not think it has been 
quickly, but we welcome the opportunity to move it quickly 
under your guidance here.
    Secretary Zinke. I can say with 100 percent confidence that 
we will be faster than the EIS.
    Senator Murkowski. Thank you. That is not saying much, but 
I appreciate that.
    It just seems that we deal with multigenerational, many 
decades-long projects, and people grow old and retire and move 
on. We want to get this one resolved.
    Secretary Zinke. And, Madam Chairman, I understand that 20 
acres on a scale of Alaska is a rounding error somewhere.

                       ABANDONED WELL REMEDIATION

    Senator Murkowski. Yes. We have been dealing with another 
legacy project since basically the 1940s when the Federal 
Government came into Alaska and authorized private firms to 
explore for oil and gas inside the National Petroleum Reserve. 
Those operators walked away and failed to properly abandon and 
cap some 136 wells that were in that situation.
    The Government spent $96 million on plugging the legacy 
wells between 1982 and 2013. It got another $50 million for the 
cleanup work in 2014.
    Since I have been here in the Senate, this was one of my 
early priorities. I recognize that it is challenging to get to 
the remaining wells for cleanup. I understand that. But just 
because it is challenging does not mean that we do not advance 
it. And the way that we advance it is by putting sufficient 
resources into the budget to address the final cleanup.
    I need to know that you will continue to work with me to 
address the backlog on this cleanup. We need to have an annual 
update on how many wells are fully addressed, how many remain, 
and the average cost per well going forward. I need to know 
that we have that action plan, and, in addition to the action 
plan, that we have the resources that will allow for the 
completion of this very unfortunate legacy that was left by our 
Federal Government.
    We would never allow a private operator to get away with 
that, and we know that. We would fine them until they had 
nothing left. We need to rectify this.
    Secretary Zinke. As you know, 24 of the 50 wells have been 
addressed. The average cost of the wells is about $1.8 million. 
Having said that, the first wells were the easiest. In the 
omnibus, I think it had about $10 million in it. We think that 
will cover another four wells. But some of the wells that we 
are looking at in the future are going to be more expensive.
    We have a plan. Our remediation team has identified it. The 
sooner we get to it, the less cost it will be.
    Senator Murkowski. It is also coordinating with other 
projects that may be going on in the region. As you know, when 
you are sitting up there literally at the top of North America 
in an area where you do not have access to roads, mobbing up 
and mobilization for a project is extraordinarily expensive.
    Oftentimes, what we see is, you will put the equipment on 
the spring barge that comes in, in July. You do the work, and 
then you move it back down to the lower 48, and you have been 
able to facilitate a couple different projects.
    But knowing that somebody else, the Department of Defense, 
might be doing a cleanup, for instance, down by Point Lay where 
they have a mobbing operation that needs to be done shows 
inefficiencies in coordination between Interior and DoD. I do 
not think that we talk to one another like that, but it is 
something that I would like to sit down and explore with your 
team as we get that update.
    Secretary Zinke. I do talk to General Mattis, now Secretary 
Mattis, a lot, and we have a great relationship. I fought with 
him in Fallujah. He is a great general. We do share and 
collaborate on a lot of issues. This is probably one that we 
just need to bring into the fold.
    Senator Murkowski. Good, good.
    Senator Udall.
    Senator Udall. Thank you, Madam Chair.

                              SAGE GROUSE

    Mr. Secretary, I appreciate you want to improve resource 
stewardship by getting bureaus to focus on regional landscapes 
and to work across Federal, State, and local lines, but I would 
also point out that we have an example of where the bureaus 
were able to do that already, the regional sage-grouse plans at 
your Department, and your Department is now in the process of 
scrapping those.
    The Department is moving from regional sage-grouse plans 
developed with extensive stakeholder input to plans that allow 
each State Governor to decide whether oil and gas projects 
occur on Federal land.
    How can I reconcile your rhetoric about the importance of 
regional collaboration with the reality that the Department is 
choosing to implement State-based plans for sage-grouse when we 
all agree that conservation of the sage steppe is a regional 
issue?
    We all know that wildlife don't look at State lines. They 
look at the habitat in the area where they live.
    Secretary Zinke. Well, first of all, States do matter. The 
great State of New Mexico matters.
    Senator Udall. Well, they weren't doing it on the sage-
grouse until everybody got together and tackled that.
    Secretary Zinke. Every Governor but one asked for 
amendments on the one-size-fits-all plan, and had the 
reorganization been in place, likely it would have taken place 
on a regional basis. The States get a say. The Governors get a 
say. Every State but one asked for formal amendments. The State 
that did not, asked for changes, but no amendments. The one-
size-fits-all, I am convinced, is not the appropriate 
stewardship.
    Some States focus on the sage-grouse habitat. Some focus on 
removal of vegetation, on juniper trees, some on captive 
breeding.
    I think States' flexibility to address issues with their 
fish and wildlife professionals, is prudent policy.
    Senator Udall. Well, I think the reality is that, State 
flexibility, it ends up that we end up deteriorating the 
habitat for the sage-grouse.

                           HEADQUARTERS MOVE

    Moving on now, are you planning to move the BLM 
headquarters or a significant portion of the headquarters staff 
out of the Washington, DC, region during the fiscal year 2019 
or move any other bureau besides BLM? And if so, have you done 
a cost analysis of the additional costs that these moves would 
include, including staff relocation costs, as well as long-term 
travel and management costs?
    Secretary Zinke. We certainly have not made any decisions. 
We are evaluating our costs, what it would look like, 
consequences, unintended consequences.
    The three areas we are looking at are BLM, most of the 
Western States have a high percentage of BLM; Bureau of 
Reclamation, which is all on the West side; and, a long-shot 
possibility, Fish and Wildlife for those fish and wildlife 
issues on both coasts that are significant.
    We are looking at what that would be. I think, from a 
management point of view, when you have such States as Nevada, 
which over 80 percent of Nevada is BLM, certainly New Mexico 
has an enormous BLM holding, it is best to put people closer to 
where the issues of the day are.
    We have not made any decision. I cannot give you numbers, 
because we are still looking at what the consequence would be. 
When we do have the numbers, then there is no doubt I will be 
talking to this body.

                           SES REASSIGNMENTS

    Senator Udall. Okay. Mr. Secretary, I was very concerned by 
the decision to reassign a large number of Senior Executive 
Service members, as we discussed in our hearing last year. Have 
you fully implemented the inspector general's recommendations? 
And are they being followed with respect to any SES 
reassignments that are currently pending?
    Secretary Zinke. On the SESs, it is interesting. The last 
administration moved 140, including Olivia, who sits next to 
me. They used the same procedure that the IG had commented on 
but made no changes. The IG inspection comments, 
recommendations, were made in 2003.
    The last administration moved 140. I moved 27. But today, I 
am glad to report we have made every recommendation from 2003 
that now I know is in existence. Quite frankly, when we looked 
at--formed a board and moving it forward, we were using the 
same procedure as the last administration. I did not realize 
there were IG recommendations in 2003. We found it. I read it. 
We made the changes.
    Senator Udall. Great. More specifically, are individuals 
being reassigned? Are they notified in advance and consulted 
throughout the process? Are they provided a rationale for their 
move, based on clear criteria regarding how their reassignments 
benefit the agency?
    Secretary Zinke. Yes, we follow--our procedure in the 
future--and the board, in my knowledge, has not met yet. We 
follow every policy, procedure, regulation, transparency, by 
the letter of the law.

                   CHACO CANYON AND CARLSBAD CAVERNS

    Senator Udall. You and I have talked a lot about Chaco 
Canyon and the development there. We really appreciate the 
delaying of the lease sale around Chaco that was scheduled for 
March. There are still too many questions around resource 
protection for the 5,000-plus acre documented cultural sites in 
the San Juan Basin, and I am glad to hear that BLM and BIA are 
continuing to work together with the Park Service on a resource 
management plan amendment. And I urge you to consider a full 
suite of alternatives in this plan, including a no-action 
alternative.
    I also understand that the March lease sale will be on the 
block again in December, and I strongly urge you to not move 
ahead unless the plan amendment has been signed and there has 
been robust Tribal consultation and input from stakeholders.
    But I am also concerned about resource protection in the 
Permian Basin around Carlsbad Caverns National Park as well 
where you have scheduled a lease sale, I believe for September. 
I have heard that some of the potential parcels could impact 
the cavern systems or are located in other environmentally 
sensitive areas.
    I also understand that the Park Service has shared its 
concerns with BLM about the impacts to this cave and karst 
ecosystem from oil and gas drilling.
    Are you aware of these objections? Will you heed them and 
delay leasing around Carlsbad Caverns National Park until a 
full assessment can be done, as we have done around Chaco, to 
ensure that development will not jeopardize the national and 
natural treasure that Carlsbad is?
    Secretary Zinke. I have always agreed, there are some 
places that oil and gas production is fine, and other places 
that are too sensitive. The reason why we delayed others, if 
there is a legitimate reason based on science, on either 
cultural or scientific or impact, then we withdraw it. We are 
looking at it closely.
    Sometimes a park superintendent will relay a concern. We 
ask that that concern is based on science and studies. If it is 
gut feeling, then just say it is gut feeling, and we will 
investigate it and look at it.
    Usually, a person that is out in the field day-to-day has a 
better feeling about a local community because they live in the 
local community, about the environment because they live in the 
environment. I value the field's opinion oftentimes, or 
science, more than I would consider it from our lovely people 
we have here. But unless you live out there, it is a different 
story.

                              IZEMBEK ROAD

    Senator Udall. Mr. Secretary, you raised King Cove. Maybe 
Senator Murkowski is more up-to-date than I am on that, but 
could you provide the committee an update on the Izembek road? 
I think I sent you a letter last week on that.
    Secretary Zinke. My understanding is it is going through an 
EIS process, and it is on schedule. I will get back to you. I 
do not know specifics. I have not looked at it in a couple 
weeks. I did note that you have a letter, and I asked where we 
sit on it, but I think it is proceeding. They are just doing 
the EIS to get the actual permit for the road itself.
    Senator Udall. Thank you very much, Mr. Secretary.
    Senator Murkowski. Thank you, Senator, for that.
    Secretary Zinke. It could be an EA, rather than EIS, by the 
way.

                            POLYCHROME PASS

    Senator Murkowski. Tourist season is coming up and Denali 
National Park is one of our Nation's most visited parks, and we 
are very proud of that. Denali is, If you want to go to Denali, 
there is one road in and it is the same road out. It is a 
narrow, winding, long, gravel road, and it is in serious 
disrepair in certain parts because of mudslides and subsidence 
issues.
    I have been visited by folks that are very concerned about 
how we address the deferred maintenance within Denali, and more 
specific to Polychrome Pass, a very technically challenging 
component of the road. We are just engaging in cyclical 
maintenance by gravel backfill on an annual basis. I think 
everybody knows that we are going to have to invest probably 
significant dollars, probably hundreds of millions of dollars, 
to reconstruct or reroute.
    What is the long-term fix for Polychrome Pass? We have been 
kind of using the funding through this annual maintenance, and 
I have been told that by doing this, it might actually affect 
our eligibility to receive funds from larger sources like the 
line-item construction or DOT's park road money accounts.
    We want to keep this from being an accident just kind of 
waiting to happen here, and I am concerned about how we are 
going to address this going forward.
    Secretary Zinke. My understanding is the NPS started some 
geotechnical studies and examination, I think in 2016. I will 
see where that study is. I do not think it is completed on what 
the recommended courses of action are. I believe it will be 
challenging and expensive. I have never seen anything that is 
not challenging and expensive in Alaska.
    Senator Murkowski. Or big.
    Secretary Zinke. Or big. But I do not think it precludes 
eligibility in different programs on it.
    Senator Murkowski. Okay.
    Secretary Zinke. But right now, we are in the critical 
maintenance mode of making sure the road is passable. So that 
is what we are currently engaged in. A longer term fix, I will 
look where that study is done and make sure we have it timely.
    We may have to have some outside consultants with that, 
just because the geology is a little challenging.
    Senator Murkowski. Well, I know that there are a lot of 
folks that are looking at it. Just knowing that it is on your 
radar as well is very important.

                            5-YEAR OCS PLAN

    I mentioned the inclusion of the Arctic OCS in the new 5-
year plan. I noted that the Bureau of Ocean Energy Management 
(BOEM) is requesting additional funding and personnel resources 
in your fiscal year 2019 proposal for planning and 
implementation of the new program. It probably requires some 
extensive outreach. You have mentioned it to several of my 
colleagues here today, with respect to the broader plan, the 
consultation, and the coordination with stakeholders.
    One of the things that I would ask of you, A number of 
Alaskans have shared their desire for the Department to focus 
on good science, but consult frequently and require best 
management practices and stipulations for sensitive areas that 
are utilized for subsistence.
    I want to encourage those within BOEM to utilize the 
research partnerships that we have in place, such as the Alaska 
Coastal Marine Institute at the University of Alaska Fairbanks 
(UAF), and to collaborate and support the environmental science 
that is necessary going forward, and ensure that BOEM is 
prioritizing the environmental work that needs to be done prior 
to the lease sales.
    I just wanted to share that concern from Alaskans and make 
you know that we think that is a very important part of the 
prospective lease sales going forward.
    Secretary Zinke. There is no doubt that offshore oil and 
gas presents a greater risk than onshore. That is why we focus 
on a regulatory framework that incorporates innovation, best 
science, best practices, to increase reliability, safety, and 
environmental stewardship.
    But we are very aware that offshore oil and gas production 
can lead, if not done properly, to catastrophe, especially in 
coastal areas that rely on tourism and fishing, and off the 
coast of Maryland. These are important issues.
    So to do it right, again, is making sure that innovation--
the regulatory framework should not be punitive, nor should it 
be set up where industry innovation and best practices cannot 
be incorporated into it. And to some degree, it is working 
together with those that are in the industry to properly 
evaluate innovation. No one is more innovative than America as 
far as energy goes. We are magnificent.
    Sometimes our regulatory framework doesn't allow the 
innovation that does improve safety, reliability, and better 
environmental stewardship, and we have to be cognizant of that. 
Our BOEM people are the very best in the world. Nobody is 
better than BOEM at providing the framework in innovation.
    Senator Murkowski. Thank you.
    Let me defer to Senator Van Hollen, who has just come back 
in for a second round.
    Senator Van Hollen. Thank you. Thank you, Madam Chairman.
    And, Mr. Secretary, again, thank you for your earlier 
response. I have a couple follow-up questions, with respect to 
drilling.
    We talked about the Atlantic coast drilling, and the 
Chairman may have just asked about the safety questions. But I 
understand that there may be proposed changes that would scale 
back some of the safety provisions that were put in place after 
the Deepwater Horizon fiasco. Is that correct?
    Secretary Zinke. That is not correct.
    Senator Van Hollen. Okay.
    Secretary Zinke. Our regulatory framework, our goal is 
this: use innovation, best science, and best practices to 
increase reliability, safety, and environmental stewardship.
    Sometimes, as you know, a regulatory framework does not 
allow industry best practices, nor does it allow the 
incorporation of innovation.
    There are a lot of sensor devices that are on wellheads 
that far exceed the regulatory framework. In some cases, we 
need to catch up.
    And like you, I understand that offshore oil and gas is a 
greater risk. The industry understands that, too. Nobody wants 
a spill.
    Senator Van Hollen. All right.
    Secretary Zinke. So our framework does not skirt. We 
increase safety and reliability.
    Senator Van Hollen. I saw a recent report that, I guess in 
response to some of the concerns people have raised, there were 
some inspectors that were sent down to the gulf that did some 
spot inspections without notice and actually uncovered some 
very serious violations. Isn't that the case?
    Secretary Zinke. I am a former military officer. I think 
companies need to be held accountable, and I am absolutely in 
support of surprise inspections.
    Senator Van Hollen. Good. No, no, and I thought that was 
thing.
    Secretary Zinke. And you are right, and this is why you 
have them.
    Senator Van Hollen. I thought the findings underscored the 
importance of not scaling back the safety protections we have.

                       MIGRATORY BIRD TREATY ACT

    Let me ask you another question related to damages from oil 
spills, because I understand that changes that you have made or 
a reinterpretation of the Migratory Bird Act would mean that 
oil companies responsible for oil spills would no longer have 
to pay damages for massive loss of bird life under the 
Migratory Bird Treaty.
    That was the finding? Is that correct?
    Secretary Zinke. That is not correct.
    Senator Van Hollen. Okay, well, let me ask you this 
question. If there is an oil spill today and millions of birds 
are killed, would the perpetrator of the oil spill or the 
person who caused the oil spill be responsible for damages as 
they have in the past?
    Secretary Zinke. Absolutely. The change to the Migratory 
Bird Act had to do with accidental. What does that mean? 
Criminally, for an accidental, let's say an oil company is 
driving on a road in Montana and hits a bird on the windshield 
accidentally. Now, should that individual be held criminally 
liable to it?
    Senator Van Hollen. So, Mr. Secretary, I understand----
    Secretary Zinke. Our legal staff says that was not legal.
    Senator Van Hollen. Okay. Mr. Secretary, my understanding, 
and correct me if I am wrong, is there has been no case in the 
United States ever brought in that kind of situation.
    But here is my question. Obviously, the Deepwater Horizon 
disaster was an accident, was it not? Exxon Valdez was an----
    Secretary Zinke. If you are coming to the conclusion that 
the modification in the Migratory Bird Act would in any way 
affect the company being held responsible, there are multiple 
paths to keep a company responsible on migratory bird damages, 
and this in no way affects that.
    Senator Van Hollen. All right, because the distinction you 
drew just now in your example was between something that was 
accidental or intentional.
    Secretary Zinke. Criminal. Criminally negligent or 
accidental. There is a difference between willingly and 
knowingly, but to say accidental in an oil spill, that is 
damages. That is not what we are talking about.
    Senator Van Hollen. Okay. I just want to clarify that, 
because, obviously, the Deepwater Horizon was an accident.
    Secretary Zinke. I will give you the list of regulatory 
framework that will hold an oil company or any company liable 
for----
    Senator Van Hollen. Okay, that would be great, if we get a 
clarification, because I----
    Secretary Zinke. They are absolutely liable, and I agree 
they should be liable.

                    ARCTIC NATIONAL WILDLIFE REFUGE

    Senator Van Hollen. I appreciate that. And the last 
question I have, and maybe I will leave it for you to answer 
for the record, and I know the chair of this committee in a 
little different position on this issue than I am, in the 
Arctic National Wildlife Refuge. I would be interested in the 
scientific data that you believe needs to be collected, or the 
professionals at the Department of the Interior need to be 
collected in order to make a sound decision on that.
    There is a lot of concern that the process is going to be 
short-circuited, and it would be very helpful if you could get 
back to me in writing with the scientific information that you 
think needs to be gathered in order to make a sound judgment 
going forward.
    Secretary Zinke. I can assure you that we are going to 
follow NEPA by the letter of the law, skip no steps. There is 
no doubt that--I was sued six times the first day I was in the 
office. There is no doubt that I am going to get sued multiple 
times over any decision, especially oil and gas. But we are 
going to follow every regulation, policy, dot the i's, cross 
the t's. I will skip no steps in NEPA, because I think the 
American public deserves it.

                             GLEN ECHO PARK

    Senator Van Hollen. Thank you. And just circling back to my 
very first question, I appreciate your commitment to get your 
team together to resolve this Glen Echo Park issue. Hopefully, 
we will not have to be present, but I appreciate your 
commitment to be present, if that is necessary.
    Thank you.
    Secretary Zinke. If necessary, you and I will be at the 
meeting.
    Senator Van Hollen. Thank you.
    Secretary Zinke. And I hope the parties listen to us.
    Senator Van Hollen. Thank you. Thank you, Mr. Secretary.
    Thank you.
    Senator Murkowski. Thank you, Senator.

                               1002 AREA

    Mr. Secretary, following my colleague's comments about the 
process going forward within the 1002 area, I note that the 
public hearing and comment process has begun. The schedule was 
released yesterday with regard to the seven communities that 
BLM and their representatives will be in. You are out in Arctic 
Village, Utqiagvik, and Venetie, all areas that are in the 
region, not necessarily in the 1002, that are small, very 
remote communities.
    But everyone needs to be heard, and the effort to not just 
go to Anchorage and Fairbanks and Washington, DC to gain these 
important comments from the public is appreciated. I do 
appreciate that you are making the effort to go to the most 
remote and the smallest of these communities.
    As you prepare for this EIS, I think it is important. I 
think we all recognize that every i needs to be dotted and 
every t needs to be crossed. The process needs to be robust and 
thorough and fair and transparent. You have committed that to 
me and to Alaskans, and we look forward as that moves forward.
    A couple more questions, and I think both Senator Udall and 
I just have a couple more, and we will be able to wrap up. We 
have votes that start here in about 10 minutes.

                           EARTHQUAKE SENSORS

    With regard to our seismic array, we have earthquake 
monitors, as you well know. It is called the USArray. They are 
currently operated by the National Science Foundation (NSF). 
These are going to be decommissioned this year. We have been 
working with USGS and others on the cost of transferring these 
stations from NSF to USGS. We have put a million dollars in the 
omnibus, and we are working toward incorporating data from the 
USArray EarthScope, as well as $1.4 million toward the cost of 
purchasing the monitors.
    I am hoping that we are giving you enough resources to 
complete it. But I would ask if you know whether USGS has 
started a dialogue with NSF about the transfer and the 
purchase. Are we there yet? Are we going to be able to do this 
in time? It looks like Ms. Flanagan's body language indicates 
that we are getting there.
    If you do not have the information at this point in time, I 
understand. But it is something that we want to make sure 
everything kind of lines up, time-wise.
    Secretary Zinke. They are in dialogue. I think we are on 
track for it. Considering the importance of the project to have 
scientific data on seismic early warning----
    Senator Murkowski. In the most seismically active place in 
North America, we appreciate that.
    Secretary Zinke. The USGS has always been identified as a 
leading science body of the world. In some cases, our systems 
are antiquated. We have good people, but we need to advance our 
systems. Some of the buildings have been deteriorated.
    The infrastructure we talk about in our parks also extends 
into the infrastructure needs of our U.S. Geological Survey. 
They need the right tools, in many cases, and the right 
systems. Some of those systems are better sharing between 
government entities, and some of them are better sharing 
between public-private partnerships.
    So we are looking at that, too. Who has the best science, 
how to get it to the field the fastest, away from a 
bureaucratic labyrinth, and we are looking at how to achieve 
that.
    Senator Murkowski. If you think that we are not on track 
with this transfer and the purchase, if your folks can let us 
know, that would be greatly appreciated.

                           VOLCANO MONITORING

    When you speak about aging infrastructure, when it comes to 
volcanos, we have been working with you all. We understand that 
waivers may be necessary for analog monitors to stay in 
operation while the conversion within the system takes place. 
We have included report language in the omnibus bill. We 
included $12 million for the analog to digital conversion. We 
are hoping that the funding has been approved for the 
distribution, and that it is going to be sufficient to allow 
for all these stations to be updated.
    Secretary Zinke. I want to say yes. I think that control 
number either has been released or is soon to be released.
    Senator Murkowski. Okay.
    Secretary Zinke. But I can emphasize an example of why 
early warning is important. In Hawaii, everyone is focused on 
the surface, what they can see in the housing development. What 
they are really not focused on, there is a plume that continues 
to advance out to sea that, eventually, that cantilever is 
going to break. And when that huge volume of lava breaks, it is 
going to displace an enormous amount of water. The West Coast 
may be at risk.
    And so having early warning devices that would indicate 
that, I think, is an important--it is just public safety.
    Senator Murkowski. It is public safety. We have a volcano 
in Alaska. I just read the news yesterday, the day before, I 
think it is Mount Cleveland. It is on alert again. It is 
tourist season, so our volcanoes are showing off, Mother Nature 
at her finest. But being able to monitor is so important.

                                 PALAU

    My last question for you has nothing to do with Alaska. It 
has to do with Palau. I had an opportunity to travel to the 
Pacific islands a couple months ago. As you know, the Energy 
Committee has oversight of our territories here. Many of these 
Pacific islands share some of the same issues that we face in 
Alaska. So I told them I was going to monitor many of your 
issues and help advocate where I can.
    I was able to visit with the President of Palau when I was 
there and deliver the good news that, after 7 years, the 
omnibus finally made good on our commitment to fund the Palau 
Compact. That went on, unfortunately, for too long, because we 
did not move as quickly as I think we should have. That was 
noticed by our friends in Palau and elsewhere in the Pacific.
    I certainly hope that the Department is making an effort to 
do right by Palau. The issue that was raised with me by the 
President was you all said that this was going to happen, but 
when will we see the funding actually make it to Palau?
    The question for you this afternoon is, what is the current 
status of the Palau Compact and the situation with regard to 
the funding that was promised, pursuant to that compact?
    Secretary Zinke. A general comment, a lot of folks do not 
realize that Interior is in 12 time zones. We stretch from the 
Virgin Islands, which went through a hurricane, all the way to 
Palau, and you were out there.
    Palau, to us, on influence, when you have the Chinese that 
have casinos that are billions of dollars of cash flow every 
month, and China continues to expand its influence on the 
Western Pacific, and that influence is at the expense of the 
United States of America, and when our budget lines are small 
in comparison to a cash flow of a casino, there is a little 
frustration.
    Our commitment to our territories is to be as flexible as 
we can, to remove the administrative burden and understand that 
they are a little different, as Montana and Alaska are. 
Sometimes the one-size-fits-all doesn't really fit how life is 
conducted out in our territories.
    The more flexibility we can give them, I think the better 
to work with them, because, financially, we just cannot 
compete, as a Nation, when you have a cashflow of $4 billion a 
month on a casino.
    It is a concern to the Department of Defense, certainly, it 
is to me, as a concern it should be to our Nation, that we make 
sure we honor our treaty obligations and treat our territories 
with dignity, respect, and support.
    Senator Murkowski. I am sure they will be pleased to hear 
those final comments there. Because when we make that 
commitment that we will be there, when it appears that we have 
not kept that commitment or that we have delayed it, it does 
cause them to question that relationship that we have. And it 
does leave room for others to come in and wield influence, as 
we are certainly seeing with China.
    And it is not just Palau. The Freely Associated States, the 
Republic of the Marshall Islands and the Federated States of 
Micronesia, we have put in place financial assistance 
provisions in these amended compacts that were enacted back in 
2003. They are supposed to expire at the end of fiscal year 
2023, and there was concern that was raised about what happens 
when we come to the end of this 5-year period, and the 
discussion out there is about the views from the Department and 
the views from the administration regarding how we maintain 
U.S. influence in this region when the current aid agreements 
expires.
    I know that we tend to think that 5 years is a long way 
away, but when you are sitting out there and you realize that 
it doesn't feel like too many people back here are thinking 
about them, they worry about that timeline. So I put that on 
your radar screen as well.
    You note the reality of your jurisdiction, 12 time zones, 
moving from one ocean to another, and to that third ocean as 
well, the Arctic Ocean. Your responsibilities are significant 
and very diverse in many ways.
    I do not know if you care to comment on whether or not the 
administration has a view with our Freely Associated States and 
where we go after 2023.
    Secretary Zinke. We share your concerns. We are scheduled 
to have I think the first State visit to the area shortly. I 
think it is scheduled, I want to say in June, which will be 
good.
    Senator Murkowski. Good.
    Secretary Zinke. But I think they feel, to a degree, 
neglected when I go out there. I think probably they have been, 
in many areas. They are an important part of the United States, 
and their issues are our issues. Though I think Interior needs 
to step up the level of commitment.
    I look forward to going out with you and seeing it. It has 
been a long time for me to go out in the Western Pacific. So I 
think I am late in going back out.
    Senator Murkowski. I know they will welcome you.
    Senator Udall.
    Senator Udall. Thank you, Madam Chair.

                        OIL AND GAS LEASE SALES

    In January, BLM issued new guidance about how to conduct 
oil and gas lease sales. This guidance makes public 
participation optional, allows only 10 days for the public to 
protest a lease sale, and directs agencies to avoid doing any 
new environmental review, just to name a few things. This takes 
away flexibility from the field staff to use their best 
judgment about where, when, and how to lease parcels.
    I understand, under this new process, decisions on removing 
parcels from lease sales must now be made by the Deputy 
Secretary, not the local, field, or State director, as has been 
previously the case.
    All of this is in contrast to the previous memorandum, 
which encouraged BLM to solicit robust public input before 
leasing and provide ample time for public review. These public 
engagement opportunities are essential for leasing to be 
successful and for the Government not to end up in a cycle of 
lease sale delays and litigation.
    Secretary Zinke, why has your administration taken these 
steps to limit the public process for oil and gas leasing? 
Doesn't the public have a right to comment on the development 
of their public lands? Will you commit to allowing for broader 
public comment and returning to a minimum of 30 days of public 
comment, or draft lease sales, or 30 days to lodge protests?
    Secretary Zinke. I will work with you on this issue, 
because I think the public does have say and a voice. It is 
their land, after all. So public land deserves----
    Senator Udall. That is our point here.
    Secretary Zinke. Yes, I will work with you on it. The State 
managers and the State BLM directors have an enormous amount of 
say, and some of it was consistency. Some of it was, quite 
frankly, we were behind 300, 400, 500 days sometimes in 
workload to get a permit out. And this body has been critical 
of that. So we are trying to be more efficient.
    But I agree with you that the public has a say and should.
    Senator Udall. Yes. Thank you.

                               BEARS EARS

    You have testified that oil and gas resources are not 
available in the Bears Ears area and that there is no active 
request to mine uranium there. However, your own Department 
produced documents during their review showing that there was 
potential for energy and mineral development. These include 
USGS maps indicating a high potential for oil and gas 
occurrence within the monument's boundaries. And Energy Fuels 
Resources, the owner of a uranium processing facility adjacent 
to the monument, also sent you a letter on May 25, 2017, asking 
to reduce the boundaries specifically because there are uranium 
and vanadium deposits located within the monument.
    How do you reconcile your previous statements with your own 
agency's records? And if you did not review those materials 
created by your own Department, what did you use to reach your 
recommendations for the President?
    Secretary Zinke. Let me make it clear on Bears Ears. There 
are little, if any, oil and gas resources within the boundaries 
of Bears Ears. Oil and gas leasing activity was never part of 
the discussion.
    In Bears Ears, after the revised boundary, after I restored 
400,000 acres of wilderness back to wilderness--and you and I 
both love wilderness--after I restored a national forest back 
to national forest, the revised boundaries are still larger 
than Bryce Canyon and Zion combined. The real action was 
opening up public land for public access and stop road 
closures, and making sure hunting and fishing can be enjoyed by 
everybody. That was the real action taken. There wasn't one 
square inch of land that was removed from Federal protection.
    But I do listen to States, as said earlier. And when every 
Member of the Utah delegation, both in the House and the 
Senate, and the Governor, and the State legislature, all 
probably wanted it to be rescinded, it was the decision and 
recommendation to me that the borders be revised to protect the 
assets that are in there, the antiquities, which are absolutely 
true.
    In New Mexico, you and I went out there, and what made a 
difference is the good people in New Mexico, the preponderance 
were for it, even though some of the, perhaps, objects to 
protect antiquity maybe were a little bit of a stretch. As you 
know, the World War II bombing crater that you couldn't see 
except by Google Earth, that was told to me, in a straight 
face, it looks like a World War II battleship. I thought it 
looked like Jesus. But even that, I said, at the end the day, 
the good citizens of New Mexico, both the State Senators, most 
of the Representatives, and your Governor were all comfortable 
with it. So there lies the decision.
    Senator Udall. Yes, and we really appreciate what you did 
in New Mexico.
    A vote has been called. As the chairwoman knows, we are 
right in the middle of it now, and you know the urgency of 
that. Thank you very much for your service, and we look forward 
to following up with the questions to you. I hope you will give 
us some prompt answers.
    Secretary Zinke. I will.
    Senator Udall. Thank you very much.
    Senator Murkowski. Thank you, Senator Udall.

                     ADDITIONAL COMMITTEE QUESTIONS

    Secretary, thank you. As has been noted, I am sure that 
other Members will have questions that they would like 
submitted for the record. We will keep it open for a week.
    And your prompt replies, of course, are always appreciated.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                 Questions Submitted to Hon. Ryan Zinke
             Questions Submitted by Senator Lisa Murkowski
    Question 1. During your time in Alaska you were able to see the 
North Slope and the part of Alaska that makes the United States an 
Arctic nation. Can you please describe what is included in your budget 
request that is specific to Arctic-related activity, or how you view 
the Department's mission and activities in the Arctic?

    Answer. More than 20 percent of all land that the Department of the 
Interior manages is located in the Arctic, a vast area that amounts to 
62 percent of the U.S. Arctic. The Department's responsibilities in the 
Arctic include managing responsible on- and off-shore oil, gas and 
mineral development, managing natural and cultural resources for the 
benefit of future generations, and upholding Federal trust 
responsibilities to Alaska natives, among others.
    The 2019 budget request for the Department features targeted 
investments to further the Administration's America First national 
energy goals. At the same time, this budget reflects the President's 
commitment to fiscal responsibility. The budget request includes $111.7 
million for the Department's activities in the Arctic, including an 
increase of $9.5 million to establish a competitive leasing program in 
the 1002 Area of the Alaska North Slope, as required by the recently 
enacted Tax Cuts and Jobs Act, and bolster the Bureau of Land 
Management's (BLM) capacity for permitting activities in the National 
Petroleum Reserve-Alaska (NPR-A).
    In the last year, the Department has advanced Arctic energy 
production, as required by Secretarial Order 3352, by improving 
permitting activities in the NPR-A and initiating new resource 
assessments for areas of the North Slope, including the 1002 area. The 
BLM is processing the drilling permit application to enable production 
at Greater Mosses Tooth 2 and currently analyzing public comments for 
the project's proposed Draft Supplemental Environmental Impact 
Statement.
    The Bureau of Ocean Energy Management published the Draft Proposed 
Program for the Outer Continental Shelf 2019-2024 Leasing Program in 
January of this year, which includes three lease sales each in the 
Chukchi and Beaufort Seas to enable development of estimated 
Undiscovered Technically Recoverable Resources of more than 20 million 
barrels of oil and 100 trillion cubic feet of natural gas.
    The BLM recently awarded a task order to plug and abandon five more 
wells using funds authorized by the Helium Stewardship Act of 2013. 
Surface work began in the summer of 2017 and subsurface work will be in 
the winter of 2018-2019.
    Recognizing the importance of the Department's trust 
responsibilities, the President nominated the first Alaska Native to 
any Senate confirmed position by selecting Inupiat Tara Sweeney to 
serve as Assistant Secretary of the Interior Department for Indian 
Affairs. A prominent Alaska Native leader and acclaimed businesswoman 
with the Arctic Slope Regional Corporation, Ms. Sweeney's confirmation 
will enhance the quality of life, promote economic opportunity and 
provide quality educational opportunities for American Indians, Indian 
Tribes and Alaska Natives, while protecting and improving their trust 
assets.

    Question 2. I'd like to shift gears a bit and talk about BLM's Wild 
Horse and Burro Program. As we have discussed many times, growing herds 
and drought in much of the west is causing the condition of the wild 
horses to deteriorate, native wildlife and endangered species to be 
impacted, and the rangelands to be on the verge of collapse. Simply 
put, the status quo on the range is not ecologically sustainable nor 
humane. I appreciate the report you submitted to us outlining options 
to get the program on a sustainable path forward, which clearly lays 
out the management tools and what they mean in terms of the timeframe 
for reaching appropriate management levels and cost of the program. Can 
you discuss the potential consequences of inaction on this issue given 
the herd numbers and rangeland conditions this year from the 
perspective of both the impact to the horses and public land resources?

    Answer. As of March 2018, the BLM estimated that public lands were 
home to nearly 82,000 wild horses and burros (WHBs), more than three 
times the national Appropriate Management Level. If nothing is done to 
limit population growth, public rangelands will continue to be 
degraded, and WHBs will continue to stray onto other public and private 
lands searching for forage and/or water.
    The current overpopulation of WHBs on the arid rangelands of the 
West is impacting the health of western rangelands and the quality and 
quantity of forage and water available for domestic and wildlife 
species, as well as Federal and State threatened, endangered, and 
sensitive species. These negative impacts, including to WHBs 
themselves, will grow more severe across even larger swaths of the 
western public rangelands if populations continue to expand.
    Expanded populations of wild horses increase the likelihood that 
productive perennial grasses will be converted to low-value exotic 
annual grasses. This conversion is already occurring in certain areas 
and is impacting permitted livestock grazing and increasing the risk of 
wildfires. Furthermore, wild horses outcompete native ungulates for 
forage and water, and trample stream banks to mud, which may deter 
hunters, anglers, and native wildlife enthusiasts from visiting public 
lands. Overpopulated WHB herds are increasing the frequency and number 
of vehicle/animal collisions, which is a serious safety hazard.
    WHB populations cannot be controlled at sustainable levels by 
predators, weather, or other factors. When over populated, WHB can 
graze and trample shrubs and grasses to bare ground. WHB overgrazing 
can also severely damage clean water, sagebrush ecosystem quality, and 
increase erosion. Every biological population has a specific carrying 
capacity that represents the maximum population size that can be 
supported in a particular area without destroying the habitat or 
becoming ``self-limiting'', in which animals begin to succumb from lack 
of food or water. WHB populations in many areas may have already 
reached that carrying capacity and if population continues unchecked, 
western landscapes will become unrecognizably damaged.

    Question 3. I have previously expressed a concern about mitigation 
requirements that are unreasonable.

          3a. Can you share with me your plans for developing a policy 
        for true mitigation that can help shorten permitting times and 
        increase conservation results on the ground?

    Answer. Executive Order 13783--``Promoting Energy Independence and 
Economic Growth'' (March 28, 2017) rescinded the Presidential 
Memorandum on Mitigating Impacts on Natural Resources from Development 
and Encouraging Related Private Investment (November 3, 2015). The 
Secretary of the Interior subsequently issued Order 3349 on American 
Energy Independence (March 29, 2017), which directed Department of the 
Interior (DOI) bureaus to reexamine mitigation policies and practices 
to better balance conservation strategies and policies with job 
creation for American families. Pursuant to Secretarial Order 3349, the 
U.S. Fish and Wildlife Service (FWS) published a notice in the Federal 
Register (FR) on November 6, 2017 (82 FR 51382) requesting additional 
public comments on the FWS' 2016 mitigation policies. In addition, in 
carrying out Executive Order 13777, ``Enforcing the Regulatory Reform 
Agenda,'' DOI published a document entitled ``Regulatory Reform'' in 
the FR of June 22, 2017 (82 FR 28429), which requested public comment 
on how DOI can improve implementation of regulatory reform initiatives 
and policies and identify regulations for repeal, replacement, or 
modification. The FWS is currently considering revisions to its 
mitigation policies, in light of the comments received and the 
Administration's priorities.

          3b. I am pleased that the FWS has for some years been 
        certifying mitigation banks because this brings to light the 
        real issues on a level playing field: what conservation results 
        are good enough for the species, and are these results 
        affordable by the private sector. But not all of these banks 
        are considered as positive factors during listing decisions. In 
        the pending listing decision for the lesser prairie chicken, 
        there are certified banks holding a significant area of the 
        most important habitat but are not ``counted'' toward the good 
        that might preclude the need to list. What must be done to 
        count all helpful conservation in the listing decision?

    Answer. The Endangered Species Act requires the FWS to make 
decisions based on the best scientific and commercial data available, 
which includes taking into account all conservation efforts being made 
to protect a species. In determining whether a species meets the 
definition of an endangered species or a threatened species, the FWS 
must evaluate all identified threats by considering the effects of the 
threats and the expected response by the species in light of any 
actions that could ameliorate the threats, including offsetting habitat 
loss through conservation banks or other mitigation. Conservation 
efforts that have a known track record of implementation and 
effectiveness are considered in the status assessment as to the 
contribution of each effort and how they ameliorate threats to the 
species. In contrast, for conservation efforts that have not yet been 
implemented or have not yet demonstrated effectiveness, the FWS' 2003 
Policy for Evaluation of Conservation Efforts When Making Listing 
Decisions (PECE) identifies criteria that the FWS will use in 
determining whether formalized conservation efforts that have yet to be 
implemented or to show effectiveness may be relied upon in the species' 
status determination. The criteria identified in PECE are used to 
evaluate whether we have sufficient certainty in such formalized 
conservation to inform our listing determination. Once we determine 
that a conservation effort is sufficiently certain to be implemented 
and effective, we assess the degree to which it improves the status of 
the species when drawing our overall conclusion as to whether a species 
warrants listing or not.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question 1. I understand that the BLM analyzed the impacts of the 
changes the Department is proposing to the 2016 Methane Waste 
Prevention Rule.

          1a. What were the results of that analysis related to the 
        amount of reduced natural gas production, the increase in 
        methane emissions, the increase in wasted natural gas and 
        pollution, and their associated financial costs?

    Answer. Impact on production.--The proposed rule would reverse the 
estimated incremental changes in crude oil and natural gas production 
associated with the 2016 rule. Over a 10 year evaluation period (2019-
2028), the BLM estimates that 18.4 million barrels of crude oil and 
22.7 billion cubic feet (Bcf) of natural gas will be produced and sold 
(which would have been deferred under the 2016 rule). However, it is 
estimated that with the proposed rule, there will be 299 Bcf of forgone 
natural gas production (that would have been produced and sold under 
the 2016 rule). For context, the per-year averages of these estimated 
volumes represent a small fraction of a percent of the total U.S. crude 
oil and natural gas production in 2015.
    Impact on methane emissions.--The proposed rule would result in 
forgone methane emissions reductions from the baseline of an estimated 
175,000--180,000 tons per year. Over the 10 year evaluation period 
(2019-2028), the forgone methane emissions reductions are estimated to 
be 1.78 million tons.
    Impact on pollutants.--The proposed rule would result in forgone 
Volatile Organic Compound (VOC) emissions reductions of an estimated 
250,000--267,000 tons per year. Over the 10 year evaluation period 
(2019-2028), the total forgone VOC emissions reductions are estimated 
to be 2.59 million tons.

          1b. The 2016 rule was initiated to address GAO 
        recommendations to modernize BLM's outdated requirements to 
        reduce the waste of gas production and loss of revenue due the 
        American public. How does the revised rule address the issues 
        identified by GAO to limit waste of the resource and the 
        resulting loss of revenue?

    Answer. The BLM described in the preamble to the proposed rule that 
the regulatory landscape has changed. The EPA has finalized regulations 
(40 CFR, Part 60, Subpart OOOO and Subpart OOOOa) which address losses 
of natural gas from many of the sources covered by the 2016 rule. The 
BLM reviewed the statutory and regulatory restrictions on venting and 
flaring from oil and gas wells in 10 States with the most significant 
Federal oil and gas production. The BLM notes these top producing 
States (New Mexico, Wyoming, Colorado, North Dakota, Utah, California, 
Montana, Texas, Alaska, and Oklahoma) have instituted regulations 
addressing methane emissions, and the industry has undertaken voluntary 
efforts to reduce methane emissions.

          1c. How will BLM monitor voluntary efforts by industry to 
        reduce flaring, venting, and leaking of natural gas?

    Answer. The BLM's proposed rule does not contain provisions to 
specifically monitor industry's voluntary efforts to reduce the venting 
and flaring of natural gas. However, the BLM will monitor venting and 
flaring as part of normal inspection and enforcement activities. 
Furthermore, operators will be required to report all volumes of lost 
gas under applicable Office of Natural Resources Revenue (ONRR) 
reporting requirements.

          1d. How much revenue will be lost by removing the 
        requirements of the 2016 rule? Please specify a total amount, 
        as well as a breakout for States, Tribes, and the Federal 
        Treasury.

    Answer. The proposed rule is expected to result in forgone royalty 
payments to the Federal Government, tribal governments, and States. 
Over the 10 year evaluation period (2019-2028), total forgone royalty 
payments of $26.4 million (NPV using a 7 percent discount rate) or 
$32.7 million (NPV using a 3 percent discount rate) are estimated.
    The requested breakout is as follows:


               FOREGONE ROYALTY OVER 10 YEARS (2019-2028)
                          [Dollars in millions]
------------------------------------------------------------------------
                                    NPV using a 7        NPV using a 3
                                   percent discount    percent discount
                                         rate                rate
------------------------------------------------------------------------
Federal Government.............  $11.2                $13.9
Tribes.........................   $4.0                 $4.9
State governments..............  $11.2                $13.9
------------------------------------------------------------------------


          1e. The 2016 rule went through a significant public process, 
        with listening sessions across the country, meetings with 
        industry, conservation groups, taxpayer advocates, and Tribes, 
        and a public comment period. Why is the Department not 
        following a similar open and public process for the revised 
        rule being proposed?

    Answer. The BLM's proposed rule was published in the Federal 
Register on February 22, 2018, and was open to public comment for 60 
days. During that time, it generated over 600,000 comments from 
individuals, environmental groups, industry, States, and Tribes. In 
addition, the BLM notes that it is engaged in ongoing efforts to 
consult with interested Tribes regarding the proposal revision of the 
2016 rule.

          1f. The Navajo Nation sent a letter to the Department on 
        April 18, 2018, asking for a forum in which the Navajo people 
        can voice their opinions on changes to the rule and that you 
        engage in formal Tribal consultation. I understand that the 
        public comment period ended on April 23, 2018, but there is no 
        legal reason why a public meeting can't occur after public 
        comment has ended. Will you hold public meetings in the Navajo 
        Nation and elsewhere, and engage in the appropriate tribal 
        consultation before moving ahead with changes to the rule?

    Answer. The BLM is committed to engaging in meaningful Tribal 
Consultation. Through a letter dated November 21, 2017, the BLM 
notified 428 Tribal leaders and representatives of its intent to 
propose a rule to revise the 2016 rule. In the letter, the BLM offered 
to participate in an in-person consultation or to accept for 
consideration written comments, at the recipient's convenience. These 
letters were sent 3 months before the BLM published the proposed rule 
in the Federal Register. The BLM received letters from several Tribes 
(including the Navajo Nation). The letters included comments on the 
proposal and, in some cases, requested consultation. The BLM notes that 
these consultations are ongoing and extend beyond the 60-day comment 
period afforded to the general public. The BLM is currently reaching 
out to the Navajo Nation and the other Tribes that requested 
consultation.

    Question 2. Both the fiscal year 2018 and fiscal year 2019 
President's budgets have proposed eliminating the U.S. Geological 
Survey's Geomagnetism Program in order to ``address higher 
priorities.'' Why is the monitoring of geomagnetic storms, with their 
potential impact on the electrical power grid, not a priority for the 
Department? How can Congress and the Department best assure long-term 
stability for this program? In which general regions of the country 
should the magnetometer network be expanded and how many additional 
stations would be needed at what cost?

    Answer. The USGS Geomagnetism Program is not well aligned with the 
USGS mission. The program primarily serves the missions of the 
operational space weather agencies, NOAA (the Space Weather Prediction 
Center of the National Weather Service) and the Air Force (557th 
Weather Wing). While the real-time magnetic field data produced by USGS 
magnetic observatories are critical for accurate alerting of 
geomagnetic storms, the budget focuses on the core mission activities 
and legislative mandates of the USGS.
    The regions that would benefit most from increased coverage are the 
upper Midwest and Northeast, where models indicate that 
geomagnetically-induced currents and corresponding risk are expected to 
be high. As noted in the Federal Space Weather Action Plan, a few 
additional stations would significantly increase the accuracy of 
forecasts and alerts. Outside of the contiguous United States, space 
weather forecasts would be improved with observatories on U.S. 
territories in the Western Pacific (e.g., Midway Island) and in 
Antarctica.

    Question 3. The Department continues to make changes to the 
proposed new regional boundaries and has not yet offered specific 
detail on what the other organizational changes associated with the 
reorganization will be.
          3a. What is the Department's schedule for finalizing a 
        proposal and briefing the subcommittee on the details of the 
        proposal including, but limited to, (1) a final set of 
        boundaries; (2) a proposed organizational chart, (3) a proposed 
        implementation timeline, including actions expected in future 
        fiscal years; (4) a cost-benefit analysis of the proposed 
        changes; (5) and legal analysis of your authorities to 
        undertake the reorganization generally and make the proposed 
        changes specifically?

    Answer. Department leadership intends to continue to work with 
Interior staff, Congress, governors, and stakeholders to develop a 
fulsome plan for the new organizational structure. The relocation of 
bureaus will occur in the future, only after such input has been 
received and after Congress approves any necessary reprogramming 
request. Each bureau is currently organized with its own chain of 
command which will not change with the adoption of common regions.
    It is expected that communications efforts related to such a 
reorganization would be sustained over a period of years while the 
realignment of regions takes effect. While a cost-benefit analysis has 
not been conducted at this early stage, organizing the Department's 
bureaus within common geographic areas will allow for more integrated 
and better coordinated decisionmaking across bureaus and help 
streamline operations.

          3b. Please provide, as requested during the hearing, a 
        complete list of the Department's expected tribal consultation 
        sessions regarding the reorganization, including dates, 
        locations, and participating Tribes.

    Answer. As Principal Deputy Assistant Secretary--Indian Affairs 
John Tahsuda indicated in his May 5, 2018, letter to Tribal Leaders, 
this consultation began with a listening session, held on June 3, 2018, 
at the National Congress of American Indians Mid-Year conference in 
Kansas City, Missouri. Formal consultation sessions have been scheduled 
for the following dates and locations:


----------------------------------------------------------------------------------------------------------------
              Date                         Time                    Location                     Venue
----------------------------------------------------------------------------------------------------------------
Tuesday, June 19...............  9:00 a.m.-1:00 p.m.....  New Buffalo, MI..........  Four Winds-New Buffalo
                                                                                      Casino, 11111 Wilson Road,
                                                                                      New Buffalo, MI 49117
Thursday, June 21..............  9:00 a.m.-1:00 p.m.....  Billings, MT.............  Bureau of Indian Affairs
                                                                                      Rocky Mountain Regional
                                                                                      Office, 2021 4th Avenue,
                                                                                      North Billings, MT 59101
Monday, June 25................  9:00 a.m.-1:00 p.m.....  Albuquerque, New Mexico..  National Indian Programs
                                                                                      Training Center, 1011
                                                                                      Indian School Road, NW,
                                                                                      Albuquerque, NM 87104
Thursday, June 28..............  9:00 a.m.-1:00 p.m.....  Jackson, California......  Jackson Rancheria Casino
                                                                                      Resort, 12222 New York
                                                                                      Ranch Rd., Jackson, CA
                                                                                      95642
Tuesday, July 24...............  9:00 a.m.-1:00 p.m.....  Cabazon, California......  Morongo Casino Resort and
                                                                                      Spa, 49500 Seminole Dr.,
                                                                                      Cabazon, CA 92230
Thursday, August 2.............  9:00 a.m.-1:00 p.m.....  Juneau, Alaska...........  Elizabeth Peratrovich Hall,
                                                                                      320 W. Willoughby Avenue,
                                                                                      Juneau, AK 99801
Tuesday, August 7..............  9:00 a.m.-1:00 p.m.....  Oklahoma City............  Embassy Suites Oklahoma
                                                                                      City, 1815 South Meridian,
                                                                                      Oklahoma City, OK 73108
Thursday, August 9.............  1:00p.m.-4:00 p.m......  Choctaw, MS..............  Pearl River Resort, Golden
                                                                                      Moon Hotel & Casino, Hwy
                                                                                      16W, Choctaw, MS 39350
----------------------------------------------------------------------------------------------------------------

    Additional updated information on these sessions can be found at: 
https://www.bia.gov/as-ia/raca/doi-reorganization

          3c. Is there a plan to solicit public comment on a 
        reorganization proposal? If not, why not?

    Answer. As indicated in a previous response, our intention is to 
continue to work with Department staff, Congress, governors, and 
stakeholders to develop a fulsome plan for the new organizational 
structure. Any bureau relocation will occur in the future, only after 
such input has been received and after Congress approves any necessary 
reprogramming request. The Department will adhere to the preferences 
expressed by Tribes. Department employees have also been encouraged to 
email any ideas on this topic, and a web portal has been established to 
make available several options for providing feedback on the 
reorganization.

          3d. During the hearing, we talked about the fact that 
        coordination on issues is often challenging because bureaus 
        have to reconcile different statutory missions. How does this 
        reorganization fix that problem? How does the proposed 
        reorganization take into account the different legal 
        authorities and mandates given to separate Interior bureaus?

    Answer. We believe that organizing the Department's bureaus within 
common geographic areas will allow for more integrated and better 
coordinated decisionmaking across bureaus and help streamline 
operations. Bureaus within a region will also be focusing on common 
issues, geographies, and landscapes, and thus taking a comprehensive 
approach instead of a bureau-centric approach.
    Moreover, moving decisionmaking authority to the regions and away 
from Washington, DC, will allow managers in the field to make better-
informed decisions than those made in headquarters, often thousands of 
miles away, and to implement more responsive decisionmaking regarding 
the needs of State and local governments and stakeholders. This 
responsiveness will also be enhanced by the creation of an Interior 
Regional Director position, which will serve as an arbitrator, 
facilitating coordination among bureaus in a region and allowing for a 
more integrated and better coordinated decisionmaking process.

          3e. How will proposed changes streamline interaction with the 
        non-Interior agencies like the Army Corps, NOAA, and Forest 
        Service, that you've highlighted on the complexity of Federal 
        decisionmaking? Are you engaging these other agencies and 
        soliciting their input as part of the reorganization planning 
        effort?

    Answer. We believe that the same benefits of more integrated and 
better coordinated decisionmaking will result from this reorganization. 
We will also invite other agencies to co-locate with us or designate 
liaison officers to each of our common regions.

          3f. What are you specifically proposing to spend the $17.5 
        million in your budget request for the reorganization on--
        especially since the plans don't seem final? Are there specific 
        FTE actions, including relocations, assumed as part of this 
        budget proposal?

    Answer. The funding request included in the fiscal year 2019 DOI 
budget involves a separate initiative to relocate one or more Bureau 
headquarters in the west nearer to the DOI lands being managed. At this 
time, there is no specific proposal for which we would seek 
Congressional direction. We anticipate the development of specific 
plans during fiscal year 2019.

          3g. How is DOI determining the total costs of the proposed 
        reorganization? Does the plan factor in short- and long-term 
        expenses from relocation costs and other personnel-related 
        actions?

    Answer. We have not, at this early stage, conducted a cost-benefit 
analysis, as we think there is little cost associated with changing 
lines on a map.

          3h. Does the Department expect to implement any Reduction-in-
        Force action to implement any part of the reorganization 
        proposal?

    Answer. We have no plans to implement a Reduction in Force related 
to this reorganization.

          3i. What kind of cost-benefit analysis is the Department 
        performing on the proposal?

    Answer. As indicated in response to an earlier question, we have 
not, at this early stage, conducted a cost-benefit analysis, as we 
think there is little cost associated with changing lines on a map.

          3j. New Mexico's BLM State Office oversees four States--New 
        Mexico, Kansas, Texas and Oklahoma--that face similar land 
        management issues, including oil and gas development. Yet under 
        your most recent proposed map, New Mexico will be in one 
        region, while the other States are in other regions. How will 
        issues that span the boundary between these four States be 
        addressed by your proposal? And why is this new structure more 
        efficient and effective than the status quo?

    Answer. For those projects, agreements, or plans that are split 
between two or more regions, the region that is designated the lead 
region will be the one whose staff and expertise is best positioned to 
bring the activity to a successful completion. The goal is to have more 
integrated, responsive, and better coordinated decisionmaking.

          3k. There Department has more than 4,000 FTE in New Mexico, 
        including hundreds of employees located at the FWS and BIA 
        regional offices in Albuquerque. Does your proposal include any 
        plans--on a short- or long-term basis--to relocate any of those 
        positions out of State?

    Answer. Although the objective is to relocate staff resources 
closer to Interior's stakeholders in the West from the D.C. area, we do 
not have specific relocation plans at this early stage.

          3l. What concerns are you hearing from your employees--and 
        how are you addressing them?

    Answer. In January 2017 we conducted a 2 day workshop involving 
career SES Regional Directors from all of our bureaus, as well as a 
number of their colleagues from bureau headquarters. During this 
workshop event we engaged in a conversation about how to best structure 
and pursue the adoption of common regions. Many of the suggestions 
coming out of that event were incorporated into the draft map of our 
proposed Department level regions. In addition, the Secretary, in his 
visits to DOI field installations around the country, routinely talks 
to employees about our reorganization proposals. Department employees 
have also been encouraged to email any ideas on this topic, and a web 
portal has been established to make available several options for 
providing feedback on the reorganization.

    Question 4a. Please provide a detailed list of agency actions 
developed in response to each of the four recommendations issued by the 
Office of the Inspector General on April 10, 2018, regarding Senior 
Executive Service reassignments. Those recommendations are as follows:

          4a1. Document a plan for reassigning senior executives to 
        ensure accountability for transparent, economical, and 
        efficient Government.

    Answer. The Department implemented Senior Executive Service (SES) 
reassignment best practices on April 30, 2018. These included (1) 
establishing a written record for the SES reassignment before the ERB's 
notice to the SES employee incorporating the reasons for the 
reassignment within the notice of the reassignment; (2) communicating 
the reassignment with the SES employee in a respectful manner; (3) 
reaching outside of Interior to broaden the executive bench; and (4) 
building upon plans to increase the number of SES members who are 
rotating to improve talent development, mission delivery and 
collaboration in a strategic manner.

          4a2. Communicate with all affected senior executives and 
        supervisors before issuing notifications of reassignment to 
        maintain a transparent reassignment process and to gather the 
        information needed to make informed decisions.

    Answer. One of the best practices includes communicating the 
reassignment with the SES employee in a respectful manner. 
Specifically, it is expected the bureau/office leadership would 
personally contact and consult with the impacted SES member to discuss 
and provide the business reason for the reassignment, as well as allow 
an opportunity for the SES members to express personal issues, 
preferences and alternatives, if appropriate.

          4a3. Estimate and plan for all costs associated with 
        geographic moves.

    Answer. The Department of the Interior established a reassignment 
checklist, which outlines documentation that needs to be provided and 
criteria that needs to be addressed to the Executive Resources Board 
when a reassignment is requested. One of the criteria is if the 
reassignment involves a geographic move, the bureaus' request must 
acknowledge the bureau/office has planned for the cost of the move and 
has available funds.

          4a4. Implement the guidance outlined in the OPM's September 
        9, 2009 memorandum for establishing an ERB, to include 
        developing a formal charter detailing the roles and 
        responsibilities of all members; including a mix of political, 
        nonpolitical, career, and noncareer members; and requiring 
        appropriate documentation.

    Answer. The Department of the Interior's Executive Resources Board 
established a charter effective April 27, 2018. The charter outlines 
roles and responsibilities of all members and outlines standards for 
documentation of the meetings and retention of records.

    Question 4b. Please provide copies of any agency documents 
developed to govern the Executive Resources Board process specifically 
or the SES reassignment process generally, including any directives 
related to records documentation.

    Answer. All the documents referenced in this response are included: 
(1) a copy of the memo ``Senior Executive Service Reassignment Best 
Practices'' dated April 30, 2018; (2) a copy of the SES Reassignment 
Checklist; and (3) a copy of the Executive Resources Board Charter.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 4c. What objective criteria is the agency using to decide 
future SES reassignment decisions--and how is agency leadership 
ensuring that SES reassignments are being made to leverage the skills 
of senior employees for the benefit of the agency and provide important 
leadership and professional development opportunities?

    Answer. As outlined in the memo ``Senior Executive Service 
Reassignment Best Practices'' dated April 30, 2018, reassignments are 
to be based on legitimate management reasons. Requests for 
reassignments and reassignment notifications to the SES members are to 
include reasons why they are needed in and/or would be a good fit for 
the positions into which they are to be reassigned.

    Question 4d. What are the total financial costs to the agency, 
including relocation costs, associated with the 27 SES reassignments 
covered by the Inspector General's report?

    Answer. Of the 27 SES reassignments covered in the Inspector 
General's report, only a small portion actually involved geographic 
relocations. Transferred Federal employees may receive entitlements 
such as enroute per diem and transportation for the employee and 
family, miscellaneous moving expenses related to ending and beginning 
residence at an old and new duty station, residence transactions 
(closing costs) related to the sale or purchase of a residence to 
include lease termination costs, and household goods shipment and 
regular storage. Transferred employees may also receive discretionary 
expenses such as a house hunting trip, temporary quarters subsistence 
expenses, shipment of a personally owned vehicle, use of a relocation 
services company, and home marketing incentive payments. Transferring 
employees cost on average about $90,000 to $100,000 to geographically 
relocate, but expenses will vary based on the entitlements that a 
transferring Federal employee receives.

    Question 5. Leading up to the March scoping report on sage grouse 
plan changes, BLM lost thousands of public comments.

          5a. How is the Department reevaluating its plan changes now 
        that these comments have been found?

    Answer. The BLM did not receive public comments from two 
organizations. We have worked with those two organizations to ensure 
their input was captured in the BLM's project record. The missing 
comments, once received by the BLM, were reviewed, analyzed, and found 
to be consistent with existing issues identified by other members of 
the public. These comments did not offer substantive new information or 
change the scope of issues that the BLM is addressing in its land use 
plan amendments. The BLM also issued an addendum to its March scoping 
report reflecting the addition of new comments.

          5b. How will the Department remedy the breakdown that 
        occurred in this instance to ensure that a similar event does 
        not occur during future public comment periods?

    Answer. The BLM takes seriously its obligation to engage with and 
listen to the American public. In this case, it remains unclear why the 
BLM never received the automated form letters generated electronically 
by the two organizations. The BLM reviewed and researched the event and 
found no flaws with any of the BLM email systems that receive public 
comments. Going forward, the BLM will use the BLM NEPA Register 
(generally known as ``ePlanning'') which provides a digital receipt 
upon successful submission of any comments.

          5c. How will the revised sage grouse plans released earlier 
        this month, which remove sagebrush focal areas designations and 
        encourage categorical exclusions for development projects, 
        allow the Department to prioritize conserving the big-game 
        winter range and migration corridors on the sagebrush steppe 
        that is the subject of Secretarial Order 3362?

    Answer. Sagebrush Focal Areas do not contain management actions 
designed specifically to affect big game habitat. The management 
flexibility proposed in the Greater Sage Grouse plans still requires 
the BLM to carefully consider the potential impacts of development 
activity on sage grouse and sagebrush habitats. None of the management 
actions proposed in the Greater Sage Grouse plans would preclude the 
Department's ability to address and manage big game winter range 
habitat and migration corridors. Big game habitat and migrations 
corridors will continue to be managed in sagebrush steppe in accordance 
with BLM and DOI policy and S.O. 3362.

          5d. What is the Department doing to ensure proposed lease 
        sales on public land do not include important migration 
        corridors and crucial winter range for big game species while 
        also pursuing ``energy dominance''?

    Answer. The Department works extensively with State fish and 
wildlife agencies, the Western Association of Fish and Wildlife 
Agencies (WAFWA), and other partners to identify, conserve, and enhance 
important big-game populations, winter range, and migration corridors 
habitat on Federal lands. Proposed lease sales, like all Federal 
actions, must be in compliance with the BLM's approved Resource 
Management Plans and are subject to interdisciplinary environmental 
review and analysis for impacts to a variety of resources, including 
crucial wildlife winter range and migration corridors. Final agency 
decision documents disclose all impacts of the associated action and 
include project design features and site-specific implementation 
requirements to balance winter range and migration corridor habitat 
conservation and management objectives with energy development.
    The Department also helped fund development of WAFWA's Crucial 
Habitat Assessment Tool (CHAT), which provides an online map of 
priority wildlife habitat for use in the Department's planning and 
permitting processes. This tool helps agencies avoid or mitigate 
negative impacts to important wildlife habitat resources.
    The BLM is working closely with western States to obtain 
comprehensive winter range habitat data for bighorn sheep, deer, elk, 
and pronghorn for use as part of planning and project environmental 
reviews. States have primary authority over management of wildlife and 
designation of crucial wildlife habitat within their boundaries and the 
Department is proactively working with the States to review and update 
Federal-State Memoranda of Understanding to reflect new management 
priorities, improve cross-boundary resource management, and better 
serve the accomplishment of mutual objectives associated with game 
species population management and conservation of winter ranges and 
migration corridors.

          5e. The 2015 decision by the Fish and Wildlife Service not to 
        list the greater sage grouse for Endangered Species Act 
        protections was founded on the habitat protections included in 
        Federal land use plans, many of which the Department is 
        proposing to remove in the revised sage grouse plans released 
        earlier this month. Did the Department take into account how 
        the revisions could lead to a warranted decision for the sage 
        grouse when the Fish and Wildlife Service initiates its next 
        five-year review?

    Answer. The 2018 Greater Sage-Grouse plan amendments seek to 
improve alignment with State management plans, increase the BLM's 
management flexibility and improve access to public lands and 
resources. An important criteria in the BLM's planning efforts is the 
status of Greater sage-grouse. The Department, State governments and 
local governments share the management goal of conserving sage grouse 
and sagebrush ecosystems to avoid the need to list the Greater sage-
grouse as a threatened or endangered species. The draft plans remove 
overlapping designations, clarify management strategies, and better 
align with the conservation measures of each State. Removing certain 
plan designations like Sagebrush Focal Areas does not necessarily 
change the underlying management for the species.

    Question 6. To date, the only national monuments to be recommended 
for modifications are Bears Ears and Grand Staircase-Escalante, based 
on your monuments review in 2017.

          6a. Are there any plans to modify any other existing 
        monuments that were reviewed during that process?

    Answer. As directed by Executive Order 13792, Secretary Zinke 
reviewed certain designations under the Antiquities Act. As part of 
this process, the Secretary provided final recommendations to the White 
House on December 5, 2017. The decision to act on any of these 
recommendations will ultimately be made by the President.

          6b. Over 99 percent of the 2.8 million comments to the 
        Department related to the national monuments review opposed 
        making changes. Given this overwhelming and near unanimous 
        opposition, how were these public comments considered relative 
        to the interests of those with a desire to develop resources 
        from the land protected within the original monument 
        designations?

    Answer. Collecting public comments was one of the three primary 
steps completed as part of the National Monument review process. The 
first step included gathering facts by examining existing proclamations 
and object(s) to be protected, and considering segregation of the 
object(s) to meet the ``smallest area compatible'' requirement in 
accordance with the Antiquities Act of 1906. Additional information was 
collected about the scientific and rational basis for the boundaries, 
land uses within the monument, public access concerns, authorized 
traditional uses, and appropriate environmental and cultural 
protections. The second step included holding meetings with local, 
State, Tribal, and other elected officials; non-profit groups; and 
other stakeholders, as well as providing an online format for public 
comment. The final step included a review of policies on public access, 
hunting and fishing rights, and traditional uses such as timber 
production and grazing, economic and environmental impacts, and 
potential legal conflicts, which culminated into the final December 5, 
2017 report. Public comments were considered in concert with the 
information gathered at other steps in the review process to develop 
the recommendations included in the final report.

          6c. If oil and gas development and uranium mining aren't, in 
        your view, potential activities in Bears Ears, what are the 
        activities you want to allow that wouldn't be permissible under 
        the 2016 designation?

    Answer. The range of multiple uses that may be allowed within the 
boundaries of Bears Ears National Monument, as modified on December 4, 
2017, and in the surrounding area (some of which may have been included 
in the 2016 designation) will be determined through the BLM's land use 
planning process. The BLM's planning process includes public scoping 
and ample opportunities for public comment and consideration of the 
interests of local communities.

          6d. You've been clear in previous testimony that oil and gas 
        was not part of your ``decision matrix'' on Bears Ears. Did the 
        access to oil and gas, coal, or other minerals play a role in 
        your recommendation to the President to shrink Grand Staircase-
        Escalante?

    Answer. The Order listed several factors to consider when making 
that determination including the requirements and original objectives 
of the Antiquities Act, including the Act's requirement that 
reservations of land not exceed ``. . . the smallest area compatible 
with the proper care and management of the objects to be protected''; 
the effects of a designation on the available uses of designated 
Federal lands, including consideration of the multiple-use policy of 
section 102(a)(7) of the Federal Land Policy and Management Act (FLPMA) 
(43 U.S.C. 1707(a)(7)), as well as the effects on the available uses of 
Federal lands beyond monument boundaries.

    Question 7. Secretary Zinke, I know that you and I share a strong 
belief in the need to protect horses and I know how much you love them. 
I am encouraged that BLM's recent report to Congress identifies several 
non-lethal management techniques that can bring wild horse populations 
under control--thank you for providing us with options that include 
strong non-lethal management.

          7a. Do you believe there are effective and sustainable 
        options to manage wild horses and burros that do not involve 
        killing them? Certainly, those who are ill or injured may need 
        to be euthanized, but can you offer a way to manage our healthy 
        wild horse population without sales that will lead to their 
        slaughter and without having to destroy tens of thousands of 
        mustangs?

    Answer. The BLM is developing alternatives to manage wild horses 
and burros sustainably. A combination of removals, sterilization, and 
temporary fertility control treatments are necessary to achieve and 
sustain healthy wild horse and burro populations at appropriate 
management levels. However, without the currently prohibited management 
approaches, relying solely on removing more animals from on-range 
populations than can be placed in private care (adopted or sold) each 
year will result in significantly increased holding costs now and into 
the future. Under any of these management scenarios, the BLM is 
committed to keeping holding costs as low as possible through 
partnerships, off-range pastures, and innovative efforts to increase 
the numbers of animals placed into private care.

          7b. One of the options detailed in the report is 
        sterilization, which has not been utilized on a large-scale 
        basis by the BLM. How does BLM plan to sterilize horses: what 
        form of sterilization would be used, where will the 
        sterilization be conducted, how will physical suffering be 
        minimized, and what are the project costs?

    Answer. The BLM is considering three principal surgical methods for 
large-scale sterilization work. Currently, there is no reliable 
chemical method to sterilize either mares or stallions. Gelding 
(castration) and vasectomy are two procedures that can be used to 
sterilize stallions. Spaying mares by surgically removing their ovaries 
would be used for sterilizing mares. The per-animal costs for these 
treatments are approximately $100-200 for males and $300-350 for 
females, which does not include gather and holding costs. Since a 
stallion and mare are typically treated together, the total cost per 
pair is approximately $3,200. However, sterilization of mares remains 
the more reliable population growth control. Since one male can 
impregnate multiple mares, sterilization of an even large number of 
males has not been shown to effectively reduce population growth.
    The procedures would take place in temporary holding facilities or 
in established corrals and would be conducted by veterinarians. The 
wild horse would be under aseptic conditions, with appropriate 
administration of anesthesia and analgesia. Animals would be monitored 
after the procedure for signs of discomfort. Any animals showing signs 
of post-operative complications would receive treatment as recommended 
by a veterinarian.
    The BLM is initiating a sterilization study of mares in Oregon to 
research unanswered questions. This research will help assess the 
large-scale application of the surgical technique used for spaying, 
duration of recovery, and anticipated complication rates, among other 
factors. This study will help determine the direction the BLM will take 
in developing a sterilization program for long-term management of mares 
on the range. The proposed procedure will follow an animal care and use 
protocol approved by a university Institutional Animal Care and Use 
Committee to help ensure humane care during the study.

          7c. The report notes that short-term fertility control 
        agents, such as PZP, have not been effective in controlling 
        large horse populations on sizeable Herd Management Areas 
        (HMAs). Please provide information on where fertility controls 
        have been used, noting HMA size and horse population, how many 
        horses were treated, the drug administered, the number of years 
        of control, and an explanation on why the treatment was not 
        effective for each specific HMA.

    Answer. Through fiscal year 2017, using short-term fertility 
control (ZonaStat, PZP-22, GonaCon): 36 HMAs have been treated once; 50 
HMAs have been treated at least twice, and 8 HMAs have been treated by 
darting at least once. These HMAs vary in size and numbers of animals 
treated. Overall, since 2004, the BLM has applied over 7,600 treatments 
in these 94 HMAs. In general, the difficulty in using short-term 
fertility control agents to control population sizes falls into three 
areas:
    Logistically Improbable: In order to reduce an HMA's population to 
its Appropriate Management Level (AML), about 80 percent of the mares 
must be treated every year to have a population effect. In smaller 
HMAs, with low AMLs, this can sometimes be possible, depending upon 
terrain; however, in large HMAs or HMAs with difficult terrain, this 
can be nearly impossible in any given year, let alone every year. The 
more the animals are gathered, the more they learn to avoid the gather 
facilities and move into more remote areas of the HMAs.
    Financially Inefficient: Since it would be impossible to gather 
only mares, and since populations are roughly 50 percent mare/stallion 
mixes, the BLM has to gather twice as many animals as the number of 
planned treatments. In addition, since these treatments are only 
effective for 1 year, the BLM would need to have funding to do these 
gathers every year on every HMA, which is logistically improbable. At 
current population levels and under the best of circumstances, it would 
take decades and billions of dollars to reach AML using only short-term 
fertility control treatments.
    Darting Mares with short-term Fertility Control: While darting can 
be effective in small HMAs where animals can be easily approached, this 
method is not practical in large HMAs, those HMAs where populations far 
exceed AML, or in those with difficult terrain.
    The BLM continues to use these short term fertility control agents 
as a component of its overall growth suppression strategy. In addition, 
the BLM continues to fund research projects related to developing 
longer lasting fertility control vaccines.

          7d. One of the options detailed in the report is 
        international transfers for humanitarian efforts or economic 
        development. What new legal authorities are necessary to 
        implement these transfers? How will BLM guarantee that animals 
        transferred overseas be treated humanely and prevent those 
        animals from being slaughtered or destroyed inappropriately? 
        How will animals be transported and what are the prospective 
        associated costs?

    Answer. Legal authority to transfer wild horses and burros to 
nonprofit organizations or other countries for humanitarian purposes or 
to promote economic development outside the United States would be 
required. Purchasers must sign a clause certifying humane treatment of 
the animal; however, the BLM would have limited authority to enforce 
any agreement that other countries or citizens of those countries might 
make. Thorough vetting and building relationships with horse 
communities in these countries can help alleviate some concerns 
regarding the humane treatment of any animals going overseas. 
Transportation could take any number of forms and would depend upon 
multiple factors, but could occur via ship, aircraft, or truck. 
Transportation costs vary widely depending on method and distance. The 
BLM is currently preparing a Request for Information that will be used 
to collect information from potential contractors related to 
transporting animals humanely over long distances to other countries.

    Question 8. The best available science, as assessed by the Western 
Association of Fish and Wildlife Agencies, has found that contact 
between bighorn sheep and domestic sheep poses a significant threat of 
transmission of respiratory disease to bighorn sheep and subsequent 
die-off.

          8a. How is BLM following its guidance to achieve a ``high 
        degree of confidence that there is low to no risk'' to bighorn 
        sheep when domestic sheep grazing is authorized or renewed?

    Answer. BLM guidance, 1730--Management of Domestic Sheep and Goats 
to Sustain Wild Sheep, includes goals and objectives within land use 
plans, implementation-level plans, and land use authorizations to 
support sustainable wild sheep and wild sheep habitat in fulfillment of 
the BLM's multiple-use and sustained yield mission. The BLM promotes 
sound management of domestic sheep and goats to sustain wild sheep and 
bureau-wide consistency to reduce the potential for contact between 
wild sheep and domestic sheep or goats that could result in disease 
transmission between the species. The BLM considers the potential for 
disease transmission in NEPA analyses. Wild sheep and domestic sheep 
and goat management activities are planned, implemented, monitored, and 
evaluated in consideration of current and desired conditions and the 
potential for future changes in landscape and environmental conditions.

          8b. How is BLM effecting the separation of domestic sheep or 
        goats from bighorn sheep on public lands and minimizing contact 
        between the species?

    Answer. To reduce the potential for disease transmission, the BLM 
considers (1) habitat distribution; (2) connectivity; (3) wild sheep 
occurrence; (4) wild sheep population numbers; (5) proximity of wild 
sheep populations to areas authorized for domestic sheep and goat 
grazing or trailing; (6) risk of inter-species contact; (7) domestic 
sheep and goat allotment boundaries and seasons of use; (8) domestic 
livestock operational needs; and (9) other pertinent parameters 
affecting the BLM's ability to provide for effective separation when 
authorizing domestic sheep and goat uses on BLM lands.

          8c. Is there any effective means to reduce the potential for 
        disease transmission between the species other than physical 
        separation? Is BLM analyzing the risk of contact before 
        authorizing domestic sheep grazing and trailing in bighorn 
        sheep habitat?

    Answer. In addition to physical separation, temporal separation is 
included among tools for reducing potential for disease transmission.
    Presently, a risk analysis is conducted when domestic sheep or goat 
grazing authorizations, including trailing, or other activities, are 
under consideration when (1) land use plans are developed, including 
revisions, relevant amendments, and implementation-level plans; (2) 
issuing or renewing domestic sheep or goat grazing permits; and (3) 
when risk has not previously been analyzed or when new/updated science, 
information, analysis tools, models, or maps could substantially affect 
the results of a previous risk analysis, as determined by the BLM 
authorized officer (normally the BLM field manager). At the outset of 
planning and when identifying the range of alternatives in the NEPA 
review, the level of analysis should be commensurate with the presumed 
degree of risk for inter-species contact and potential disease 
transmission determined with coordination with partner agencies, 
Tribes, and permittees, and lessees.

          8d. How is BLM ensuring that contact will not occur and that 
        grazing allotments are not authorized in occupied wild sheep 
        range?

    Answer. Once the risk of contact between wild sheep and domestic 
sheep or goats is identified for a specific area, and for the range of 
alternatives in NEPA, the BLM authorized officer evaluates the 
identified level or extent of risk and determines if domestic sheep or 
goat grazing can occur and still achieve effective separation from wild 
sheep. The decision includes an assessment of how management practices 
and topographic features are expected to provide for effective 
separation as documented in the applicable NEPA analyses and decision 
documents for proposed activities. The higher the level of risk, the 
more likely that management practices or project design features will 
be incorporated into decisions to achieve effective separation. This 
includes not authorizing domestic sheep or goat grazing or trailing in 
high risk areas.

          8e. What is the BLM doing to follow this Committee's 
        direction related to bighorn sheep conservation and reducing 
        conflict with domestic sheep grazing allotments on public land?

    Answer. The Federal Land Policy and Management Act (FLPMA) directs 
BLM to provide opportunity to the public and affected interests, 
including domestic sheep grazing permittees, to participate in the 
analysis and decisionmaking processes for public land uses. Early and 
timely communication with other Federal agencies, States, Tribes, local 
governments, permittees, lessees, and partner organizations can 
identify areas where use conflicts or potential for conflicts may 
exist. These opportunities can also provide timely discussion to 
address or mitigate identified conflicts. Regulation and policy 
requires consultation, coordination and cooperation with these 
agencies, groups, and affected interests when renewing grazing permits. 
Public involvement primarily occurs through the NEPA and decisionmaking 
process. In addition, the BLM, with partner organizations, provides 
outreach to the public through educational efforts.

          8f. How are grazing authorizations being implemented to 
        ensure that effective separation results in a high degree of 
        confidence that there is a low risk of contact with bighorn 
        sheep?

    Answer. BLM guidance for the management of domestic sheep and goats 
includes goals and objectives within land use plans, implementation-
level plans, and land-use authorizations to support sustainable wild 
sheep and wild sheep habitat in fulfillment of the BLM's multiple-use 
and sustained yield mission. A risk analysis is conducted when domestic 
sheep or goat grazing authorizations, including trailing, or other 
activities, are under consideration during (1) land-use plan 
development, including revisions, relevant amendments, and development 
of implementation-level plans; (2) issuance or renewal of domestic 
sheep or goat grazing permits; and (3) when the risk has not previously 
been analyzed or when new/updated science, information, analysis tools, 
models, or maps could substantially affect the results of a previous 
risk analysis, as determined by the BLM authorized officer (normally 
the BLM field manager). The potential risk of wild sheep contact or 
interaction with domestic sheep or goats will be analyzed using the 
best available science and information, best available models, and 
updated habitat maps. Grazing authorizations are implemented using this 
guidance to ensure that effective separation results in a high degree 
of confidence that there is a low risk or no risk of contact with 
bighorn sheep.

          8g. Are there high risk of contact allotments that have been 
        reauthorized?

    Answer. Risk is assessed and documented at the field office level. 
The information would need to be retrieved from field offices that 
manage bighorn sheep habitats and permitted domestic livestock grazing.

          8h. How many current grazing allotments directly overlap 
        bighorn sheep occupied habitat? How does BLM review allotment 
        renewals for risk of contact?

    Answer. Eighty-five allotments with authorized domestic sheep or 
goat use overlap occupied bighorn sheep habitats. Domestic sheep 
grazing permits for allotments with bighorn sheep habitats are usually 
reviewed as part of the grazing permit renewal process. Reviews may 
occur at other times if high risk contact issues develop.

          8i. Is BLM renewing allotments that have been documented as 
        high risk for contact?

    Answer. When allotments are documented as high risk for contact, 
the associated permit(s) become priority for completing NEPA, for 
developing alternatives to current grazing, and for implementing 
actions to achieve effective separation. These alternatives may include 
changing timing of livestock use, closing portions of the allotment 
where risk of contact is high, closing the entire allotment to domestic 
sheep or goat use, or changing the type of use from sheep/goats to 
cattle. Permits may be modified to achieve effective separation. The 
BLM, along with partners such as the Wild Sheep Foundation, have worked 
with permittees to relinquish their domestic sheep permit, or where 
appropriate, to change from sheep to cattle grazing use.

          8j. How many allotments up for renewal in 2018 have been 
        reauthorized and how many remain?

    Answer. The BLM grazing administration database documents the 
number of grazing permit expirations and renewals. Grazing permits and 
allotments do not have a one-to-one correlation. Some permits have 
multiple allotments. Many allotments have multiple permits.
    During fiscal year 2018, 1,985 permits are scheduled to expire. 
Reauthorization of these permits is done in accordance with the Federal 
Land Policy and Management Act (FLPMA) authority (Section 3023 of 
Public Law 113-291, NDAA 2015 amending Section 402 of FLPMA) and 
processed and issued with environmental analysis and other regulatory 
and legal requirements fulfilled.

          8k. How many of those already renewed included new 
        environmental analysis and how many of those remaining will 
        receive environmental analysis?

    Answer. At end of May 2018, 797 permits have been issued with 
environmental analysis and legal and regulatory requirements completed. 
An additional 568 permits are expected to be issued with environmental 
analysis and legal and regulatory requirements completed by the end of 
the fiscal year.

    Question 9a. Under the December 22, 2017 M-Opinion related to 
incidental take and the Migratory Bird Treaty Act (MBTA), if another 
Deepwater Horizon or Exxon Valdez accident led to the death of millions 
of birds, and it was later determined that the responsible party was 
grossly negligent in taking basic steps to prevent the accident, would 
that no longer violate the MBTA's prohibition on taking?

    Answer. The M-Opinion concludes that the MBTA does not apply when 
the intent and underlying purpose is not to take birds. Protections of 
publicly held natural resources, including migratory birds, under other 
authorities (such as the Comprehensive Environmental Response 
Compensation and Liability Act, Oil Pollution Act, and Clean Water Act) 
will still apply in these situations. Parties responsible for these 
incidents will still be held accountable under the incidental take 
prohibitions in the Endangered Species Act and Bald and Golden Eagle 
Protection Act, as well as any applicable State laws. The M-Opinion 
applies to all industries equally, and the Department will continue to 
work with our industry partners to minimize impacts on migratory birds, 
whenever proponents or operators are willing to work with us toward 
this goal.

    Question 9b. Under the December 22, 2017 M-Opinion related to 
incidental take and the Migratory Bird Treaty Act (MBTA), if an oil 
company knows that keeping an oil pit uncovered will kill thousands of 
migratory birds and a $50 protective cover on the oil pit will prevent 
the massive harm, can the company now ignore this simple, inexpensive 
remedial measure and face no consequences?

    Answer. Under the Department of the Interior's current 
interpretation of the MBTA, the mortality of birds caused by an 
activity that is not intended to kill birds would not be considered 
prohibited take. We will continue to work with industry and other 
partners who wish to minimize the impact on migratory birds from 
development and activities that may result in unintended or incidental 
migratory bird capture or mortality.

    Question 9c. How is the December 22, 2017 M-Opinion consistent with 
our treaty obligations with Canada and Mexico?

    Answer. None of the four bilateral, migratory bird treaties that 
the U.S. holds with Canada, Mexico, Japan and Russia explicitly 
mentions prohibitions of take that is not fully intentional. Each 
prohibits the deliberate take of protected birds and describes a close 
season, during which such take may not occur. The Migratory Bird Treaty 
Act of 1918, which is the U.S. implementing legislation for these four 
treaties, does not explicitly include incidental take nor explicitly 
exclude it from the list of prohibited acts in 16 U.S.C. 703.

    Question 9d. Will plea agreements previously entered into for 
unlawful incidental take under the MBTA that have ongoing effect 
continue to be enforced? Will the Department seek to undo those plea 
agreements?

    Answer. There are no plans in place to undo plea agreements 
finalized prior to issuance of the M-Opinion.

    Question 9e. Did the Department engage in any analysis on the 
potential impact of this policy change on the populations of migratory 
birds and which species might be most affected? Did the Department 
consider any alternative approach that might have alleviated legitimate 
industry concerns?

    Answer. The M-Opinion is not a formal policy or project that is 
subject to such analysis under existing Federal statute. Any project or 
step-down regulation developed from this interpretation of the MBTA 
would be subjected to formal analysis under applicable Federal 
statutes.

    Question 10. Congress provided $333 million to the Department for 
LWCF programs in fiscal year 2018. The Department's fiscal year 2019 
budget includes $2.3 million for inholdings and exchanges at the Fish 
and Wildlife Service and proposes $25 million in rescissions of 
unobligated balances across the bureaus.

          10a. How do you reconcile these funding amounts with your 
        public statements of support for LWCF and your direct knowledge 
        of the economic benefits this program brings to local 
        communities?

    Answer. I have been a long-time supporter of the LWCF program, and 
continue to be. The President's 2019 Budget focuses available funds on 
the protection and management of existing lands and assets. DOI manages 
more than 480 million acres of Federal land. Acquiring new lands is a 
lower priority than funding ongoing operations and maintenance and 
there is no request for major land acquisition projects in the 
President's 2019 budget request.

          10b. Do Federal acquisitions that reduce the checkerboard 
        pattern of land ownership, or improve public access make 
        management of Federal lands more or less efficient?

    Answer. Federal land acquisition can be important for public access 
to recreational activities and increasing administrative efficiencies. 
The checkerboard system has made it difficult sometimes to transit 
between Forest Service and BLM lands, and you need a bridge to go 
between the two. However, we also need to focus limited resources on 
the assets we already own. The President's 2019 budget focuses 
available funds on the protection and management of existing lands and 
assets. Recognizing this, the 2019 budget includes a proposal to 
reauthorize the Federal Land Transaction Facilitation Act. This 
important authority allows Interior to dispose of lands with low 
conservation values and use the proceeds to acquire lands with high 
conservation values.

          10c. You have stated that we are loving our public lands to 
        death. In that context, doesn't it make sense to acquire lands 
        or conservation easements that open up more recreation and 
        hunting access points, in order to increase the American 
        public's recreational opportunities, ease the impacts of 
        overuse, and keep pace with the growing usage of our public 
        lands?

    Answer. Land acquisition is a tool to consider, but in a 
constrained fiscal environment we need to take care of lands and assets 
we already own. Acquiring new lands is a lower priority than funding 
ongoing operations and maintenance.

          10d. I am concerned that the Department has been slow to 
        spend funds provided for Federal land acquisition projects 
        through the Land and Water Conservation Fund. By my count, the 
        Department is sitting on more than $400 million dollars' worth 
        of LWCF funds that Congress designated for specific projects in 
        fiscal year 2018 and in previous years. These projects were 
        identified by the Department as being important to protect 
        sensitive landscapes or improve access for hunting and fishing 
        and other recreation. Will the Department move forward on LWCF 
        projects without further delay so we can protect these special 
        places?

    Answer. The Department will implement projects consistent with the 
2018 enacted appropriations bill.

    Question 11a. It is my understanding that you committed to Governor 
Scott that there would be no new oil and gas platforms off the coast of 
Florida. But you've also said that Florida is not exempt from the 
ongoing planning process. How are those statements complementary and 
how is your promise to the governor not pre-decisional? Why are you not 
giving similar commitments to other States that aren't interested in 
new drilling?

    Answer. Section 18 of the Outer Continental Shelf Lands Act 
prescribes the major steps involved in developing the National OCS 
Program, including extensive opportunities for public comment. BOEM 
seeks a wide array of input during development of a National OCS 
Program, including information on the economic, social, and 
environmental values of all OCS resources. BOEM also seeks input on the 
potential impact of oil and gas exploration and development on other 
resource values of the OCS and the marine, coastal, and human 
environments. The Secretary will continue to review incoming 
information to inform his decisions on areas to be included or excluded 
from the National OCS Program.

    Question 11b. You have also said that there's little recoverable 
oil and gas from Maine to Maryland, and that new drilling in the 
Pacific Northwest is politically untenable. So why did you publicly 
state that Florida's Atlantic Coast, where there is recoverable 
resource, is off the table, but all the other States must wait for the 
studies to come back to show that there's no oil and gas?

    Answer. BOEM has been engaging with State, local, and community 
stakeholders to obtain additional information for the Secretary to 
consider regarding environmental resources, other uses of the areas, 
and where potential interest in leasing exists, among other things. 
Inclusion of areas in the Draft Proposed Program (DPP) does not 
necessarily mean those areas will remain in the Proposed Program or 
Proposed Final Program for oil and gas leasing. The Secretary will 
continue to review incoming information to inform his decisions on 
areas to be included or excluded from the National OCS Program.

    Question 11c. What activities is the Department engaged in to 
evaluate the current organization of BOEM and BSEE as separate bureaus? 
If the Department decides to propose changes to their current 
structures, will you undertake a significant public process of public 
listening sessions, meetings with industry, taxpayer advocates, 
impacted States, and conservation stakeholders?

    Answer. As part of the reorganization plan to improve overall 
operations, we are evaluating the structures of BOEM and BSEE. During 
this process, we are engaging with staff throughout the Department and 
will continue to do so as we move forward. No decisions have been made.

    Question 12. You have previously testified that it is sometimes 
difficult to delist or downlist a species that has recovered. I agree 
with you that we want animals to be successfully recovered and get off 
the list. How will the Department undertake such efforts with a Budget 
Request that includes a $36 million cut to the programs that are 
necessary for delisting, downlisting, and recovery?

    Answer. The funding levels in the President's fiscal year 2019 
budget request for the Ecological Services activity will allow FWS to 
address priorities including developing recovery plans, conducting 
five-year status reviews, and acting on recommendations to delist or 
downlist species in cooperation with other DOI bureaus, Federal 
agencies, States, and other stakeholders.

    Question 13. On April 20th, the Bureau of Land Management issued 
the Notice of Intent to prepare an environmental impact statement for 
leasing the Coastal Plain. Your agency has requested $9.5 million 
toward this project. I would like to explore how this money would be 
spent.

          13a. Can you explain to us how the resources requested in the 
        budget will go toward the goals of robust tribal consultation 
        and involvement? Will you be holding scoping meetings in all of 
        the Gwich'in villages? How many government-to-government 
        meetings do you plan to hold with each Tribe and how often will 
        you hold them? Will you be translating all of the materials 
        into Gwich'in to that it can be understood? How will you plan 
        to engage the Gwich'in villages in Canada that also rely on the 
        Porcupine Caribou Herd?

    Answer. The BLM held several meetings within Alaska Arctic 
communities prior to publication of the Notice of Intent to develop the 
Coastal Plain Oil and Gas Leasing Program EIS. Since publication of the 
Notice of Intent, the BLM has held government-to-government 
consultations, Alaska Natives Claims Settlement Act (ANCSA) Corporation 
consultations, and scoping meetings in the villages of Kaktovik, Arctic 
Village, Venetie, Utqiagvik, Fairbanks, Anchorage, and Washington, DC. 
Invitations for government-to-government consultation were sent to 15 
villages. Currently, six villages have indicated they would like to be 
consulted. Government-to-government consultation will continue 
throughout the life of the project.
    The Department is researching the feasibility of translating 
scoping materials into Inupiaq and Gwich'in. We have ensured that 
Inupiaq or Gwich'in translators are present for scoping meetings in 
Arctic communities.
    The Gwich'in villages in Canada may participate in any of the 
public processes.
    In addition, the Department intends to consult the International 
Porcupine Caribou Board in accordance with the international agreement 
between Canada and the United States for the conservation of the 
Porcupine Caribou Herd, and in accordance with Alaska National Interest 
Lands Conservation Act (ANILCA).

          13b. Please describe division of resources between the 
        agencies, including the role of Fish & Wildlife Service in 
        regards to an oil and gas program on the Coastal Plain and what 
        next steps that agency will be taking. Please also explain how 
        you are involving the local Alaska Fish and Wildlife Service 
        employees in the development and review of the environmental 
        impact statement to ensure that the information is generated by 
        those with the expertise and knowledge of the Arctic Refuge.

    Answer. The BLM is the lead Federal agency for the Coastal Plain 
Oil and Gas Leasing Program EIS; the U.S. Fish and Wildlife Service 
(FWS) is a cooperating agency. The BLM will prepare the leasing 
document, consistent with 43 CFR 3130 regulations. As a cooperating 
agency, the FWS is integral to the identification of existing 
environmental information, development of alternatives, lease 
stipulations, best management practices, and review of draft products, 
including the draft and final EISs. BLM Alaska's interdisciplinary team 
is working closely with the Alaska Region FWS subject matter experts 
regarding each resource in which they have subject matter expertise, 
which includes weekly meetings to share information. In addition, FWS 
participates in all scoping meetings for the EIS. FWS leadership 
participates in Question & Answer (Q&A) panels with DOI and BLM 
representatives during scoping meetings, and FWS staff answers 
questions from stakeholders during the Open House events, as 
appropriate.

          13c. Have your agencies identified the scientific information 
        that needs to be updated so that it can evaluate the impacts of 
        all phases of oil and gas? What are those scientific needs; 
        please describe them in detail? What environmental studies will 
        DOI complete before evaluating and issuing any seismic 
        authorizations? How are you ensuring adequate time to collect 
        that information or conduct the necessary studies when the 
        agency is also pursuing a 1 year timeline? How much of the 
        requested $9.5 million dollars will go toward gathering the 
        missing scientific information?

    Answer. The BLM is refining its funding estimates for all 
anticipated activities needed to establish the competitive oil and gas 
leasing program in the Coastal Plain, including funds needed to 
complete the Coastal Plain Oil and Gas Leasing Program EIS. NEPA 
requires analysis and use of existing information. Should the BLM 
require additional resource information or monitoring needs to analyze 
subsequent project proposals, they will be identified in the Record of 
Decision (ROD). Currently, the BLM does not anticipate additional 
studies prior to the environmental analysis for future geophysical 
permits.

    Question 14. On March 31, 2018, Secretary Zinke amended Department 
Order 3345, which purported to delegate a ``[a]ll functions, duties, 
and responsibilities'' of the Assistant Secretary for Fish and Wildlife 
and Parks to Susan Combs, Senior Advisory to the Secretary. Please 
provide a comprehensive list of agency matters in which Ms. Combs has 
participated since March 31, 2018 under functions, duties, and 
responsibilities normally assigned to the Assistant Secretary for Fish 
and Wildlife and Parks.

    Answer. Ms. Combs, as the Senior Advisor to the Secretary, 
exercising the authority of the Assistant Secretary for Fish and 
Wildlife and Parks, has been providing policy guidance and direction 
for the U.S. Fish and Wildlife Service and National Park Service as 
appropriate. She has also had responsibility for programs associated 
with the management and conservation of natural resources, lands and 
cultural facilities associated with the National Park and National 
Refuge Systems, and the conservation and enhancement of fish, wildlife 
and natural habitats.

    Question 15. On August 31, 2017, Deputy Secretary David Bernhardt 
issued Department Order 3355, which established new rules for the 
Department's obligations under the National Environmental Policy Act. 
Please provide a list of all Environmental Impact Statements, at any 
stage of drafting, that the Department is now preparing and considers 
governed by the rules set forth in Section 4(a) of the Order. Of this 
list, please describe (1) which Environmental Impact Statements have 
thus far prompted requests for deviation from the rules described in 
Section 4(a); (2) the outcome of those requests, and; (3) the person 
evaluating, granting, or denying those requests.

    Answer. As part of implementing the Order, the Department is 
working to standardize internal review, coordination, and tracking of 
actions in progress.

    Question 16. Please explain, with specificity, the means by which 
the Royalty Policy Committee deliberates and votes on proposed policy 
recommendations to the Secretary.

    Answer. On March 29, 2017, Secretary Zinke signed the Charter 
reconstituting the Royalty Policy Committee (Committee) in accordance 
with the Federal Advisory Committee Act (FACA). The Committee provides 
advice to the Secretary, through the Counselor to the Secretary for 
Energy Policy, on current and emerging issues related to energy and 
mineral resource development on Federal and Indian lands.
    The Committee's membership is composed of four sectors: State 
governments, Tribal Governments, industry, and public interest/
academia. In order for the Committee to reach decisions, there must be 
at least a majority of members present from each sector. In developing 
its advice and recommendations for the Department, the Committee 
strives to operate by consensus and with transparency. We post the 
agenda; meeting materials and minutes; and lists of attendees on the 
Committee website at www.doi.gov/rpc.
    The Committee has formed three Subcommittees: Fair Return & Value; 
Planning, Analysis, & Competitiveness; and Tribal Energy. Within each 
of these subcommittees are numerous work groups that research and 
develop preliminary proposals for subcommittee consideration. In 
addition to the voting members of the full Committee, Committee 
alternates and subject matter experts serve on the Subcommittees and 
work groups. Neither the subcommittees nor the work groups are 
decisionmaking bodies. To encourage transparency, each subcommittee 
provides updates at the public meetings of the full Committee, 
summarizing its discussions and activities for incorporation in the 
Committee's public record.
    Draft recommendations are developed by a Subcommittee, generally 
based on the research of the work groups. Once consensus is reached 
within the subcommittee regarding a draft recommendation, it may be 
presented at the next public Committee meeting for the consideration of 
the full Committee. Meetings are announced at least 15 days in advance 
in the Federal Register, and meeting materials are posted on the 
Committee's website, in accordance with FACA regulations. At every 
public meeting of the full Committee, there is an opportunity for the 
public to present written or oral comments. The Committee also may 
invite one or more technical experts to present relevant information on 
specific agenda topics at full Committee meetings. These experts, 
however, only participate as presenters; they do not act as members of 
the Committee, and do not participate in Committee deliberations or 
decisionmaking concerning potential advice or recommendations to the 
agency.
    At the public meeting, the Committee members discuss and deliberate 
the merits of any draft recommendations presented by the subcommittees. 
The Committee may accept, reject, edit, or return a draft 
recommendation back to the subcommittee presenting it for further work. 
Only once consensus has been reached among the members of the full 
Committee, after deliberation and discussion in a public meeting, may 
the draft recommendation be approved by the Committee and delivered to 
the Secretary as the Committee's recommendation.

    Question 17. As you know, the BLM's Resource Advisory Councils are 
made up of expert members of the public that advise the BLM on how 
policy and land management decisions impact various local interests. 
They are, in my opinion, one of the best tools we have to successfully 
integrate public input into Interior's decisionmaking. Many of these 
RACs, however, waited for their charter renewals until just recently 
and have had no ability to advise your Department for over a year of 
this administration. Additionally, you have directed the public to 
address the political goals of this administration rather than serving 
as voices of the community, as their creation was intended. Can you 
explain the reasoning behind directing public advisory boards to 
advance certain political goals? Does this mean you will only listen to 
members of the public that are in line with this administration's 
policy agenda?

    Answer. One of the Department's top priorities is to restore trust 
and be a good neighbor. The BLM recognizes the important role the 
Resource Advisory Councils (RACs) have in the lives of Americans. RACs 
must operate in a manner that is productive, transparent, and in 
compliance with the Federal Advisory Committee Act and other Federal 
regulations. The new charters provide clarity for RAC members and the 
advisory role they play for the Secretary of the Interior (Secretary) 
in accomplishing the Department's mission. By providing input on 
Secretary's and Executive Orders, where applicable, the RACs serve as 
important forums to listen to local communities and stakeholders 
regarding the business of the Department and the impact that Federal 
actions have on the public lands. The Department continues to renew the 
charters of the RACs so that all Americans have opportunities to 
provide input on the way the Department conducts stewardship. The 
continuing approval of nominations will have a balanced membership 
representing a variety of stakeholders and interests, as specified in 
Federal laws and regulations.

    Question 18. You recently appointed 15 representatives of the 
outdoor recreation industry to the ``Made In America Outdoor Recreation 
Advisory Committee.'' According to documents obtained by The Washington 
Post, these new representatives include three people whom department 
officials flagged as potentially having a conflict of interest on the 
matter.

          18a. Can you explain these conflicts of interest and pending 
        lawsuits and what you are doing to address them?

    Answer. The Department believes that you are referring to a list of 
possible committee members in which four had been identified under the 
heading ``Potential Conflict of Interest'' as being either 
concessioners or advocates for concessioner interests. In this context, 
the concessioners are private businesses typically operating within a 
National Park, whose financial interests may be affected by NPS actions 
and so may have their own interests in mind regarding certain issues. 
As is routinely the case for the Department's advisory committees, 
these and similar potential conflicts are addressed in the ``Made in 
America'' Outdoor Recreation Advisory Committee's charter in a 
provision that requires the recusal of a committee or subcommittee 
member from any specific party matter in which the member has a direct 
financial interest. This provision is at paragraph 13 of the 
committee's charter, with the heading ``Ethics Responsibilities of 
Members.''

          18b. Can you speak to the committee's composition almost 
        entirely of industry representatives--some with multi-billion 
        dollar contracts--who stand to profit from your policy 
        decisions?

    Answer. With its focus on public-private partnerships, the ``Made 
in America'' Outdoor Recreation Advisory Committee is specifically 
intended to address issues relating to the leveraging of the private 
sector in support of improving access to, and the facilities available 
on, the nation's public lands and waterways. As such, it is both 
necessary and desirable to engage with senior leaders in such 
industries to develop the optimal recommendations for Departmental 
actions to improve its programs. While the Department believes the 
mission of the committee is such that there is limited risk that 
committee members will be able to affect their own financial interests, 
to the extent that such concerns are raised, the committee members will 
be subject to recusal under paragraph 13 of the Committee's charter, as 
discussed above.

          18c. How will you ensure that the public's interest and 
        ownership of Federal lands and waters are prioritized and 
        protected when such a large percentage of your advisors are 
        driven by corporate profits?

    Answer. Under applicable law, the committee's functions are 
strictly advisory; any recommendations or advice it provides may only 
be implemented through additional action by the Department. In deciding 
on the appropriate action to take with respect to any particular 
recommendation, the Department takes seriously and will adhere to the 
principle that public service is a public trust and the ethics 
prohibition of the use of public office for private gain. This, along 
with any other procedural steps applicable to the proposed action, will 
ensure the proper prioritization of the public's interest and ownership 
of Federal lands and waters.

    Question 19. Mr. Secretary, according to CNN, you recently stated 
``diversity isn't important,'' ``I don't care about diversity,'' and 
``I don't really think that's important anymore.'' This followed a 
report that a disproportionate amount of career staffers you have 
reassigned have been minorities--nearly a third being Native American 
alone. How can you possibly reconcile this attitude with the mission 
stated on your website that the Department of Interior ``protects and 
manages the Nation's natural resources and cultural heritage; provides 
scientific and other information about those resources; and honors its 
trust responsibilities or special commitments to American Indians, 
Alaska Natives, and affiliated island communities''? Isn't it clear 
that honoring America's diverse cultural heritage is critical to 
fulfilling the mission of the Department you lead?

    Answer. As you correctly noted, the Department's commitment to 
diversity is embedded in our mission and within our workforce. DOI's 
employees are on the front-lines everyday providing the American people 
critical services and support every day and throughout our Nation. 
Secretary Zinke has demonstrated his commitment to Equal Employment 
Opportunity and diversity in the workplace through several high-profile 
initiatives such as tasking a working group to develop and implement 
bureau action plans related to the employees' survey on harassment in 
the workplace, and a Civil Treatment training course for all SES and 
supervisors to bolster the Department's efforts to create a work 
environment free from harassment. DOI's new anti-harassment policy and 
bureaus' action plans are also in alignment with the Equal Employment 
Opportunity Commission's risk factors for harassment. For additional 
information, please see https://www.doi.gov/employees/anti-harassment/.
    The Department continues to implement its Diversity and Inclusion 
(D&I) Strategic Plan. The D&I Strategic Plan sets specific goals, 
objectives, and performance measures, which ensure that the Department 
secures a high-performing workforce drawn from all segments of society; 
cultivates a culture that encourages collaboration, flexibility, and 
fairness; and institutionalizes diversity and inclusion as a key 
strategic priority across all of the Department's programs. In 
furtherance of the D&I Strategic Plan, the Bureau EEO Offices, and 
Human Resources Offices continue to develop and maintain partnerships 
and alliances with diverse professional organizations and educational 
institutions.
    The Department leverages these relationships to reach a broader and 
more diverse pool of applicants for employment. In fiscal year 2017, 
these organizations included, among others: League of United Latin 
Americans Citizens, Urban American Outdoors, Society for Advancement of 
Chicanos/Hispanics and Native Americans in Science, Minorities in 
Agriculture, Natural Resources and Related Sciences, Historically Black 
Colleges and Universities (HBCUs), and other Minority Serving 
Institutions. The Department continues share the power and diversity of 
its workforce through its social media presence to strengthen the 
Department's brand in improving recruitment and outreach efforts. The 
Department now has the capability to reach all colleges and 
universities and to expose the general public and the next generation 
of conservation stewards to its various functions and multitude of 
career opportunities. The Department continues to celebrate and support 
diversity in our workforce so DOI's mission can be accomplished.

    Question 20. During testimony last month in front of the Senate 
Energy and Natural Resources Committee you singled out pass programs 
for fourth graders, veterans, seniors and disabled people as rationale 
for your proposal to raise fees in our National Parks. What plans do 
you have to continue the very popular Every Kid in a Park program which 
encourages 4th graders to visit our public lands and has leveraged 
millions of private sector funding to defray transportation costs for 
low-income children?

    Answer. The Department plans to continue support for the Every Kid 
in a Park program in 2018.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question 1. One of the missions of the National Wildlife Refuge 
System is to protect cultural resources on conserved land. The 
Missisquoi National Wildlife Refuge in Vermont has played a critical 
role in conserving Native American burial sites contiguous with the 
Refuge, helping to defuse difficult private land management 
controversies, while also protecting wildlife habitat. The Silvio O. 
Conte National Wildlife Refuge Comprehensive Conservation Plan even 
includes the following as part of its Vision Statement: ``Working with 
our partners, we are inspired to protect and enhance the natural and 
cultural richness throughout the watershed.''

          1a. Considering the National Wildlife Refuge System 
        commitment to cultural resources, and past successes in 
        conserving Native American sites in Vermont, how will the Conte 
        Refuge assess its conservation role in not only valuable 
        natural resources, but also the ancient petroglyphs sacred to 
        the State recognized Abenaki Tribe at the confluence of the 
        West River and Connecticut River in Vermont?

    Answer. Cultural resources protection, including Native American 
Sacred Sites, is an ongoing commitment of the U.S. Fish and Wildlife 
Service, including the Silvio O. Conte National Fish and Wildlife 
Refuge.

    Question 2. You have been very clear about the priority that you 
place on increasing the efficiency of the Department of the Interior, 
and achieving that through a significant reorganization of regional 
geographies. A few draft plans have been circulated. One showed Vermont 
divided between two expansive new regions, which concerns me greatly. A 
second map, though lacking detail, appears to show Vermont split 
between the New England and Mid-Atlantic sub-regions.

          2a. Does your reorganization plan for the Department of the 
        Interior divide Vermont between two regions or two sub-regions? 
        How does dividing one of the smallest States in the country 
        such that two different DOI bureaus will be needed to 
        coordinate delivery of services increase the Department's 
        efficiency?

    Answer. The Department took a science-based approach in developing 
these unified boundaries, and we are taking input from employees, 
States, Congress, and other stakeholders to develop a fulsome plan for 
the new organizational structure. While in some cases a State may be 
included in more than one of the new regions, experiences in the Bureau 
of Reclamation and Army Corps of Engineers indicate that such an 
arrangement works. The goal of the reorganization is to have more 
integrated, responsive, and better coordinated decisionmaking.

    Question 3. There have been recent reports that you have regularly 
used a personal email account to conduct official business. Under 44 
U.S. Code Sec. 2911, you must forward ``a complete copy of the record 
to an official electronic messaging account of the officer or employee 
not later than 20 days after the original creation or transmission of 
the record.''

          3a. Have you and are you currently complying with the law by 
        forwarding any such records within the mandatory 20 day time 
        period under our public records laws?

    Answer. Yes

    Question 4. I understand that in response to a recent D.C. Circuit 
Court opinion, the U.S. Fish and Wildlife Service (USFWS) is revising 
the procedure for assessing applications for the importation of 
elephant trophies and is currently considering trophy imports on an 
application-by-application basis.

          4a. Since that D.C. Circuit Court opinion was issued on 
        December 22, 2017, how many applications has the USFWS received 
        for the importation of elephant trophies?

    Answer. The Service has received 67 applications to import elephant 
trophies since the D.C. Circuit Court opinion was issued on December 
22, 2017.

          4b. How many of those applications for elephant imports been 
        approved? What final decisions are still forthcoming or pending 
        for those applications?

    Answer. None of these applications has been approved or denied, as 
they are still under review (see below).

          4c. The President has stated before that he ``didn't want 
        elephants killed and stuffed and have the tusks brought back'' 
        into this country. What is your point of view on this matter? 
        Will those case-by-case applications take into account the 
        President's position?

    Answer. Import of African elephant sport-hunted trophies is allowed 
under the ESA, CITES, and the African Elephant Conservation Act when 
specific regulatory criteria are met. The FWS will grant or deny 
permits to import sport-hunted trophies on a case-by-case basis 
pursuant to its statutory authorities. As part of the permitting 
process, the FWS reviews each application received for import of such 
trophies and evaluates the information provided in the application as 
well as other information available to the FWS.

    Question 5. During your testimony before the subcommittee, when 
discussing the Migratory Bird Treaty Act (MBTA) you gave an example of 
``accidental take,'' where you described a hypothetical scenario where 
a representative from an oil company that ``is driving on a road in 
Montana and hits a bird in the windshield, accidentally.'' Surely it is 
highly unlikely that in this hypothetical, with no other contributing 
circumstances, the individual would be held criminally liable. However, 
if that same oil company leaves its oil pits uncovered, even after 
thousands of birds have died there and the best available science says 
those pits should be covered as basic management practices, that is a 
different matter.

          5a. Do you view the death of birds in those uncovered oil 
        pits as an ``incidental take'' the same way you had with the 
        accidental example you gave that oil company driving on a 
        Montana road? Or should that oil company, with the uncovered 
        oil pit, be held liable under the MBTA because it knowingly 
        caused the take of birds because it was entirely foreseeable 
        and expected to occur?

    Answer. The M-Opinion concludes that take (pursue, hunt, shoot, 
wound, kill, trap, capture, or collect or attempt any of these actions) 
of migratory birds protected under the Migratory Bird Treaty Act (MBTA) 
that is not the purpose of the activity that resulted in take, is not 
prohibited under the MBTA. If the intent of the oil company is not to 
take birds, then any take resulting from exposed oil pits would be 
considered incidental and therefore not prohibited under the MBTA. 
However, as before the M-Opinion was released, the U.S. Fish and 
Wildlife Service will continue to investigate and work with the 
Department of Justice to prosecute cases of prohibited take on a case-
by-case basis. We will continue to work with industry and other 
partners who wish to minimize the impact on migratory birds from 
development and activities that may result in unintended or incidental 
migratory bird capture or mortality.

    Question 6. I hear many concerns raised by Vermonters that under 
your leadership the Department of the Interior is not committed to 
keeping America's Federal lands public for the benefit of all Americans 
and instead is interested in privatizing our national parks and public 
lands.

          6a. Do you oppose any and all proposals to privatize, sell 
        off, or transfer America's public lands out of public 
        ownership?

    Answer. I adamantly oppose the wholesale sale or transfer of public 
lands out of public ownership. I do support the use of authorizations, 
such as the Federal Land Transaction Facilitation Act, which allow for 
the sale of low conservation value lands so proceeds can be used to 
acquire higher conservation value lands.

    Question 7. The new ``Made in America'' Outdoor Recreation Advisory 
Committee announced in March appears to be comprised mostly of members 
who have a financial interest in the Department's policy decisions. In 
fact, your own staff had flagged that some of those members had 
potential conflicts of interest, but they were still selected to serve 
on the Advisory Committee.

          7a. Are you stacking this advisory Committee with industry 
        interests set to profit off of policy changes?

    Answer. With its focus on public-private partnerships, the Made in 
America advisory committee is specifically intended to address issues 
relating to the leveraging of the private sector in support of 
improving access to, and the facilities available on, the nation's 
public lands and waterways. As such, it is both necessary and desirable 
to engage with senior leaders in such industries to develop the best 
advice and recommendations for Departmental actions to improve its 
programs. The Department did not select members simply because their 
industry may profit, but rather based on their diverse backgrounds and 
expertise in recreational industries.

          7b. Why did Department officials reject for this Advisory 
        Committee nearly every proposed individual who works in non-
        motorized outdoor recreation activities such as mountain 
        climbing, hiking and kayaking?

    Answer. The Department did not specifically reject such interests 
for the committee. Rather, the Department selected, consistent with 
applicable regulations, members with a balanced set of viewpoints with 
respect to the function to be performed, which is to provide advice 
regarding the private sector's views on possible public-private 
partnerships to improve accessibility and infrastructure on public 
lands and waters.

    Question 8. Vermont's climate is changing and the same can be said 
for the rest of the country. Throughout the northeastern U.S., spring 
arrives earlier, bringing more precipitation and more frequent heavy 
rainstorms. Summers are hotter and drier, while winter weather grows 
more unpredictable from year to year. Severe storms increasingly cause 
floods that damage property and infrastructure. In the coming decades, 
changing climate is likely to harm ecosystems, disrupt agriculture and 
winter recreation, and increase some risks to human health.

          8a. Do you agree with the scientific consensus that climate 
        change is real and caused by human activities?

    Answer. I agree the climate is changing, although it has always 
changed. Whether man is the direct result, how much of that result is, 
that's still a question.

          8b. How are you addressing the causes and impacts of climate 
        change when managing our public lands and natural resources?

    Answer. Interior is taking action to in a changing climate. For 
example, it is clear elevated temperatures and longer seasons are a 
factor leading to more forest fires and an extended fire season. 
Interior is taking active management approaches as a stewardship 
strategy to reduce the impact of wildfire.
                                 ______
                                 
              Questions Submitted by Senator Steve Daines
    Question 1. Montana Tribes need strong, permanent leadership in 
positions that serve Indian country. That includes an Assistant 
Secretary for Indian Affairs, and national and regional BIA directors. 
Can I get your assurance that you are working diligently to fill the 
position of BIA director with a permanent leader who has a deep 
understanding of the challenges Montana Tribes face?

    Answer. BIA works to enhance the quality of life, promote economic 
opportunity, and carry out the Federal responsibility to protect and 
improve the trust assets of American Indians, Indian Tribes and Alaska 
Natives throughout the country. I am well aware of the important role 
the BIA Director fills in providing the necessary leadership for this 
work, and I assure you that I am diligently working to fill this 
position with a leader who has a thorough understanding of issues 
affecting all Tribes, including those in Montana.

    Question 2. The Department's September 2017 workplace survey 
details an estimated 40.2 percent of BIA employees experienced one or 
more forms of harassment over the course of a year. What are you doing, 
as Secretary, to combat harassment within the Bureau of Indian Affairs?

    Answer. BIA leadership developed and is now implementing an action 
plan in response to the 2017 Work Environment Survey. The action plan 
includes provisions requiring all supervisors to complete civility 
training; establishing an ombudsman for both BIA and BIE; issuing a new 
Indian Affairs harassment prevention policy; and fully implementing the 
Department's Personnel Bulletin 18-01--Prevention and Elimination of 
Harassing Conduct. We are monitoring receipt and review of the 
Department's policy through a system that requires IA employees to 
certify when they have read the policy. BIA and BIE HR offices are also 
submitting monthly reports to the Department on all current, open 
misconduct cases, including those dealing with harassing conduct. 
Through these efforts, and my consistent messaging on this topic, we 
are establishing a zero tolerance for harassment across Interior.

    Question 3. The DOI workplace report excluded accounts of 
harassment within the Bureau of Indian Education because you didn't 
receive enough responses from BIE personnel. Mr. Secretary, how are you 
working to increase reporting across DOI agencies and especially at BIE 
so that DOI staff, which at BIE includes educators and school 
administrators, don't suffer in silence?

    Answer. We are working with the Associate Chief Information Officer 
for AS-IA to identify solutions to the IT challenges experienced during 
the 2017 Work Environment Survey. Although BIE did not have a response 
rate high enough to generate data, we believe it is appropriate to 
apply the BIA Work Environment Survey action plan items to BIE to 
ensure that we combat harassment throughout both bureaus.
                                 ______
                                 
               Questions Submitted by Senator Marco Rubio
    Question 1. What is the current status of the Department's National 
Outer Continental Shelf Proposed Program for 2019-2024 being developed 
by the Bureau of Ocean Energy Management, and do offshore areas off of 
Florida factor into that program?

    Answer. In its analyses to support upcoming decisions on the 
Proposed Program, BOEM is continuing to assess information gathered 
from Governors, the public and others on the 25 planning areas 
presented in the Draft Proposed Program (a map of the planning areas 
can be found at: https://www.boem.gov/National-Program-Learn/). The 
next step in the process is to publish a Proposed Program and Draft 
Environmental Impact Statement, both of which will be available for 
public comment. Additional public meetings will also occur after their 
publication.

    Process.--The National OCS Program includes the following steps 
(note that timing could change):

  --Request for Information and Comments--published July 2017, followed 
        by a 45-day public comment period that resulted in the 
        submission of approximately 816,000 comments.
  --Draft Proposed Program (DPP)--published Jan 2018 with a 60-day 
        comment period that resulted in the submission of approximately 
        1.86 million comments. (23 public meetings were held during 
        this time.)
  --Notice of Intent to prepare the Programmatic Environmental Impact 
        Statement--published January 2018 with a 60 day comment period.
  --Proposed Program (PP)--expected to publish late 2018 with a 90-day 
        comment period.
  --Publication of the Draft Programmatic Environmental Impact 
        Statement--expected to publish late 2018 with a 90-day comment 
        period.
  --Proposed Final Program (PFP)--expected late 2019.
  --Publication of the Final Programmatic Environmental Impact 
        Statement--expected late 2019.
  --Approval of a Final Program (occurs at least 60 days after 
        submittal of PFP to the President and Congress).

    This process provides the opportunity for the Secretary to winnow 
the number of lease sales and areas under consideration based on the 
analyses and public input that accompanies each proposal. For further 
information, a flow chart of the above process can be found at: https:/
/www.boem.gov/BOEM-OCS-Oil-Gas-Leasing-Process/.

    Question 2. To what degree has DOI communicated with the Department 
of Defense and considered potential conflicts and interference to the 
Joint Gulf Range Complex from drilling and pre-drilling activities in 
the Eastern Gulf of Mexico?

    Answer. DOI and BOEM work cooperatively with the Department of 
Defense (DoD) at the planning, development, and operational stages of 
OCS oil and gas leasing activities to ensure that each agency meets its 
mission while not unduly interfering with the other's activities. This 
has been accomplished for more than 30 years under a 1983 Memorandum of 
Agreement (MOA) between DOI and DoD. The coordination and consultation 
mechanisms set forth in the MOA have enabled DOI and BOEM to meet the 
goal outlined in the OCS Lands Act to make OCS resources available for 
expeditious and orderly development, and have enabled DoD to meet its 
critical national defense and security mission.
    Through implementation of the MOA, BOEM-authorized oil and gas 
activities and DoD operations have co-existed for decades on the U.S. 
OCS. For example, there are currently 28 OCS conventional energy leases 
in the Eastern Gulf of Mexico Planning Area (two of these leases 
straddle the Central Gulf of Mexico/Eastern Gulf of Mexico boundary). 
Please refer to the included map that illustrates the Gulf of Mexico 
active leases within military warning areas. In addition to these 
leases, there are 321 leases in the Western Gulf of Mexico Planning 
Area and 759 in the Central Gulf of Mexico Planning Area that have some 
form of military-related stipulation(s). BOEM typically mitigates the 
potential for multiple use conflicts with DoD activities by including 
stipulations in its Gulf of Mexico oil and gas leases.
    With regard to the 2019-2024 National OCS Oil and Gas Leasing 
Program, BOEM and DoD have held a number of meetings and have been 
closely coordinating to help ensure that the Secretary of the Interior 
has the information needed about DoD's OCS activities when determining 
the areas to be included or excluded from the National OCS Program. On 
February 1, 2018, DoD provided comments in response to the publication 
of the Draft Proposed Program to inform DOI that a detailed assessment 
of the compatibility of military and OCS oil and gas development 
activities in the DPP areas will be provided to DOI; and in April, BOEM 
held a webinar to discuss and provide detail about offshore oil and gas 
technology and development activities to help inform this compatibility 
assessment. BOEM looks forward to receiving this input and continuing 
to engage with DoD during the 2019-2024 National OCS Program 
development process.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 3. Given that BOEM's own data suggests that the Straits of 
Florida Planning Area has less than negligible development value even 
at extremely high oil prices, would you oppose a Congressional 
moratorium on oil and gas development in this area? What about in 
Federal waters of the South Atlantic Planning Area off the coast of 
Florida?

    Answer. Section 18 of the OCSLA provides for a multi-phased process 
with several opportunities for public input and analysis of eight 
factors in relation to oil and gas activities in the OCS. This process 
allows for consideration of, and response to, changed circumstances, 
new information, and other factors that would be unavailable under a 
blanket moratorium.

    Question 4. Can you comment on the importance of partnerships with 
State and local governments in managing the impacts of species, like 
old-world climbing fern in the Loxahatchee National Wildlife Refuge, 
Burmese pythons in Big Cypress National Preserve, or indo-pacific 
lionfish in Biscayne National Park?

    Answer. Working with partners such as State and local governments 
is paramount when trying to manage the impacts of invasive species 
throughout the United States, including old-world climbing fern in the 
Loxahatchee National Wildlife Refuge, Burmese pythons in Big Cypress 
National Preserve, and indo-pacific lionfish in Biscayne National Park. 
Invasive species do not respect geopolitical boundaries and 
partnerships to prevent, eradicate, and control invasive species are 
most effective. Partnering allows for the sharing of the information, 
skills, tools, and technologies that enable everyone in an area to 
effectively prevent, eradicate, and control invasive species. Effective 
partnerships integrate efforts from the local to national scales, which 
helps to greatly enhance the effectiveness of prevention and early 
detection and rapid response measures which are the most cost effective 
way to manage invasive species.

    Question 5. With what additional authorities can Congress provide 
the Department to ensure maximum efficacy and efficiency in targeting 
and eliminating invasive species populations in vulnerable ecosystems 
within Federal lands and waters?

    Answer. Reauthorize Title 18 of the Lacey Act: The injurious 
wildlife provision of the Lacey Act is an important management tool 
that the FWS uses to prevent the introduction and spread of invasive 
species in the United States. However, as a result of an April 7, 2017, 
D.C. Circuit Court of Appeals decision, transportation of injurious 
wildlife between the 49 States within the continental United States is 
no longer prohibited. The D.C. Circuit Court of Appeals decision 
diminishes the ability of the FWS to manage the establishment and 
spread of terrestrial and aquatic invasive species in the United 
States. Additional steps that could be taken to strengthen and 
modernize the injurious wildlife provisions of the Lacey Act could 
include: (1) emergency listing authority for species that pose an 
imminent threat; and (2) prohibiting importation of wildlife not yet in 
trade until they have been assessed for injuriousness.
    Reauthorize the National Invasive Species Act: Since the Act was 
reauthorized in 1996, major advances in scientific knowledge associated 
with the introduction, management, and impact of aquatic nuisance 
species across the Nation have been achieved. Reauthorizing the Act 
would provide an opportunity to incorporate new approaches to prevent, 
control, and manage aquatic nuisance species, in particular programs 
focused on prevention, early detection and rapid response to control or 
eradicate high-risk and newly detected invasions, public outreach and 
education, and research.

    Question 6. The most recent report from the Department of the 
Interior's Office of the Inspector General, which analyzed the proposed 
entry fee and commercial use authorization (CUA) program changes, 
specifically recommended making modest increases and holding extensive 
dialogue with the travel and tourism industry before making changes. 
Was the current proposal developed in keeping with such 
recommendations? How often do you plan to re-evaluate entry fees and 
CUA program changes going forward?

    Answer. The NPS has engaged with the travel industry over the past 
several years about the need to update entrance fee rates, which had 
not changed since 1998, as well as creating consistency in the CUA 
program. This interaction with industry groups like the National Tour 
Association included multiple meetings between senior managers, as well 
as NPS representation at events like the U.S. Travel Association's 
International Pow Wow, the travel industry's premier international 
marketplace and the largest generator of travel to the U.S. Once the 
NPS finalized the changes, it provided the travel industry 18 months of 
notice prior to implementing the changes. The NPS will re-evaluate 
commercial tour entrance fees every 3 years. Similarly, the NPS intends 
to evaluate road-based commercial tour CUA application and management 
fees periodically to ensure parks are meeting the legal requirement to 
recover administrative and management costs and may adjust CUA fees 
accordingly.

    Question 7. Will park entrance fees for group tours be pre-
calculated based on vehicle configuration or will operators need to 
calculate the fees based on the people actually participating on each 
trip?

    Answer. The park entrance fees for group tours will be calculated 
based on the number of customers on board the vehicle (driver and 
guide/s are excluded).

    Question 8. What authority do individual Park Superintendents have 
to propose and modify entrance fees and CUA program changes? To what 
degree do Park Superintendents have authority or responsibility to 
mitigate impacts of any entrance fee or CUA changes on park users?

    Answer. The NPS has been working toward full implementation of a 
standard pricing model that groups parks by legislative designation to 
determine appropriate fees. Fee changes may be proposed by park 
superintendents or by NPS or Departmental management and always involve 
public engagement pursuant to the requirements of the Federal Land 
Recreation Enhancement Act (FLREA). Commercial tour entrance fees are 
set at the national level for consistency; superintendents do not have 
the ability to independently modify those fees.
    The NPS set the fees and process for road-based commercial tours to 
ensure fairness and consistency after feedback and discussions with 
industry representatives.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question 1. I am deeply concerned that the National Park Service is 
moving toward phasing out historic grazing and ranching at the Point 
Reyes National Seashore in a manner that is inconsistent with 
Congressional intent.
    The National Park Service is currently working on a General 
Management Plan Update for ranching activities at Point Reyes National 
Seashore pursuant to a legal settlement from July 2017. Per the 
settlement, the Park Service has 4 years to complete this update to the 
management plan. However, I am deeply concerned that the Park Service 
may propose eliminating ranching altogether, which is not what Congress 
intended when initially designating the National Seashore.

          1a. Do you believe that historic ranching and dairy 
        activities should be maintained at Point Reyes National 
        Seashore?

    Answer. The Department has consistently supported ranching at Point 
Reyes National Seashore. Pursuant to a settlement agreement stemming 
from litigation that began in 2016, the NPS is required to complete a 
General Management Plan Amendment and Environmental Impact Statement, 
including analysis of no ranching, reduced ranching, and no dairy 
alternatives. The NPS will also evaluate alternatives that continue 
ranching. The settlement agreement also authorized the park to issue 
interim leases, covering the period through mid-July 2022, to all park 
ranchers engaged in the settlement agreement.
    In October 2017, the NPS released a conceptual range of six 
alternatives for public comment, with an initial proposal that would 
allow existing ranch families to continue beef cattle and dairy 
ranching operations under agricultural lease/permits with 20-year 
terms. The NPS expects to initiate the formal National Environmental 
Policy Act process in the fall of 2018.

    Question 2. On September 1, 2017, the Office of the Solicitor 
issued an opinion (M-37048) that permanently withdrew a previous 
opinion (M-27025) and superseded a third opinion (M-36964) with respect 
to the Department of the Interior's interpretation of the General 
Railroad Right-of-Way Act of March 3, 1875.
    This new opinion followed the temporary suspension and withdrawal 
of M-37025 on June 30, 2017 in order to ``determine if the analysis set 
forth in the opinion is complete and whether post-2011 decisions should 
be factored into the opinion.''
    The new opinion (M-37048) stated: ``For the reasons set forth 
below, this memorandum concludes that the rights-of-way granted to 
railroad companies under the 1875 Act allow railroad companies to lease 
portions of their easements to third parties without permit or grant 
from the Bureau of Land Management (``BLM''), provided that such leases 
are limited to the surface, broadly defined, of the easement and do not 
interfere with the continued use of the easement as a railroad.''
    I am deeply concerned that through this new opinion, the Department 
is abdicating its role as a steward of public land and no longer 
ensuring that railroads only permit use of their right-of-way for 
railroad purposes. It is critical that railroad rights-of-way not be 
abused and become a new loophole in environmental laws.

          2a. What specifically prompted the Solicitor's office to 
        initiate the June 30, 2017 review of M-37025 and M-36964?

    Answer. As explained in the June 30, 2017, memo from the Office of 
the Solicitor that temporarily suspended M-37025, court action since 
issuance of M-37025 in 2011 prompted a review of M-37025 to determine 
if the analysis set forth in the opinion was complete and whether the 
post-2011 decisions should be factored into the opinion. Specifically, 
the memo noted that the U.S. Supreme Court discussed in detail the 
General Railroad Right-of-Way Act of March 3, 1875 in Marvin M. Brandt 
Revocable Trust v. United States, 134 S. Ct. 1257 (2014) and that the 
1875 Act, as well as other rights-of-way grants, were at issue in 
California State Court (Union Pacific Railroad Co. v. Santa Fe Pacific 
Pipelines, Inc.) and a U.S. District Court (Serrano et al. v. Union 
Pacific Railroad Co., et al.).

          2b. I am concerned about potential conflicts of interest. 
        Were any waivers sought or granted for the individuals involved 
        in this review at every level of the Department?

    Answer. No waivers were sought or granted for the individuals 
involved in this review at any level of the Department.

    Question 3. On September 14, 2016, the Bureau of Land Management 
issued the Record of Decision for the Desert Renewable Energy 
Conservation Plan Land Use Plan Amendment (DRECP) after nearly a decade 
of careful negotiations with a broad range of desert community 
stakeholders. The DRECP Record of Decision amended the California 
Desert Conservation Area (CDCA) Plan, Bishop Resource Management Plan 
(RMP), and the Bakersfield RMP in the Mojave and Colorado/Sonoran 
Desert regions of southern California.
    However, pursuant to the March 2017 Executive Order 13783, 
``Promoting Energy Independence and Economic Growth'', the Bureau of 
Land Management issued a notice in the Federal Register on February 2, 
2018 to begin public comment on a review and potential revision of the 
DRECP.

          3a. What factors will be utilized in this decisionmaking 
        process?

    Answer. Executive Order 13783, ``Promoting Energy Independence and 
Economic Growth,'' directs Federal agencies to review all actions that 
could ``potentially burden the development or use of domestically 
produced energy resources.'' To meet the requirements of EO 13783, the 
Bureau of Land Management (BLM) and interested stakeholders are 
reviewing the DRECP to identify any potential burdens on domestic 
renewable energy production in California.
    Since February 2, 2018, the BLM hosted eight public meetings and 
received more than 25,000 public comments on the Notice of Intent to 
consider amending the three land use plans that underlie the DRECP. The 
BLM also received a number of letters, which they are reviewing 
carefully, from members of Congress and local governmental officials.
    The BLM will use this information to help set the parameters and 
scope of the review. As part of the review, they will evaluate whether 
additional flexibility is needed to accommodate renewable energy 
development and multiple use. Public participation is vital to this 
process.

          3b. What is the timeline for when the review will be 
        completed?

    Answer. The BLM plans to publish a scoping report that summarizes 
the public comments later this year.

          3c. I am concerned about potential conflicts of interest. 
        Were any waivers sought or granted for the individuals involved 
        in this review at every level of the Department?

    Answer. The Department's ethics policy requires all DOI employees, 
including those of the BLM, to proactively identify potential conflicts 
of interest and respond appropriately if any are identified. The 
Department and the BLM have not identified any employees working on the 
DRECP review with any conflicts of interest.

    Question 4. I understand that the Department has implemented a new, 
centralized grant review process that has created significant delays in 
awarding appropriated funding to outside partner organizations for the 
purposes intended by Congress.
    I have heard from several California non-profit organizations that 
these excessive delays in funding have had a crippling impact on 
organizations that partner with the Department to provide critical 
services and employment opportunities to small, often rural 
communities, such as the Conservation Corps.

          4a. How many Department staff are involved in this seemingly 
        large undertaking?

    Answer. In addition to the grant program managers, the awards are 
reviewed and approved by the relevant Assistant Secretaries. At the 
Departmental level, a coordinator reviews the final package before 
awards are made.

          4b. What has been the result of this review to date?

    Answer. The Department awards billions in grants and cooperative 
agreements each year and the process provides a valuable check.

          4c. When will the Department's review be completed?

    Answer. The review is ongoing and there is no completion date.

    Question 5. Thank you for your March 23, 2018 response to my 
December 20, 2017 letter requesting the Department of the Interior 
establish an interagency working group. I appreciate your stated 
commitment to continue to support the State of California's efforts, as 
well as to work with local agencies and other institutions.
    However, I am disappointed that the Department will not create an 
interagency task force, which would help to streamline the multiple 
Federal agencies' relationship with State and local agencies.

          5a. How is the Department fulfilling the commitments it made 
        in the August 31, 2016 Memorandum of Understanding (MOU) 
        executed between the Department of the Interior and California 
        Natural Resources Agency, specifically, the objectives listed 
        in Section IV A, D and E of the MOU?

    Answer. Interior's bureaus continue to coordinate on a routine 
basis with the State of California and with local agencies. We maintain 
a presence in the Salton Sea basin, and bureau representatives 
routinely participate in coordination and technical meetings, including 
State Salton Sea Management Program meetings, Salton Sea Authority 
meetings, and DOI-State coordination meetings. Senior level officials, 
including Regional and Deputy Regional Directors as well as 
headquarters-level officials as necessary, remain involved in 
discussions to an extent that will facilitate decisionmaking when the 
State begins project implementation. Regional DOI representatives have 
reached out to engage other Federal entities (including the EPA and 
Corps of Engineers) as well.
    Field and regional-level meetings between various Federal and State 
agencies are occurring in order to organize information, authorities 
and possible funding streams that will best meet the needs of the 
Salton Sea as State-led projects become ready for permitting and 
implementation. In addition, Interior is coordinating with partners on 
multiple projects, including completing the Red Hill Bay Shallow Marine 
Habitat project to meet habitat improvement requirements and dust 
suppression on exposed playa; providing recreational boat access to the 
Sea, which is currently restricted due to declining water levels; 
partnering on efforts to reduce air quality emissions and subsequent 
human health impacts through projects such as determining if ground 
water can be used to reduce dust on existing exposed playa; and 
constructing wetlands such as the Holtville-Alamo River wetlands to 
improve water quality and support selenium reduction.
                                 ______
                                 
            Questions Submitted by Senator Chris Van Hollen
    Question 1. Below I have an excerpt from the Committee transcript 
where we discussed the Migratory Bird Treaty Act (MBTA) and future 
claims seeking fines or penalties for violations of MBTA after an oil 
spill.
    Let me ask you another question related to damage from oil spills. 
I understand that changes you've made with a reinterpretation of the 
Migratory Bird Act would mean oil companies responsible for oil spills 
would no longer have to pay damages for massive loss of bird life under 
the Migratory Bird Treaty. That was the finding, is that correct?

    Answer. That is not correct.

    Question 1 [continuing]. In this question, you assert that it is 
not correct that under the new legal opinion, or M-Opinion, of the 
Migratory Bird Treaty Act, oil companies responsible for oil spills 
would no longer have to pay damages for the massive loss of bird life 
under the MBTA.
    However, on April 11, 2018, U.S. Fish and Wildlife Service 
Principal Deputy Director Greg Sheehan issued a Guidance Memo to 
Service Directorate on the recent M-opinion affecting the Migratory 
Bird Treaty Act. The memo includes a 5 page attachment entitled 
``Frequently Asked Questions Regarding Implementation of the M-
Opinion''. I have attached that document for your reference.
    Question 5 of that Frequently Asked Questions Document poses the 
question, ``How does the M-Opinion affect the Natural Resources Damage 
Assessment program (i.e., specifically related to oil spills)?''
    And the answer specifically states: ``In practice, however, the M-
opinion will have an effect on future claims seeking fines or penalties 
for violations of the MBTA from companies responsible for oil spills 
and hazardous releases. In addition to pursuing damage claims under the 
NRDAR program, the Department has pursued MBTA claims against companies 
responsible for oil spills that incidentally killed or injured 
migratory birds. That avenue is no longer available.''
    Mr. Secretary, the Guidance Memo issued to the U.S. Fish and 
Wildlife Service Directorate makes it clear that the Department will no 
longer have the avenue to pursue damage claims under the MBTA against 
companies responsible for oil spills that incidentally killed or 
injured migratory birds. Please clarify for the record whether, going 
forward, the Department will be able to secure fines or penalties for 
violations of the Migratory Bird Treaty Act against companies 
responsible for an oil spill that incidentally and non-intentionally 
kills birds similar to the BP Deepwater Horizon disaster of 2010, which 
killed an estimated 1,000,000 migratory birds.

    Answer. In practice, the new M-Opinion means that if an oil or 
hazardous chemical release occurs and is not done with the intent of 
taking migratory birds, the MBTA does not apply. Protections of 
publicly held natural resources, including migratory birds, under other 
authorities (such as the Comprehensive Environmental Response 
Compensation and Liability Act, Oil Pollution Act, and Clean Water Act) 
will still apply in these situations. Parties responsible for these 
incidents will still be held accountable under the incidental take 
prohibitions in the Endangered Species Act and Bald and Golden Eagle 
Protection Act, as well as any applicable State laws. The M-Opinion 
applies to all industries equally, and the Department will continue to 
work with our industry partners to minimize impacts on migratory birds, 
whenever proponents or operators are willing to work with us toward 
this goal.
                                 ______
                                 
              Questions Submitted by Senator Jeff Merkley
    Question 1. I am concerned about the pressing need to improve 
public safety and fund Tribal police in Indian Country. This is an 
issue that affects every Tribe across Oregon and the country. While 
more funding is needed across the board, there is also a disparity 
between Tribes in the allocation of Federal dollars for law 
enforcement. A 2017 BIA report to Congress found that funding for 
public safety runs $1 billion short each year. This problem is worse 
for Tribes under State jurisdiction through PL 83-280 and Tribes with 
compacts under Public Law 93-638.
    For instance, in my State of Oregon, many restored Tribes do not 
receive funding that Tribes that were never terminated receive. The 
Confederated Tribes of Grand Ronde, for example, employ seven full-time 
sworn officers and provide 24/7 coverage enforcing Oregon State law 
over an area over 100 square miles. Yet they are not eligible for base 
operations funding through BIA.
    This committee included language in the fiscal year 2018 Omnibus 
highlighting this problem and asking BIA to conduct an analysis of the 
issue and report back to Congress. What is the status of this report? 
Can I count on you to work with me on this important issue going 
forward?

    Answer. The BIA is reviewing the issue to develop the report.

    Question 2. In the fiscal year 2017 Omnibus, Congress included 
language requesting that the Bureau of Indian Affairs (BIA) provide a 
needs assessment for law enforcement and operations and maintenance 
needs at treaty fishing sites on the Columbia River.
    The BIA was supposed to provide that assessment to Congress within 
60 days. 730 days later that assessment still has not been provided to 
Congress. The fiscal year 2018 Omnibus noted the BIA's failure to 
provide the report and requested in again. I have been told that BIA 
has finally completed, but not released, the report.
    I have personally visited some of these sites and have witnessed 
firsthand the horrendous conditions they must endure because the 
Federal Government has failed to meet its obligations.

          2a. When will BIA be providing the requested needs 
        assessments to Congress?

    Answer. The report will be transmitted to Congress once review is 
completed.

          2b. How will the BIA be incorporating the outcome of this 
        needs assessment into future budget proposals?

    Answer. We are committed to providing resource stewardship and 
protection throughout Indian Country. Budget formulation decisions are 
based on delivering services that provide benefits to the greatest 
number of Tribes nationwide.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
    Question 1. Rhode Island's success in establishing the nation's 
first commercial offshore wind energy project was based in large part 
on significant outreach to existing ocean stakeholders, including 
commercial and recreational fishermen, to identify and work through any 
concerns early in the process. Based on comments from Rhode Island 
fishermen, this is not occurring under the Bureau of Ocean Energy 
Management's (BOEM) new expedited leasing process. What actions will 
BOEM take to increase engagement with Rhode Island fishermen at each 
stage of the leasing process to offset adverse impacts to the fisheries 
economy?

    Answer. Stakeholder engagement is integral to BOEM's renewable 
energy planning and leasing efforts. BOEM recognizes that fishermen are 
an important ocean user group that may be affected by offshore 
renewable energy development. Throughout the entire process, including 
early planning, leasing, and then review of lessee wind facility plans 
and the construction and operations phase, BOEM strives to engage 
fishermen. This is done through meetings, workshops, and soliciting 
input into project siting, best management practices, and research and 
monitoring. BOEM shares the results of research and monitoring during 
public forums, and by making the material available on our website. 
These meetings, workshops, and public forums may be regionally or 
project/site-specific focused. Between 2012 and 2014, BOEM held nine 
fisheries best management practices workshops throughout the Mid-
Atlantic and Northeast regions, which resulted in the development of 
five best management practices and mitigation measures for the offshore 
wind industry to address potential use conflicts with fishing. More 
recently, BOEM sponsored a National Academies Atlantic Offshore 
Renewable Energy Development and Fisheries Workshop in November 2017. 
BOEM also participated in the Southern New England Offshore Wind Energy 
Science Forum in December 2017, which focused on developments related 
specifically to the Block Island Wind Farm project. Most recently, BOEM 
held two open houses concurrent with regional fishery management 
council meetings to solicit comments on four offshore wind-related 
notices open for public comment in April 2018, as well as a workshop in 
New Jersey in May 2018 to gather additional information regarding 
leasing in the New York Bight. To help coordinate the renewable energy 
planning and leasing efforts and to implement one of the previously 
mentioned best management practices, BOEM requires that developers 
provide a fisheries liaison, and has also published guidance to lessees 
regarding fisheries communication plans, which BOEM continues to 
evaluate based on feedback received from the fishing industry.
    BOEM currently has several projects in the post-leasing phase. For 
example, BOEM has started the environmental review process for the 
Vineyard Wind project Construction and Operations Plan. BOEM is 
considering the comments received during the public scoping meetings to 
inform the impacts to fishing. BOEM will also hold public hearings on 
the draft EIS to get public feedback on information related to 
potential impacts from the project. All of this information will inform 
the final EIS, and ultimately the BOEM decision regarding the project.
    There is no new BOEM-initiated expedited leasing process; the 
planning and leasing process is a coordinated and comprehensive process 
that takes several years to complete and includes multiple 
opportunities for stakeholder engagement (see https://www.boem.gov/
Regulatory-Roadmap/). During each of these opportunities BOEM will 
endeavor to ensure that fisheries constituents have the ability to 
provide comment. At a minimum, BOEM will ensure that affected fishery 
management councils are notified of the opportunity to provide comment 
via direct email and via updates at regularly scheduled fishery 
management council meetings. Additional outreach may include meeting 
with State-led fishery groups and having a fisheries outreach table at 
relevant task force meetings. Throughout its process, BOEM holds public 
meetings in order to inform what areas should be considered for 
leasing, and what impact leasing decisions will have on fishery 
resources and fishing. Depending on the potential impact of leasing to 
fishing communities, BOEM may schedule additional meetings in fishing 
port towns and specifically seek the participation of the fishing 
industry.
    BOEM conducts its leasing process in consultation with 
Intergovernmental Renewable Energy Task Forces. Meetings of the Task 
Forces are open to members of the public, where they may communicate 
independently with BOEM and other agencies participating in the Task 
Force concerning issues pertaining to the leasing proposal. BOEM and 
other agencies meet with public stakeholder groups to address their 
comments and concerns (e.g., the Rhode Island Fishery and Habitat 
Advisory Boards and the Massachusetts Habitat and Fisheries Working 
Groups). BOEM also regularly updates the New England Fishery Management 
Council, the Mid-Atlantic Fishery Management Council, the South 
Atlantic Fishery Management Council's Habitat Advisory Panel, and the 
Atlantic States Marine Fisheries Commission on the status of projects 
and opportunities for public comment.

    Question 2. Oil and gas drilling off the coast of New England could 
have devastating consequences for Rhode Island's coastal habitats as 
well as the State's coastal economy. Our coastal waters are home to 
plant and animal species that rely on a healthy marine ecosystem. Our 
region is also known for its proud fishing heritage, which could be 
quickly destroyed if an oil spill were to occur. Our coastal economies 
generate more than $17 billion for New England annually and support 
more than 240,000 jobs in tourism and other industries. You have 
previously indicated that President Trump directed you to reestablish 
our nation's offshore oil and gas leasing program in a way that ``takes 
into consideration the local and State voice.'' Given the overwhelming 
State and local opposition to drilling off the coast of Rhode Island, 
will you commit to exempting the State from any new oil or gas leases 
as a part of this Administration's offshore drilling plan?

    Answer. Section 18 of the OCS Lands Act details the decisionmaking 
process governing development of a National OCS Program. The Secretary 
must consider eight factors when determining the size, timing, and 
location of potential oil and gas lease sales among the different areas 
of the OCS but has the discretion to reach a reasonable determination 
based on his consideration of these factors.
    The public comments from the Draft Proposed Program (DPP) and 
information from the Proposed Program analysis and the draft 
Programmatic EIS will further inform the Secretary's consideration of 
OCS areas for potential leasing. Inclusion of an area at the DPP or 
Proposed Program phase is not a final indication it will be included in 
the final approved Program or offered in a lease sale.
    Additional decision points remain in the process. The next step in 
the process is to publish a Proposed Program and Draft Environmental 
Impact Statement, both of which will be available for public comment. 
Additional public meetings will also occur after their publication. 
Below are the milestones remaining in the development of the 2019-2024 
National OCS Program.

  --Proposed Program (PP)--expected to publish late 2018 with a 90-day 
        comment period.
  --Publication of the Draft Programmatic Environmental Impact 
        Statement--expected to publish late 2018 with a 90-day comment 
        period.
  --Proposed Final Program (PFP)--expected late 2019.
  --Publication of the Final Programmatic Environmental Impact 
        Statement--expected late 2019.
  --Approval of a Final Program (occurs at least 60 days after 
        submittal of PFP to the President and Congress).

    This process provides the opportunity for the Secretary to winnow 
the number of lease sales and areas under consideration based on the 
analyses and public input that accompanies each proposal. For further 
information, a flow chart of the above process can be found at: https:/
/www.boem.gov/BOEM-OCS-Oil-Gas-Leasing-Process/.

    Senator Murkowski. Thank you for your leadership. 
Obviously, significant issues, and we want to make sure that 
the expectations that we have for you and your team to do your 
job as it relates to our public lands, their treasures and 
their economic opportunities, that you have the resources to do 
so. So we will be working with you.

                          SUBCOMMITTEE RECESS

    And with that, the subcommittee stands adjourned.
    [Whereupon, at 12:11 p.m., Thursday, May 10, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
